<html>
<title> - THE PROMISE OF ACCESSIBLE TECHNOLOGY: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[Senate Hearing 112-890]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-890

   THE PROMISE OF ACCESSIBLE TECHNOLOGY: CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

      EXAMINING ACCESSIBLE TECHNOLOGY, FOCUSING ON CHALLENGES AND 
                             OPPORTUNITIES

                               __________

                            FEBRUARY 7, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-669 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland       MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington            RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont        JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania  RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina        ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                JOHN McCAIN, Arizona
AL FRANKEN, Minnesota               PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado         LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island    MARK KIRK, IIllinois
RICHARD BLUMENTHAL, Connecticut     

             Daniel E. Smith, Staff Director, Chief Counsel
                 Pamela J. Smith, Deputy Staff Director
              Frank Macchiarola, Republican Staff Director

                                  (ii)












                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBRUARY 7, 2012

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3

                            Witness--Panel I

Hill, Eve, Senior Counselor to the Assistant Attorney General, 
  Civil Rights Division, Department of Justice, Washington, DC...     5
    Prepared statement...........................................     7

                          Witnesses--Panel II

Riccobono, Mark A., Executive Director, Jernigan Institute, 
  National Federation of the Blind, Baltimore, MD................    23
    Prepared statement...........................................    24
Quick, John B., Superintendent, Bartholomew Consolidated School 
  Corporation, Columbus, IN......................................    36
    Prepared statement...........................................    37
Turner, Mark, M.A., Director, Center for Accessible Media, 
  Accessible Technology Initiative, California State University, 
  Long Beach, CA.................................................    47
    Prepared statement...........................................    49

                                 (iii)



 
   THE PROMISE OF ACCESSIBLE TECHNOLOGY: CHALLENGES AND OPPORTUNITIES

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:36 p.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin and Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Health, Education, Labor, and 
Pensions Committee will come to order.
    This session of the Senate Committee on Health, Education, 
Labor, and Pensions will consider the topic of The Promise of 
Accessible Technology: Challenges and Opportunities. This is 
one of a series of hearings we have been holding since March 
2011 to explore a range of issues that can impact the 
employment situation for Americans with disabilities with the 
overall goal of boosting labor force participation for this 
community.
    Earlier hearings have focused on those with intellectual 
disabilities, how higher education can promote employment for 
people who are deaf and hard of hearing, transportation 
accessibility, and State and private strategies for employment 
of people with the most significant disabilities. This is also 
the first of the series of hearings that we will be holding 
this year on the use of education technology to improve student 
achievement.
    Innovations in technology are already transforming 
instruction in some schools and have great potential for 
personalizing the learning experience for all students. The 
education technology hearings will examine topics such as 
blended learning, professional development, and open 
educational resources. Today's hearing focuses on education, 
accessible technology, and universal design.
    We know without a strong education, the goals of the 
American Dream are difficult to attain for many Americans. In 
our modern classrooms, technology is playing an increasingly 
important role. For students who use technologies like screen 
readers to access text, a modern classroom can accelerate 
learning and level the playing field by allowing students to 
access digital content through screen reader technology.
    In a classroom that enables computer monitors on each desk, 
students can change the size of print and the background colors 
so they can see better what is on the screen. Those with 
learning disabilities and those with visual impairments can use 
audio books, and devices such as iPods can be set to aurally 
scan listings of books, music, and lectures.
    These are all examples of accessibility built into the 
technology that we use every day. But for every example we can 
find of accessible technology and curricula, there are other 
examples that are not accessible or are only accessible through 
modifications that can cost hundreds of dollars.
    In December, the U.S. Department of Education's Commission 
on Accessible Instructional Materials issued its report on 
Accessible Materials in Post-Secondary Education. The 
Commission, one of whose members is a witness today, stated,

          ``Individuals with disabilities must have equal 
        opportunity and discrimination-free access to full 
        participation and success in post-secondary 
        education.''

    The Commission is correct. Access to curriculum and 
instructional materials is a civil right, one that all students 
should be able to enjoy equally. Although technological 
advances make accessibility readily achievable in modern 
classrooms, the level of accessibility continues to be uneven.
    The Commission itself states that even,

        ``some digital materials that hold the most promise for 
        equal access are often partially or completely 
        inaccessible to students with disabilities.''

    We will hear from one of our witnesses about one of these 
digital resources that was inaccessible and how that barrier 
was overcome.
    If a portion of our students, any students, are 
systematically excluded from accessing their curricula because 
of inaccessible technology and because we have not designed 
curricula in a manner that allows them equal access to 
knowledge and skills, then we are systematically denying a 
portion of our next generation an equal educational 
opportunity. As you will hear from our witnesses today, 
technology and education itself must be made accessible from 
the beginning, not just as an afterthought.
    And it is not enough for us to ensure that the technology 
is accessible. We must then work to make the curricula we use 
in schools accessible to all students, designing the curricula 
from the ground up to be used by all students. This means 
ensuring that the ideas that are part of the curriculum are 
represented in multiple ways, through words, through graphics, 
through sound, through motion and movement.
    Technology and universal design can make learning more 
effective and more engaging. Today's witnesses will help us 
explore these issues.
    We have two panels before us. We will begin with Eve Hill, 
Senior Counselor to the Assistant Attorney General for Civil 
Rights at the Department of Justice. Our second panel is 
composed of Mark Riccobono, executive director of the Jernigan 
Institute of the National Federation for the Blind; Dr. John 
Quick, superintendent of the Bartholomew Consolidated School 
Corporation, a public school district in Columbus, IN; and Mr. 
Mark Turner, director of the Center for Accessible Media at 
California State University.
    Before we begin, I want to welcome a very large number of 
members of the National Federation of the Blind from around the 
country. I see you all here. We welcome you to this hearing. 
And, of course, if I might, as a matter of pride, welcome Marc 
Maurer, your president. Where is Marc sitting? Right in front--
from Boone, IA. I was in Boone last Saturday night. It is still 
there. Boone is still going strong.
    Congratulations, Marc, on your being the president of this 
great organization.
    Now I will yield to Senator Enzi for his opening statement.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    There is not a single aspect of daily life that hasn't been 
transformed or made easier through the use of technology. We 
only need to walk down the halls of this building to see how 
Blackberries and iPhones have made each of us more accessible 
to our colleagues as well as to our constituents. For me, 
personally, there is not a day that goes by that I do not use 
my Kindle to keep track of the volumes of messages I receive 
from the people of Wyoming and the memos my staff send.
    Now, you may have some ideas for some technology that will 
improve your life and many others. I do an Inventors' 
Conference in Wyoming once a year to encourage people to invent 
something and to get it to the stage where they can market it 
and sell it. So if you've got one of those ideas, consider 
doing that. It could be a whole new business as well as 
solutions for a lot of people.
    Now, in other professions and aspects of life, technology 
has been even more transformative. Last Thursday, the committee 
heard how technology is changing higher education, making it 
cheaper and more accessible to thousands of students. We heard 
how Virginia Tech is cutting costs by moving many of its 
introductory math courses online. MIT and Stanford are putting 
classes online for free, and Western Governors University is 
providing low-cost, high-quality degree programs completely 
online to thousands of nontraditional students. This is a 
welcome and necessary development if America is going to remain 
the world's economic leader.
    For individuals with disabilities, technology has been a 
godsend. It has created countless opportunities for the 
disabled that were beyond anyone's imagination just 5 years 
ago. We take for granted how many technologies developed to 
assist individuals with disabilities have been adapted for use 
by the general population. For example, closed caption TV and 
films. Once it was only available through the use of a special 
transformer. Now, every TV has the built-in capacity for closed 
captioning. And you cannot go to a single gym facility where 
the TVs do not have the captioning for the members.
    Now, just as we have benefited from technology developed to 
address specific disabilities, we must also take steps to 
assure that no one is left out of this technological 
revolution. We have seen how technology can create new barriers 
as well, as well-intentioned efforts to improve education 
through technology have simply turned out to be inaccessible to 
those with disabilities. That is what we need to know about.
    Now, this is certainly not intentional. Many manufacturers 
in their excitement to get new products to market simply do not 
anticipate the needs of the disability community. In other 
cases, technology reaches the consumer only to be used in ways 
never imagined. Fortunately, the schools and colleges that are 
innovating through technology are beginning to work with 
manufacturers to ensure their products are accessible by all 
students regardless of disability.
    Today we have on the panel two school systems that have 
found creative ways to increase access through technology and 
improve student outcomes. I look forward to hearing how they 
have enhanced their student educational opportunities as well 
as how they have been successfully working with manufacturers 
to benefit all of their students.
    Mr. Chairman, I have to apologize because we are having a 
markup in the Finance Committee on how to fund highways and 
bridges in this country, and figuring how to pay for it around 
here is pretty tough. So I am going to have to leave after a 
little while to do that.
    Mr. Chairman. I understand that.
    Mr. Enzi. But thank you for holding the hearing, and I will 
get a complete report on all of the suggestions that we get.
    The Chairman. Thank you, Senator Enzi, and thank you for 
your close working relationship on this. While we may have 
differences on some things that come before this committee, I 
can tell you this is one on which there is very close 
bipartisan agreement on the use of technology and making sure 
that technology is accessible and available and making sure 
curricula, as I said earlier, is designed. This is all 
intertwined.
    So I want to thank you, Senator Enzi, and thank your staff 
for a very close working relationship. I understand we do have 
to build some new bridges and roads in this country. I 
understand that full well.
    We will start with our first panel. Ms. Eve Hill joins us 
from the Civil Rights Division at the Department of Justice, 
where she serves as a Senior Counselor to the Assistant 
Attorney General. Over the course of her career, Ms. Hill has 
worked at the State and Federal level as well as private 
nonprofit organizations to ensure that education and job 
training meet the needs of people with disabilities.
    She was the first director of the Office of Disability 
Rights in Washington, DC. Ms. Hill was also the executive 
director of the Disability Rights Legal Center of Los Angeles 
and a supervisory attorney with the Department of Justice's 
Disability Rights section.
    Ms. Hill, welcome to the committee. Your statement will be 
made a part of the record in its entirety. I had the privilege 
of reading it last evening. It is very thorough, very 
comprehensive. I wish we had the time for you to read the whole 
thing. But if you could sum it up in several minutes, I'd sure 
appreciate it.
    Ms. Hill. I will do my best.
    The Chairman. Thank you.

        STATEMENT OF EVE HILL, SENIOR COUNSELOR TO THE 
 ASSISTANT ATTORNEY GENERAL, CIVIL RIGHTS DIVISION, DEPARTMENT 
                   OF JUSTICE, WASHINGTON, DC

    Ms. Hill. Chairman Harkin, Ranking Member Enzi, thank you 
so much for having me here today. It is really an honor to 
appear before you to discuss the promise of assistive 
technology and the civil rights aspects of accessible 
technology.
    The Civil Rights Division of the Department of Justice 
enforces the Americans with Disabilities Act and Section 504 of 
the Rehabilitation Act, and we have a substantial role in 
implementation of Section 508 of the Rehabilitation Act. These 
statutes require accessibility for persons with disabilities, 
and providing accessible technology is an integral part of 
these statutes' requirements.
    In this fast-paced information age in which we live, this 
is a fundamental issue of civil rights for millions of 
Americans. But cutting-edge technological advances will leave 
people with disabilities behind if they are not accessible. The 
department's work is making significant difference in access to 
technology for our citizens with disabilities. While my written 
testimony covered a broad range of technology issues, I will 
focus today on educational technology, specifically.
    In education, the current transition from print materials 
to digital materials creates an incredible opportunity for 
people with print disabilities to finally use the same products 
as their peers and to gain the same benefits as their peers who 
do not have disabilities. The emergence of electronic book 
readers holds great potential to place students with 
disabilities on an equal footing with other students. But that 
happy result will only occur if the e-book reader is equipped 
with text-to-speech capabilities and if the electronic texts 
themselves are coded with structural data and text descriptions 
of images.
    Students who are blind or have low vision have long used a 
form of electronic text as an accommodation that enables them 
to access their peers' materials. But this traditional system 
for providing special electronic text disadvantages blind 
students, because it can take considerable time for a college 
or university to locate and convert text into a digital form.
    Imagine as a student being unable to access the course 
materials for your class for the first 4 months of the 
semester. Some types of textbooks, such as high-level science, 
technology, engineering, and math texts, have not even been 
available in electronic format.
    In early 2010, the Department of Justice reached settlement 
agreements with six colleges. The agreements require that the 
schools not purchase, require, or use in their curricula the 
Amazon Kindle DX e-book reader or any other e-book reader that 
is not accessible. The schools must ensure that a student who 
is blind or has low vision can acquire the same information, 
engage in the same interactions, and enjoy the same services as 
sighted students with substantially equivalent ease of use.
    In June 2010, the Assistant Attorney General for Civil 
Rights and the Assistant Secretary for Civil Rights at the 
Department of Education wrote to college presidents jointly 
throughout the country explaining that the requirement to use 
inaccessible emerging technologies in their classrooms violates 
the ADA. In May 2011, the Department of Education issued 
Frequently Asked Questions making clear that the concepts from 
the 2010 letter extended beyond e-book readers to all forms of 
technology and extended to all operations of schools, including 
elementary and secondary schools.
    E-book readers are not the only technology coming into the 
educational context. Other new technologies are also making 
their way into classrooms. One example is the wireless student 
response devices, known as clickers or i-clickers, that allow 
professors to take attendance, ask questions or take polls, and 
allow students to respond, sometimes even anonymously, by 
pressing buttons on their clickers or making choices on their 
clickers. However, if the clickers continue to rely on LCD 
displays that are visual only, they will exclude students with 
print disabilities from that form of participation in class.
    Accessible technology also encompasses access to 
information on Web sites, which is of critical importance to 
education. Many colleges offer degree programs online. Some 
schools exist only online. Most colleges today rely on the 
Internet and other technologies for course assignments and 
discussion groups and for a wide variety of administrative and 
logistical functions.
    As schools offer online document sharing, Web conferencing, 
streaming video, social networks, and even virtual reality 
programs, accessibility of those technologies to students with 
disabilities becomes essential. The Department of Justice has 
long taken the position that both State and local government 
Web sites and the Web sites of private entities that are public 
accommodations are covered by the ADA and are required to be 
accessible. Therefore, both public and private colleges and 
universities are required to make their online offerings 
accessible.
    On April 26, 2011, the Department of Justice announced two 
settlement agreements involving the accessibility of the Law 
School Admission Council's online application service, which is 
used by law schools across the country to allow students to 
apply for their colleges. Under these agreements, LSAC will 
make its online Web site accessible by the fall of 2012, and 
Atlanta's John Marshall Law School will modify its own Web site 
to provide an accessible application process.
    In addition, the Department has issued an Advanced Notice 
of Proposed Rulemaking on the accessibility of information and 
services on the Web. The Department anticipates publishing 
separate NPRMs addressing Web site accessibility pursuant to 
Titles II and III of the ADA in calendar year 2012.
    It is also important for individuals with disabilities to 
have an equal opportunity to use electronic and information 
technology, commonly referred to as EIT. And equipment that 
uses electronic information and technology is becoming very 
pervasive in our society, things like kiosks and point-of-sale 
devices. Just in the educational context, kiosks are used for 
information and way-finding, for class registration, and for 
library services.
    Unfortunately, many of these technologies have been 
developed without accessibility in mind. Even though 
accessibility features like talking kiosks are available, as a 
result, persons who cannot see a touch screen must rely on 
other people to enter information, including personal 
identification numbers.
    The department's 2010 Advance Notice of Proposed Rulemaking 
on equipment and furniture included accessibility of EIT 
equipment. And EIT equipment will be the subject of an NPRM 
that the department anticipates publishing in early fiscal year 
2013.
    We are at a critical juncture for people with disabilities 
and educational technology. Technology may prove to be both the 
catalyst and the conduit to full integration of people with 
disabilities into society, which is what is envisioned by the 
ADA, or it may serve as the ultimate barrier. Accessible 
technologies will increase and are already increasing the 
educational opportunities, employability, and the social and 
civic participation of individuals with disabilities.
    History tells us that inaction and silence will result in 
business as usual, that is, technological innovations that do 
not consider accessibility for people with disabilities. But we 
can break that pattern. The department's work, along with that 
of other agencies, advocates, and the work of this committee, 
is making a difference in raising the profile of this important 
civil rights issue.
    The Department of Justice looks forward to continuing to 
work toward a world where accessible technology is the norm and 
not the exception in full compliance with both the letter and 
the spirit of the ADA.
    Thank you again for the opportunity to be here today, and I 
look forward to answering any questions.
    [The prepared statement of Ms. Hill follows:]
                     Prepared Statement of Eve Hill
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
it is an honor to appear before you today to discuss the promise of 
accessible technology. The Civil Rights Division enforces the Americans 
with Disabilities Act of 1990 (``ADA'') and Section 504 of the 
Rehabilitation Act of 1973 (``Section 504''), and we have a substantial 
role in implementing Section 508 of the Rehabilitation Act. These 
statutes ensure accessibility for persons with disabilities. Providing 
accessible technology is an integral part of these statutes' 
requirements, and in the fast-paced information age in which we live, 
this has become a fundamental issue of civil rights for millions of 
Americans.
    We are at a critical juncture for people with disabilities and 
technology. As we come to realize anew each day, the pace of 
technological change is amazing; what appeared impossible just years or 
even months ago is now commonplace. Advancing technology can open doors 
for many people with disabilities and can provide the means for them to 
move closer to the goal of full, equal, and truly integrated access to 
American life. But cutting-edge technological advances will leave 
people with disabilities behind if the entities that develop, 
manufacture, and offer technology do not make their products and 
services accessible.
    As public servants entrusted with the welfare of our citizens, we 
in the Federal Government must provide the leadership to make certain 
that individuals with disabilities are not excluded from the virtual 
world in the same way that they were historically excluded from ``brick 
and mortar'' facilities. Emerging technology promises to open up 
opportunities for people with disabilities throughout our society. But 
a digital divide exists between individuals with and without 
disabilities. If we are not careful, as technology becomes more 
sophisticated the gap will grow wider, and people with disabilities 
will have less access to our public life.
    Congress passed the ADA, 42 U.S.C. 12101 et seq., in 1990. The 
statute is a comprehensive, broad-reaching mandate to eliminate 
discrimination on the basis of disability in all areas of American 
civic and economic life. The Department of Justice is responsible for 
enforcement and implementation of Titles II and III of the ADA, which 
cover State and local government entities and private businesses, 
respectively. We also enforce Title I of the ADA, which prohibits 
disability discrimination in employment, in cases involving State and 
local government employees. The Department also enforces the statute on 
which the ADA is based, Section 504 of the Rehabilitation Act of 1973, 
29 U.S.C. 794, which prohibits discrimination in federally assisted and 
federally conducted programs and activities.\1\
---------------------------------------------------------------------------
    \1\ In addition, other agencies that provide Federal funding or 
that provide Federal programs are responsible for enforcement of 
section 504 for the programs they fund or conduct. The Department of 
Justice has also designated eight other agencies to share enforcement 
authority under Title 2 of the ADA for programs closely related to the 
types of programs they fund.
---------------------------------------------------------------------------
    When Congress enacted the ADA and section 504, the Internet and 
electronic and information technologies as we know them today--the 
ubiquitous sources of information, commerce, services, and activities--
did not exist. For that reason, although the ADA and section 504 
guarantee the protection of the rights of individuals with disabilities 
in a broad array of activities, neither law expressly mentions the 
Internet or contains specific requirements regarding developing 
technologies. When Congress amended the Rehabilitation Act in 1998, it 
added what is now known as section 508. That provision specifically 
requires Federal Government agencies to ensure that their electronic 
and information technologies, including their Web sites, are accessible 
to individuals with disabilities. 29 U.S.C. 794(d). Within the Civil 
Rights Division, the Disability Rights section is responsible for 
enforcement of the ADA and the coordination of enforcement of section 
504 as these two civil rights statutes apply to the accessibility of 
information technologies to individuals with disabilities.
    Enforcement of these laws by the Department of Justice has resulted 
in public entities, public accommodations, and some technology 
developers and manufacturers taking new approaches to technology 
accessibility. The Department's work--along with the important work of 
the Department of Education--is making a significant difference in 
education for our Nation's students with disabilities.
    My testimony will also address the importance of Internet access 
for people with disabilities in the education context and beyond, and 
will discuss the Department of Justice's rulemaking activities on 
accessibility of information on the Web, as well as rulemaking 
activities of the Access Board, the Department of Transportation, and 
the Federal Communications Commission. Finally, I will turn to a 
discussion of how the Department of Justice's enforcement efforts are 
helping to ensure that other types of technology enhancements continue 
to improve the lives of people with disabilities across a full spectrum 
of activities, as Congress intended in enacting the ADA over 20 years 
ago.
  i. accessible technology in education: challenges and opportunities
    We are at a critical juncture for people with ``print 
disabilities''--that is, people who experience barriers to accessing 
print in nonspecialized formats because of a visual, physical, 
perceptual, developmental, cognitive or learning disability.\2\ The 
current transition from printed materials to digital materials creates 
incredible opportunity for people with print disabilities to finally 
use the same products as their peers who do not have disabilities. It 
promises a truly revolutionary kind of change for students with 
disabilities, allowing them to integrate fully with their non-
disabled peers in terms of access to materials and class participation.
---------------------------------------------------------------------------
    \2\ See, e.g., Higher Education Opportunity Act, 20 U.S.C. 1140k.
---------------------------------------------------------------------------
    But the transition to digital materials also creates real peril for 
people with print disabilities. Technology is transforming education in 
this country, and electronic book readers appear to be on the front 
lines. Electronic book readers are typically lightweight, hand-held 
devices with screens and operating controls. Texts in an electronic 
form appear on the screens of these devices to simulate the experience 
of reading a book. Experts say that e-book reader use is likely to 
become interwoven at all levels and forms of education.\3\ These books 
are now starting to feature interactive graphics, built-in videos, and 
other aspects especially attractive to educators; Apple's new iPad 
textbook features built-in quizzes, note cards, custom glossaries, and 
thumbnail navigation. Inaccessible e-book readers, that, unlike the 
iPad, cannot convert text to speech, either for operational controls or 
content, will leave people who are blind or have print disabilities 
far, far behind.
---------------------------------------------------------------------------
    \3\ See, e.g., Nelson, M., ``E-Books in Higher Education: Nearing 
the End of the Era of Hype?'' 43 EDUCAUSE Review No. 2 (March/April 
2008) (originally published by the EDUCAUSE Center for Applied Research 
(ECAR): Mark R. Nelson, ``E-Books in Higher Education: Nearing the End 
of the Era of Hype?'' ECAR Research Bulletin, vol..... 2008, issue 1 
(January 8, 2008).
---------------------------------------------------------------------------
    Students who are blind or have low vision have long used a form of 
electronic text as an accommodation that enables them to access the 
course materials their classmates use. These electronic texts, which 
are converted from standard print texts, are read on a computer, using 
a screen reader or a refreshable Braille display. In order for these 
electronic texts to be truly usable by someone who is blind or has low 
vision, however, the texts must be coded with structural data so that 
the assistive technology can properly identify where to begin reading 
or where a sentence or paragraph begins and ends.
    This traditional system for providing ``special'' electronic texts 
disadvantages blind students as compared with sighted students, because 
it can take considerable time for a university to locate texts from 
publishers, and convert the text to a format usable by a screen reader 
or similar assistive technology. As noted in the December 2011 report 
of the Advisory Commission on Accessible Instructional Materials in 
Post-Secondary Education for Students with Disabilities (``AlM 
Commission''), disability student services offices at colleges and 
universities face a number of challenges and delays in obtaining 
accessible materials.\4\ As a result, all too often course materials 
are not available to blind students until well after classes have 
begun.\5\ Imagine as a student being unable--on a routine basis--to 
obtain your course materials for the first 4 months of the semester. As 
an alternative to obtaining converted texts from the publisher, 
universities may scan printed texts in order to provide them in 
electronic form. But this method can result in a ``text dump,'' which 
lacks structural data to ensure proper reading by assistive 
technologies. Conversion errors, too, are common. So, the choice often 
available to blind students has been to receive accurate materials 
months into the semester or inaccurate materials in a more timely 
manner. Some types of textbooks and class materials, such as high-level 
science, technology, engineering, and mathematics texts, charts, and 
diagrams, have not even been available in electronic format, forcing 
blind students to ask their peers, sometimes at their own expense, to 
recreate the materials in tactile or other forms.
---------------------------------------------------------------------------
    \4\ AIM Commission Report at 77 (December 6, 2011), available at 
http://www.ed.gov/news/press-releases/aim-commission-releases-report-
disparities-postsecondary-learning-material-stude.
    \5\ See U.S. Government Accountability Office, Report GAO-10-33 
Higher Education and Disability; Education Needs a Coordinated Approach 
to improve Its Assistance to Schools in Supporting Students, at 21 and 
22 (October 2009), available at http://www.gao.gov/products/GA0-10-33; 
As the Disability Resource Center at Arizona State University informs 
blind students in its handbook, for example ``Textbook/print conversion 
is a time-intensive process, especially for technical subject matter, 
and can require up to 4 months (e.g., mathematics, science, foreign 
language texts) to complete.'' http://www.asu.edu/aad/manual s/ssm/
ssm701-07.html.
---------------------------------------------------------------------------
    As schools increasingly use electronic texts for all students, the 
inaccessibility of some electronic book readers has become an important 
issue for people who are blind or have low vision. The development and 
deployment of e-book readers that are inaccessible to persons with 
disabilities runs counter to the core principles of the ADA: equal 
opportunity and equal treatment.
    As the AIM Commission report notes, access to textbooks and other 
instructional materials has historically presented a great barrier to a 
truly equal education for blind students and others with print 
disabilities. Historically, the accessibility of new hardware in the 
education context has been addressed as follows: a new innovation comes 
out, but accessibility is not built in. Time passes, and accessibility 
issues are raised. Advocates file complaints, generally under civil 
rights laws and against educational institutions; and gradually some 
minimal access is included, primarily through assistive technology.\6\ 
The delay in access resulting from this process, and the burden placed 
on people with disabilities to have to fight to receive what typically 
turns out to be minimal access, is not equal opportunity, is not equal 
treatment, and is not the world that the ADA envisions.
---------------------------------------------------------------------------
    \6\ Id. at 61-2.
---------------------------------------------------------------------------
    Electronic book readers and other educational technologies can be 
accessible if they provide text-to-speech or ``read aloud'' capability 
for menus, operational controls, and electronic text.\7\ Appropriate 
coding would mean that the text, mathematical formulas, or even poetry 
in which line lengths vary, would be read aloud coherently. In this 
way, the user with the disability would gain access to all the 
information on the printed page.
---------------------------------------------------------------------------
    \7\ From the user perspective, an accessible electronic book reader 
might speak each option on a menu aloud, as the cursor moves over it, 
and then speak the selected choice aloud once made by the user. Special 
key strokes might be programmed specifically for blind users. For 
example, the user would press the alt-A key any time something related 
to accessibility is needed, at which point a menu with additional 
choices would come up, allowing the user to scroll over the menu as 
described above.
---------------------------------------------------------------------------
a. Department of Justice Resolution of Complaints Against Universities 
        Deploying Amazon Kindle Electronic Book Readers
    In June 2009, the Department of Justice and Department of Education 
received several complaints from the National Federation of the Blind 
(NFB), the American Council of the Blind (ACB), and a coalition of 
disability rights groups collectively known as the Reading Rights 
Coalition. Each of these complaints alleged that colleges or 
universities were violating their obligations under the ADA and section 
504 by deploying Amazon Kindle DX electronic book readers to students 
in the classroom setting. Among other things, the complaints alleged 
that the Amazon Kindle electronic readers did not have text-to-speech 
capacity for their menu or navigational controls, which prevented blind 
students from knowing which book they selected or how to access the 
search, note taking, or bookmark functions of the devices.
    The Department of Justice investigated each complaint and, on 
January 13, 2010, the Department issued a press release announcing that 
it had reached settlement agreements with Case Western Reserve 
University, Reed College, and Pace University.\8\ The Department of 
Justice, the NFB, and the ACB also jointly settled similar allegations 
against Arizona State University in an agreement signed on January 11, 
2010. On March 29, 2010, the Department entered into a settlement 
agreement with Princeton University, and, on July 27, 2010, the 
Department of Justice and the Department of Education jointly entered 
into an agreement with the University of Virginia Darden School of 
Business regarding its use of the Kindle DX.
---------------------------------------------------------------------------
    \8\ Agreement between United States and Case Western Reserve 
University, Jan. 13, 2010; Agreement between United States and Pace 
University, Jan. 13, 2010; Agreement between United States and Reed 
College, Jan. 13, 2010.
---------------------------------------------------------------------------
    These settlement agreements provide that the universities will not 
purchase, require, or in any way incorporate into the curriculum the 
Amazon Kindle DX or any other dedicated electronic book reader unless 
it is accessible or they ensure that a student who is blind or has low 
vision can acquire the same information, engage in the same 
interactions, and enjoy the same services as sighted students with 
substantially equivalent ease of use.
    The purpose behind these agreements is to make clear that requiring 
use of an emerging technology in the classroom that is inaccessible to 
an entire population of individuals with disabilities--individuals with 
visual disabilities--is discrimination that is prohibited by the ADA 
and section 504. The Department is currently investigating other claims 
that schools and libraries are using inaccessible technology and 
failing to provide accessible online materials.\9\
---------------------------------------------------------------------------
    \9\ The Department's settlements do not prohibit students from 
buying e-book readers of their own choice for personal use or in 
connection with classes. Nor do the agreements bind e-book 
manufacturers.
---------------------------------------------------------------------------
b. Department of Education and Department of Justice Guidance on 
        Accessible Technology
    In June 2010, the Assistant Attorney General for the Department of 
Justice's Civil Rights Division and the Assistant Secretary for Civil 
Rights of the Department of Education jointly issued a ``Dear Colleague 
Letter'' to college and university presidents throughout the country 
regarding the use of electronic book readers and other technology in 
higher education. The letter explained that requiring the use of 
emerging technologies, such as electronic book readers, in the 
classroom violates the ADA and section 504 if the educational benefits 
provided by the technology are not made accessible to students with 
disabilities in an equally effective and equally integrated manner. 
That is, an educational institution has the obligation to either 
provide accessible technology in the first instance or, if the 
technology is inaccessible, provide reasonable accommodations or 
modifications that permit students with disabilities to acquire the 
same information, engage in the same interactions, and enjoy the same 
services with substantially equivalent ease of use. The letter 
emphasized the need to ensure that students with disabilities are 
afforded an equal opportunity to participate in, or benefit from, 
college and university aids, benefits, and services, and it called on 
the institutions to refrain from requiring the use of any electronic 
book reader, or other similar technology, in a teaching or classroom 
environment as long as the device remains inaccessible to individuals 
who are blind or have low vision. The letter also provided information 
and resources to assist colleges and universities to achieve compliance 
with Federal law on this issue.
    The Department of Education clarified this guidance in May 2011, 
when it issued a document entitled ``Frequently Asked Questions About 
the June 29, 2010 Dear Colleague Letter.'' The FAQ made clear that the 
concepts explained in the 2010 letter extended to forms of emerging 
technology beyond electronic book readers and applied to all operations 
of schools, including elementary and secondary schools, covered by the 
ADA and section 504. The FAQ was sent to elementary and secondary 
schools, as well as colleges and universities.
    The emergence of dedicated electronic book readers holds great 
potential to place students with disabilities on equal footing with 
other students. The accessibility of electronic text readers stands to 
improve dramatically the experience of students with visual 
disabilities. The instantaneous downloading of texts is obviously a 
``night and day'' difference for blind students who are used to waiting 
for their materials until well into the semester or receiving inferior 
materials that are difficult to follow.
    Moreover, if accessible electronic book readers are used in the 
classrooms of the future, students with and without disabilities will 
be able to use the same devices, albeit in different ways, resulting in 
an integrated experience for students with disabilities who will not 
have to rely on separate accommodations to gain access to course 
materials. Such integration is the core goal of the ADA and section 
504. But that happy result will occur only if the electronic book 
reader is equipped with text-to-speech capabilities, so that it may 
read the electronic text aloud, and if the electronic texts are coded 
with structural data and text descriptions of images.
    Other new technologies are also making their way into classrooms. 
For example, wireless student response devices, known as ``clickers,'' 
are being assigned to students. The clickers allow professors to take 
attendance, pose questions, and get feedback from individual students 
or from the class as a whole, including anonymously. Students respond 
to questions and participate in class by choosing answers on their 
clickers. However, if the clickers continue to rely on visual LCD 
displays, they will exclude students with print disabilities from 
participating equally in class.
    As the AIM Commission report notes, one way to ensure access for 
people with disabilities in compliance with Federal laws prohibiting 
discrimination on the basis of disability is to encourage publishers, 
developers, and manufacturers to develop mainstream educational 
products that are accessible to the maximum extent possible, allowing 
students with and without disabilities to obtain the same materials at 
the same time and at the same price.\10\ It is up to the market--
elementary and secondary schools, colleges and universities, libraries, 
government agencies, and public accommodations, who are covered by the 
ADA, to ask about, and insist on, accessible technology from their 
suppliers.
---------------------------------------------------------------------------
    \10\ AIM Commission Report at 22.
---------------------------------------------------------------------------
    Section 508 of the Rehabilitation Act is an example of this 
``market model.'' Section 508 requires Federal Government agencies to 
ensure that all electronic and information technology they develop, 
procure, maintain, or use is accessible. Because the Federal Government 
is a large market for technology, its insistence on accessibility of 
its electronic and information technology can be expected to trickle 
down to products and services for general markets. In addition, since 
the enactment of section 508, at least 20 States have adopted their own 
versions of section 508, requiring State agencies to buy accessible 
technologies.
    In 2011, the Department of Justice conducted a survey of Federal 
agencies regarding their compliance with section 508 and expects to 
issue a report on Federal Government implementation. In addition, in 
2011, on the anniversary of the ADA, the President announced that the 
Administration will develop a comprehensive strategic plan to improve 
compliance with Section 508 of the Rehabilitation Act.
        ii. web site accessibility: challenges and opportunities
    I have devoted significant time to discussing the importance of 
accessible technology equipment in education. But accessible technology 
also encompasses access to information on Web sites and more generally 
on the Internet, which is also of critical importance in education. 
Schools at all levels are increasingly offering programs and classroom 
instruction through the Internet. Many colleges and universities offer 
degree programs online; some universities exist exclusively on the 
Internet. Even if they do not offer degree programs online, most 
colleges and universities today rely on the Internet and other 
electronic and information technologies in course assignments and 
discussion groups, and for a wide variety of administrative and 
logistical functions in which students and staff must participate. As 
schools offer online applications and course management, interactive 
online exercises and exams, document sharing, Web conferencing, 
streaming video, social networks, and even virtual-reality programs, 
accessibility of those technologies to students with disabilities 
becomes essential.
    On April 26, 2011, the Department of Justice announced its 
participation in two related settlement agreements involving the 
accessibility of the Law School Admission Council's (LSAC) online 
application service, which is used by law schools nationwide for their 
application processes. The Department of Justice determined that LSAC's 
online application service was not accessible to persons with vision 
disabilities. Moreover, the Department found that applying through the 
LSAC Web site offers several convenient features to applicants, 
including the bundling of applications into the required LSAC 
Credential Assembly Service, which eliminates the need to obtain 
multiple transcripts, letters of recommendation, and evaluations for 
applicants to more than one school.
    Under the first settlement agreement, which resolved a lawsuit 
filed against LSAC by NFB and to which the Department was a signatory. 
LSAC is required to ensure that is online application Web site is fully 
accessible to individuals who use screen readers by the fall 2012 
application cycle. The second settlement agreement, which was between 
the Department and Atlanta's John Marshall Law School, requires the law 
school to modify its own Web site to notify potential applicants with 
vision disabilities of a process they may use to apply to the law 
school until LSAC's online application process is made fully 
accessible. The law school also committed to stop using LSAC's online 
application process if it is not fully accessible by the fall 2012 
application cycle under the terms reached in the first agreement.
    Of course, limited access to information on the Internet does not 
just affect education. As more and more of our social and economic 
infrastructure is made available on the Internet--in some cases, 
exclusively online--access to information and electronic technologies 
is increasingly becoming the gateway civil rights issue for individuals 
with disabilities. Information technologies play a significant and 
ever-
expanding role in everyday life in America. Electronic and information 
technologies are swiftly becoming a primary conduit to employment. 
Employment, recruiting, and hiring systems are often Web-based. In many 
cases, the only way to apply for a job or to sign up for an interview 
is on the Internet. Job applicants research employment opportunities 
online, and they use the Internet to most efficiently learn about 
potential employers' needs and policies.
    The Internet has also become a doorway to the full range of 
activities, goods, and services that are available offline. 
Constituents of State and local government use the Internet to file tax 
forms, renew driver's licenses and library books, and to correspond 
with elected officials. Increasingly, businesses--even those with 
substantial physical sales facilities--use Web sites to sell goods and 
services to their customers. E-commerce is a rapidly expanding segment 
of the American economy. Ensuring nondiscriminatory access to the goods 
and services offered through the Internet is, therefore, essential to 
full societal participation by individuals with disabilities.
    For many individuals with disabilities who are limited in their 
ability to travel outside their home, the Internet is one of the few 
available means of access to the goods and services in our society. The 
broad mandate of the ADA to provide an equal opportunity for 
individuals with disabilities to participate in and benefit from all 
aspects of American civic and economic life will be served in today's 
technologically advanced society only if it is clear to businesses, 
employers, and educators, among others, that their Web sites must be 
accessible.
    Millions of people have disabilities that affect their use of the 
Web--including people with visual, auditory, physical, speech, 
cognitive, and neurological disabilities. People who have difficulty 
using a computer mouse because of mobility impairments, for example, 
may use an assistive technology that allows them to control software 
with verbal commands. But Web sites and other technologies are not 
always compatible with those assistive technologies. Captioning of 
streaming videos and Web conferences may also be necessary in order to 
make them accessible to individuals who are deaf or hard of hearing. 
And individuals with memory loss or cognitive impairments may be 
affected by complex Web sites. People who are blind or have low vision 
are often the most affected by inaccessible information and electronic 
technology.\11\
---------------------------------------------------------------------------
    \11\ Many individuals with visual impairments use an assistive 
technology known as a screen reader that enables them to access the 
information on computers or Internet sites. Screen readers read text 
aloud as it appears on the computer screen. Individuals who are blind 
may also use refreshable Braille displays, which convert the text of 
Web sites to Braille. Sometimes, those individuals will use keyboards 
in lieu of a mouse to move up and down on a screen or sort through a 
list and select an item. The most common barriers on Web sites are 
posed by images or photographs that do not provide identifying text. A 
screen reader or similar assistive technology cannot ``read'' an image. 
When images appear on Web sites without identifying text, therefore, 
there is no way for the individual who is blind or who has low vision 
to know what is on the screen. The simple addition of a tag or other 
description of the image or picture will keep an individual using a 
screen reader oriented and allow him or her to gain access to the 
information the image depicts. Similarly, complex Web sites often lack 
navigational headings or links that would make them easy to navigate 
using a screen reader. Web designers can easily add those headings. 
They may also add cues to ensure the proper functioning of keyboard 
commands: They can also set up their programs to respond to voice 
interface technology.
---------------------------------------------------------------------------
    Ensuring that people with disabilities have a full and equal 
opportunity to access the benefits of emerging technologies is an 
essential part of our disability rights enforcement at the Department 
of Justice. Because the Internet was not in general public use when the 
ADA was enacted, nor when the then-Attorney General promulgated 
regulations to implement it in 1991, neither the statute nor the 
regulations expressly mention the Internet. But the statute and 
regulations create general rules designed to guarantee people with 
disabilities equal access to all of the important areas of American 
civic and economic life. And the Department made clear, in the preamble 
to the original 1992 ADA regulations, that the regulations should be 
interpreted to keep pace with developing technologies. 28 CFR pt. 36, 
App. B.
    The Department of Justice has long taken the position that both 
State and local government Web sites and the Web sites of private 
entities that are public accommodations are covered by the ADA. In 
other words, the Web sites of entities covered by both title II and 
title III of the statute are required by law to ensure that their sites 
are fully accessible to individuals with disabilities. The Department 
of Justice has affirmed the application of these statutes to government 
Internet sites in a technical assistance publication, Accessibility of 
State and Local Government Web Sites to People with Disabilities 
(http://www.usdoj.gov/crt/ada/websites2.htm), and in numerous 
agreements with State and local governments and recipients of Federal 
financial assistance. Our technical assistance publication also 
provides guidance with simple steps to ensure that government Web sites 
have accessible features for individuals with disabilities.\12\ 
Further, the Department has included Web site accessibility 
requirements in a number of settlement agreements, such as its 
agreements with Wells Fargo, QuikTrip, and Hilton Hotels Worldwide.
---------------------------------------------------------------------------
    \12\ There are several sets of standards describing how to make Web 
sites accessible to individuals with disabilities. Government standards 
for Web site accessibility were developed pursuant to section 508. The 
U.S. Architectural and Transportation Barriers Compliance Board 
(``Access Board'') is updating the section 508 Standards, as well as 
the Telecommunications Act Accessibility Guidelines. The Access Board 
issued an advance notice of proposed rulemaking on December 8, 2011 and 
is currently accepting comments. Many entities elect to use the 
standards that were developed and are maintained by the Web 
Accessibility Initiative, a subgroup of the World Wide Web Consortium 
(``W3C7'').
---------------------------------------------------------------------------
    The Department also recently became involved in a case involving 
access to Web-streamed content. In October 2011, the Department filed a 
Statement of Interest opposing the defendant's motion to dismiss in 
National Association of the Deaf v. Netflix, Inc. (D. Mass.). NAD is a 
private title III action challenging Netflix's failure to provide 
captioning for many of its ``Watch Instantly'' Internet-based streamed 
videos, as well as to ensure equal access to other Netflix member 
services (such as Netflix ``recommendations'' and genre-sorted movie 
listings). The Department took the position that Title III of the ADA 
applies to Netflix's ``Watch Instantly'' videos and that the court had 
subject-matter jurisdiction over the ADA claim.
    In addition, the Department has issued an Advance Notice of 
Proposed Rulemaking (``ANPRM'') on the accessibility of information and 
services on the Web, and has solicited public comment from the broad 
range of parties interested in this issue. The pubIic comment period 
closed on January 24, 2011.
    The Department received approximately 440 public comments and is 
reviewing them. The Department anticipates publishing separate NPRMs 
addressing Web site accessibility pursuant to Titles II and III of the 
ADA in calendar year 2012.
  iii. using technology to fulfill the promise of the ada: technology-
       based solutions in doj enforcement and regulatory actions
    Of course, technology has long played an important role in 
advancing equal opportunity for people with disabilities, and the 
Department of Justice investigates, litigates, and resolves cases 
across the spectrum of disability that rely on technological solutions.
a. Technology and Testing Accommodations
    Assistive technology is of particular importance for individuals 
with disabilities seeking to take examinations required for admission 
to secondary or post-secondary school and for professional 
certification. Under the ADA, these examinations must be administered 
in a manner that is accessible to individuals with disabilities. To 
ensure accessibility, entities offering these examinations are required 
to provide testing accommodations \13\ so as to ``best ensure'' that 
the examination measures an individual with a disability's aptitude and 
achievement rather than the individual's disability. In many cases, 
technology is the key to ensuring accessibility. For example, a high 
school student with hypotonia that results in illegible handwriting may 
need a testing accommodation on the essay composition portion of a 
college entrance exam to allow him to draft an essay using a computer 
instead of having to write out his essay by hand. Some testing entities 
are reluctant to provide access to technology-based testing 
accommodations.
---------------------------------------------------------------------------
    \13\ The term '``testing accommodations'' used throughout this 
document encompasses both those ``modifications'' and ``auxiliary 
aids'' required by 28 CFR 36.309(b).
---------------------------------------------------------------------------
b. Technology and Access to Events (Ticket Sales)
    Over the past 20 years, some public and private venues, ticket 
sellers, and distributors have not provided the same opportunity to 
purchase tickets for wheelchair-accessible seats and non-accessible 
seats. The general public has been able to directly and immediately 
purchase tickets for non-accessible seats, whether through a venue's 
Internet site or its box office, or through a third-party internet-
based vendor. However, these direct-purchase options have sometimes 
been unavailable to individuals who use wheelchairs because 
transactions frequently could not be completed. Instead, the purchaser 
was directed to send an e-mail or to call a separate telephone number 
to request tickets and wait for a response. As of March 15, 2011, 
revised regulations issued by the Department require venues that sell 
tickets for assigned seats to implement policies to sell tickets for 
accessible seats in the same manner and under the same conditions as 
all other ticket sales. Specifically, tickets for accessible seats must 
be sold during the same hours; through the same methods of purchase (by 
telephone, onsite, through a Web site, or through third-party vendors); 
and during the same stages of sales (pre-sales, promotions, general 
sales, wait lists, or lotteries) as non-accessible seats.
c. Technology and Access to Transportation
    The Department of Transportation (DOT) is also working to update 
its regulations to reflect the growing use of the Internet and 
electronic and information technology to access goods, services, and 
information. In September 2011, DOT published a Supplemental Notice of 
Proposed Rulemaking (SNPRM) that addresses the accessibility of air 
carrier Web sites and automated airport kiosks to ensure that travelers 
with disabilities can independently access the convenience and cost 
savings of booking the best airfares and check-in options (both online 
and through self-service kiosks) that travelers without disabilities 
widely enjoy. The public comment period recently closed and DOT is 
reviewing those comments and preparing for the next stage in its 
rulemaking.
d. Accessibility Issues in Electronic and Information Technology 
        Equipment
    The Department's experience in the 21 years since the ADA was 
enacted has given it a better understanding of the barriers posed by 
inaccessible electronic and information technology (EIT) equipment and 
the solutions provided by accessible EIT equipment. Accessible EIT 
equipment is often critical to an entity's ability to provide a person 
with a disability equal access to its goods and services. The 
Department believes that it is important for individuals with 
disabilities to have an equal opportunity to use EIT equipment, such as 
kiosks, interactive transaction machines (ITMs), point-of-sale (POS) 
devices, and automated teller machines (ATMs). Individuals with 
disabilities who engage in financial or other transactions should be 
able to do so independently and not have to provide third parties with 
private information, such as a personal identification number (PIN).
    Among the available equipment that uses EIT are kiosks, which 
provide a wide range of services, including information sharing, 
ticketing, hospital check-in, prescription dispensing, Internet access, 
vehicle registration, library services, movie ticket sales and DVD 
rentals, security screening, building permits, bill paying, and photo 
developing. POS devices, such as credit card payment terminals, retail 
store self-checkout stations, machines used for ordering food at quick 
service restaurants, and gas station pay-at-the-pump systems continue 
to grow and offer more services for both businesses and government 
entities.
    Unfortunately, many of these emerging technologies have been 
developed without accessibility in mind, even though accessibility 
features like ``talking'' kiosks are available. Often, with the advent 
of touch-screen technology, customers are required to enter data using 
a flat screen while reading changing visual information and 
instructions. Persons who cannot see the flat screen must rely on other 
people to enter their information, including their personal 
identification numbers (PINs). At least one State (California) already 
requires all check-out locations with a flat screen POS device to have 
a permanently attached tactile keypad that is usable by individuals 
with vision disabilities.
    The Department's 1991 ADA Accessible Design Standards contained 
requirements for physical accessibility for fixed (built-in) ATMs and 
also required that ``[i]nstructions and all information for use shall 
be made accessible to and independently usable by persons with vision 
impairments.'' The recently revised 2010 Standards for Accessible 
Design provide more specific requirements for the accessible design of 
fixed ATMs and fare machines, but do not address non-fixed ATMs and 
fare machines and do not address other fixed and non-fixed EIT 
equipment, such as ITMs. In March 2010, the Access Board published an 
ANPRM seeking public comment on its plans to amend the 2004 ADA/ABA 
Accessibility Guidelines to include technical guidelines for self-
service transaction machines used for ticketing, check-in or check-out, 
seat selection, boarding passes, or ordering food in restaurants and 
cafeterias. In the ANPRM, the Access Board noted the proliferation of 
inaccessible POS machines, kiosks, and other self-service machines and 
referenced ADA litigation against various public accommodations over 
the past 10 years that has resulted in numerous settlement agreements 
and structured negotiations requiring the installation of tactile POS 
devices.\14\ DOT's recent SNPRM also addresses the accessibility of 
automated kiosks at airports.
---------------------------------------------------------------------------
    \14\ Any final ADA Guidelines adopted by the Access Board will 
still have to be adopted by the Department of Justice in order to 
become enforceable standards under the ADA.
---------------------------------------------------------------------------
    In its 2010 ANPRM on equipment and furniture, the Department 
focused on, among other issues, the accessibility of fixed and non-
fixed EIT equipment. While some types of fixed equipment and furniture 
are explicitly covered by the 1991 and 2010 Standards, in its ANPRM, 
the Department emphasizes that whether a type of EIT equipment is fixed 
or not is generally not relevant from the perspective of the user. For 
example, an ATM or vending machine that is fixed is used for the same 
purpose and in the same manner as an equivalent ATM or vending machine 
that is not fixed. To the extent that ADA standards apply requirements 
for fixed equipment, the Department will look to those standards for 
guidance on accessibility standards for equipment that is not fixed.
    In the ANPRM on equipment and furniture, the Department posed 
questions and sought public comments about the nature of accessibility 
issues and proposed solutions for making equipment and furniture, such 
as EIT equipment, accessible to persons with disabilities. The 
Department received more than 400 comments in response to its ANPRM and 
is reviewing these comments. Most of the categories of this ANPRM, 
including EIT equipment, will be the subject of an NPRM that the 
Department anticipates publishing in early fiscal year 2013. As we move 
forward, we will continue to collaborate with the Access Board and DOT 
to ensure consistency in our approaches to regulating EIT equipment 
within our respective jurisdictions.
e. 2151 Century Communications and Video Accessibility Act
    In addition to the efforts by DOT, the Access Board, and the 
department on technology accessibility, the FCC is working to implement 
the provisions of the 21st Century Communications and Video 
Accessibility Act of 2010, 47 U.S.C. 601 et seq. (``CVAA''). Among 
other items, the CVAA addresses accessibility of communication 
equipment with respect to hearing aid compatibility, internet-based 
services and equipment, television and other video-programming devices, 
and closed captioning decoders and video description capability. For 
example, under the CVAA smart phones will be required to be usable by 
blind and visually impaired people, as well as people with hearing 
aids. The law aims to ensure that people with disabilities are not left 
behind as technology changes and the United States migrates to the next 
generation of internet-based and digital communication technologies. On 
August 25, 2011, the FCC released a report and order, pursuant to the 
CVAA, that will make television programming more accessible to children 
and adults who are blind or have a vision impairment. The new rules 
require each of the affiliates of the top four broadcast networks 
located in the top 25 television markets and each of the top five non-
broadcast networks to provide 50 hours per calendar quarter of video-
described children's and/or prime time television programming. On 
October 7, 2011, the FCC issued a report and order implementing the 
advanced communications accessibility provisions of the CVAA and 
released a Further Notice of Proposed Rulemaking on certain provisions. 
On January 12, 2012, the FCC adopted its final report and order that 
sets out the obligations and schedule for requiring programming shown 
on television with closed captions to be closed captioned when 
distributed using Internet protocol.
f. Next Generation 9-1-1
    In the past decade there have been major changes in the types of 
communications technology used by the general public and by people with 
disabilities. Among the devices now commonly used by individuals with 
hearing or speech disabilities are both wired and mobile videophones, 
text messaging, wireless devices (including smart phones), as well as 
computers (including Web cams) and captioned telephones. Many 
individuals with disabilities now use the Internet and wireless text 
devices as their primary modes of telecommunications.
    The original 9-1-1 system is based on traditional analog voice 
telephone technology, which cannot process text, data, images, and 
video sent from handheld devices and computers (e.g., personal digital 
assistant [PDA], cellular phone, portable media player, video phone, or 
camera). Most Public Safety Answering Points (PSAPs) or emergency 9-1-1 
call-taking centers are not yet equipped to directly receive video 
calls, photos or videos sent from mobile devices such as smartphones 
and cell phones, or text messages (except for text transmitted by a 
TTY). As a result, individuals with hearing or speech disabilities who 
have to call 9-1-1 using their Internet protocol (IP)-based videophone 
or a non-TTY text device must call through a Telecommunications Relay 
Services (TRS). TRS uses a relay operator called a communications 
assistant (CA) who relays the call between the caller using text or 
video and the PSAP. In most IP-based video or text-relay services, the 
CA receives the call from the person originating the call, places the 
call to the PSAP, and then relays the conversation between the caller 
and the PSAP. This process can result in harmful delays in reporting 
emergencies or in requesting emergency assistance for individuals with 
disabilities.
    To address changing technology, State and local governments are 
working to improve their 9-1-1 emergency communications systems and are 
moving toward an IP-enabled network. The ultimate goal is to have an 
emergency network that will enable the general public to make a 9-1-1 
call via voice, text, or video from wired and wireless devices and 
directly communicate with personnel at the PSAP.\15\ Migration to IP-
enabled 9-1-1 systems in general represents the critical path for 
meeting the needs of people with disabilities.
---------------------------------------------------------------------------
    \15\ The FCC has recently undertaken a number of broadband 
initiatives. One initiative seeks to improve the Nation's current 9-1-1 
system by establishing the foundation for the transmission of voice, 
data, or video to PSAPs during emergency calls.
---------------------------------------------------------------------------
    The Department's current title II regulation requires that PSAPs 
provide direct access to individuals with disabilities who use TTYs. 
Recognizing that many individuals with disabilities now rely on IP-
based and digital wireless devices, rather than analog-based ITYs, as 
their primary modes of telecommunications, and that 9-1-1 call-taking 
centers are shifting from existing traditional telephone emergency 
services to new IP-enabled Next Generation (``NG'') 9-1-1 services, the 
Department published an ANPRM in 2010 to begin to develop appropriate 
regulatory guidance for PSAPs that are making this transition. The 
Department is completing its review of the approximately 146 public 
comments it received in response to its NG 9-1-1 ANPRM and expects to 
publish an NPRM addressing accessibility of NG 9-1-1 in fiscal year 
2012.
g. Movie Captioning and Video Description
    Evolving technologies in movie production, including the increasing 
movement to digital cinema, as well as the development of systems that 
deliver digital audio description and display captions only to the 
person who needs it, are making going to the movies an accessible 
experience for people with a hearing or vision disability. Therefore, 
the Department issued an ANPRM in July 2010 on the issue of ADA 
requirements for movie captioning and audio description. The Department 
received approximately 1,171 public comments in response to its movie 
captioning and audio description ANPRM. The Department is in the 
process of completing its review of these comments and expects to 
publish an NPRM addressing captioning and video description in movie 
theaters in fiscal year 2012.
                             iv. conclusion
    As I stated at the outset, we are at a critical juncture for people 
with disabilities and technology. Technology may prove to be both the 
catalyst and the conduit to full integration of people with 
disabilities into society as envisioned by the ADA--or it may serve as 
the ultimate barrier. As the population ages, more and more Americans 
will need access to emerging technologies to continue working and to 
access the healthcare system. Advances in the availability of 
accessible technologies will increase--and are already increasing--the 
educational opportunities, employability, and social and civic 
participation of individuals with disabilities.
    History tells us that inaction and silence will result in business 
as usual; that is, technological innovations that do not consider 
accessibility for people with disabilities. But we can break the 
pattern. The Department's work--along with that of the Department of 
Education, the Department of Transportation, the Access Board and the 
Federal Communications Commission, and the work of this committee--is 
making a difference in raising the profile of this important issue. The 
Department of Justice looks forward to continuing to work toward a 
world where accessible technology is the norm, and not the exception, 
in full compliance with both the letter and the spirit of the ADA.
---------------------------------------------------------------------------
    Note: Pursuant to the CVAA the FCC created the Emergency Access 
Advisory Committee (EAAC) to determine the most effective and efficient 
technologies to enable access to NG 9-1-1 emergency services by 
individuals with disabilities and to make recommendations to the FCC as 
a part of the migration to a national IP-enabled emergency network. A 
representative of the Department serves as a Federal member of this 
committee. The committee issued its first report on July 21, 2011. On 
December 7, 2011, the EAAC issued technical and policy recommendations 
to the FCC that aim to ensure that individuals with disabilities can 
access current and future emergency communications services. Further, 
to assist in this effort, DOT and the Commerce Department provided more 
than $40 million in grants to help 9-1-1 call centers nationwide 
implement next-generation 9-1-1 technologies. See http:// www.911.gov/
pdf/911-Grant_
Program_Final_Reg.pdf.
---------------------------------------------------------------------------
    Thank you, once again, for the opportunity to appear before you 
today. I look forward to answering any questions.

    The Chairman. Thank you very much, Ms. Hill, for a great 
statement, and thanks for a wonderful written statement, which 
I said I read last night.
    Again, thank you. You covered a wide variety of things in 
your written statement. I noted that the Department of Justice 
and the Department of Education issued a letter in June 2010, 
as you mentioned, to college and university presidents 
regarding the use of electronic book readers and other 
technology in higher education and the need to ensure 
accessibility under the ADA and Section 504 of the Rehab Act.
    I saw that the Department of Education issued a similar 
guidance to elementary and secondary schools in May 2011. You 
kind of mentioned those, also. What kind of feedback have you 
gotten on that? That is what I'd like to explore with you. What 
kind of feedback have you gotten on these guidance documents? 
Do you think colleges and universities and elementary and 
secondary schools are taking the issue seriously and are really 
addressing it?
    Ms. Hill. I think it is a mix in terms of how schools are 
addressing it and to what extent they are addressing it. Some 
States and some schools have come up with guidance or 
regulations for either e-book technology, educational 
technology, or any government technology. Some schools have 
come up with procedures or standard contract language requiring 
accessibility, which really asks the question in each case 
about the accessibility of the product or service being 
purchased.
    Some developers and providers of educational technology 
have paid attention to what this has said about the 
availability of that educational market and have incorporated 
accessibility as, of course, part of what they provide. Some 
publishers of electronic books have incorporated accessibility 
as central parts of what they provide.
    But the level of commitment and the level of understanding 
varies. So some schools appear to assume that what they are 
buying is accessible without asking the question or without 
checking it themselves. Some entities developing technology for 
the general market do not think accessibility matters. And we 
do periodically hear the argument that students without 
disabilities should not have to wait while the technology is 
made accessible, and I think that one, in particular, 
misunderstands what needs to happen for accessibility to 
happen.
    It is like if you build a school, a physical school, and 
you build it inaccessibly, well, yes, then it takes time to 
remediate and is a delay. Should the student with a disability 
take the punishment for that? I am not sure. But if you build 
the school correctly, it does not add time. Similarly, with 
technology, if it is built in from the beginning, it does not 
add delay, and nobody has to wait for it.
    I think some companies that have really incorporated 
accessibility routinely, like Apple, have demonstrated that it 
does not cause a delay. I do not think anyone could say that 
this has slowed down the innovation of these companies.
    The Chairman. No, I think they are coming out with their 
iPads--now the iPad 2. I am sure iPad 3 will be pretty soon and 
iPad 4. But I think you touch on another point I want to 
explore with you, and that is this idea that we tend to focus 
on the technology and making it accessible. But then you have 
to have the curricula, and that needs to be designed from the 
very beginning.
    The one thing that we are concerned with and we look at a 
lot, not only in this committee but other committees--and that 
is that sometimes the technology is developed without the 
thought about the curricula. A lot of times, the curricula is 
developed without the thought of how it interfaces with 
technology. How do we bring those two together?
    Ms. Hill. I think that is really on the teachers and 
technologists to work together. We know what we want to teach. 
We should assume that people of all types, people with and 
without disabilities, people with different English 
proficiencies and different language capabilities, people who 
learn in different ways, are all going to be part of our 
classrooms. And if we started to assume that and to build our 
curricula in ways that responded to that, I think a lot of that 
question would be answered.
    The Chairman. OK. I understand that. It seems to me, 
though, the Federal Government, as you note, is a big purchaser 
of technology and technology that incorporates instructional 
materials. Under section 508, it must ensure that the 
technology it purchases is accessible to Federal employees and 
the public. You noted that President Obama last year called for 
the administration to develop a strategic plan to improve 
compliance with section 508's requirements.
    Do you have any more you can tell us about that? Who's 
going to be involved in developing this strategic plan? I hope 
and assume that you are reaching out to a broad disability 
community out there to get their input and their suggestions 
and advice as to what is needed. But are we also looking at not 
just that the technology it purchases is accessible, but the 
material that is in the technology, the curricula, the 
instructional materials, is also developed so that people with 
disabilities can access it?
    Ms. Hill. I do know about the plan to create a national 
strategic plan for the implementation of section 508. But that 
effort is not being led by the department, so I cannot speak 
further to it. What we are working on is a report on section 
508 implementation governmentwide. And in the spring of last 
year, we conducted a really extensive survey of government 
agencies and how they are implementing and to what extent they 
are implementing their 508 obligations, and we expect to have a 
report out about that this year.
    The Chairman. Who's leading that effort?
    Ms. Hill. The Civil Rights Division at the Justice 
Department. You mean, about the national plan?
    The Chairman. Yes. Right.
    Ms. Hill. I believe that is being led by a group of 
agencies that are involved in accessibility--in technology 
accessibility. But we can certainly get you more information on 
who is leading that.
    The Chairman. Yes. We need to find out who's in charge of 
that. I would like to know myself. We are trying to find that 
out. If you could help us, I would appreciate that.
    Do you have more you could elaborate on about that recent 
Kindle case? It was very interesting. I want to know what does 
it mean for students with disabilities in higher education, if 
there's any more you want to add on that Kindle case.
    Ms. Hill. It really is a focus that says think about 
accessibility from the beginning. Think about accessibility 
when you are choosing to buy new products and ask every time 
you choose to buy a new product whether it is accessible. This 
will allow the educational institutions to be the market that 
they really are and to exercise the market power that they 
really have, as well as allowing them to serve their clients, 
their students, without having to think of a work-around or 
make up something at the last minute or give something that 
does not work as well to the student with a disability.
    I think that up front thought is really essential, and it 
is really the way that they avoid placing themselves in an ADA 
violation situation by making sure from the front that the 
person that created that, that developed that technology, 
developed it accessibly and gave it to them accessibly.
    The Chairman. You mentioned something else that, quite 
frankly, Senator Enzi in his statement alluded to, and that is 
that many times, things that we thought were designed to 
respond to a situation in a disability environment has broader 
applications. Senator Enzi mentioned closed captioning. As the 
author of that bill in 1993, it was--let's face it--our focus 
was simply on making it easier for people who had hearing 
problems, deaf, hard of hearing. We also morphed into English 
language learners after the bill passed, and we started moving 
into closed captioning.
    We mandated, that every television set in America, sold in 
America, that had a size 13-inch screen or bigger had to have 
the decoding chip built into it. It was a mandate, one of those 
awful Federal mandates. And, oh, I remember the hearings. I 
chaired them. And we had the television people in and 
everything and representing--manufacturers were there--that the 
cost was going to be prohibitive. It was going to cost a couple 
of hundred dollars more a set for TV for the consumer to 
purchase out there.
    So I contacted one of my friends in the chip business, and 
I wanted to find out if this was true or not. How much more 
would it cost? And he said,

          ``Yes, if you are only going to make 10 or 20 of 
        them, it will cost you several hundred dollars per set. 
        But if you are going to make zillions of them, it 
        probably is not going to cost too much.''

    Today, the price of a television set--they do not even 
factor in the price of the chip. It is free. That is not even a 
factor of the cost anymore. So sometimes you have to take the 
long view. But my point, I think, that I wanted to make is that 
we found that after the bill passed and after sets started 
getting the chip built into it, we found that its uses 
broadened out.
    And as I said, it was being used for English learners. 
Sesame Street started being in Spanish and English, and words 
were in Spanish, spoken in English, vice versa, so kids were 
learning. And sports bars--need I mention sports bars?
    It may be a little secret. I am sure it is not much of a 
secret. I mean, you can go in any Senator's office here--I will 
bet every Congressman's office, too, and they've got their TV 
set on, and it is on the Senate floor or on the House floor. 
The mute button is on, and the closed captions go across the 
bottom, because we want to keep up on what is going on, but we 
do not want all that noise. A lot of what is said probably is 
not very useful, anyway, but you want to catch those little 
gems once in a while that come across the screen. We never 
thought of it being used that way before.
    So, my point is that a lot of times, when technology is 
accessible for users with disabilities, it becomes better for 
people without disabilities. We've found that time and time 
again. Is that your experience, too?
    Ms. Hill. It certainly is. Imagine ramps for all of us who 
travel with roller bags or have strollers.
    The Chairman. Oh, of course.
    Ms. Hill. Ramps are fantastic.
    The Chairman. I know.
    Ms. Hill. Not just for wheelchairs anymore.
    The Chairman. That is true.
    Ms. Hill. But, yes, in the technology field, the ability to 
have flexibility of how you present the information, in 
writing, orally, and the two together, so you can track what 
the word sounds like and what it looks like, can be 
transformative for people who learn differently. Whether you 
have a disability or not, if you take in information orally 
better than you take it in through the printed word, you need 
that in order to get the information.
    English language learners, similarly, can learn the 
language better if you can follow both the printed and the oral 
version. People with learning disabilities can do the same. And 
think about how for some of us, or many of us, I think, hearing 
something and seeing it reinforces the information, and you are 
able to remember it and understand it better in that way. That 
flexibility alone makes it much more than just something for 
blind people or just something for people with disabilities.
    But think about also the ability to make the font bigger, 
the ability to hear the book, now that I am not able to see the 
tiny font. As I age, personally, I find those to be very 
valuable, and I think more and more people are going to find 
those to be very valuable outcomes from accessible technology.
    And then to think about--I know that hardly--that none of 
us here do this, but that texting while driving thing that I 
hear is a problem--if your text could be read aloud to you, we 
might have much less accidents of that kind, less of the 
texting while walking that leads to trip and fall accidents.
    The Chairman. Right.
    Ms. Hill. So it has a much broader impact than just people 
with disabilities.
    The Chairman. I can tell you as one of the early users of 
Dragon Speak how they have developed that over the last few 
years. And it is amazing now, how they can take the verbal 
words and put it in written form. I've always wondered how 
come--for example, if I call my bank or something like that 
about something, I have to go through a whole series of voice 
actuated things until I get to the right person or robot or 
whoever it is I am talking to. Why cannot they do that in ATM 
machines? That is just another point, you know.
    Ms. Hill. They can.
    The Chairman. Of course, they can do that in ATM machines. 
Anyway, a friend of mine who's blind says they could make them 
talking. You could go in there and say, ``Here's what I want,'' 
push these buttons with Braille, count your bills, how many 
you've got--here's the twenties, here's the fives. It can be 
done, and it is----
    Ms. Hill. It can be done.
    The Chairman [continuing]. Very simple technology, but, 
again, if it is done from the beginning, you see. It works for 
everyone that way. The point, I think, is so salient, and that 
is to have universal design from the beginning, and it is 
better for everyone.
    You mentioned the Law School Admission Council's case, and 
that is going to be done by this fall. Right?
    Ms. Hill. Yes.
    The Chairman. They are going to make that accessible by 
this fall.
    Ms. Hill. The LSAC is required to make their Web site 
accessible by the fall.
    The Chairman. Just one last thing. Do you have any 
information that you can share with me, with this committee, on 
what is being done internationally, international efforts to 
address Web accessibility and technology more broadly, since 
this is the worldwide Web? Do you know what we are doing 
internationally?
    Ms. Hill. I know some of what is going on internationally. 
It is a very important global effort. In Europe, Canada, 
Australia, and New Zealand, there are all efforts to update 
their laws or provide laws to ensure accessibility of Web 
sites, both government Web sites and private Web sites. In 
addition, some of these countries are having private litigation 
go on that challenges the inaccessibility of the Web sites. In 
Canada, for example, there was a case that found that Canadian 
Federal Web sites needed to be accessible.
    The Web is a global thing, and so the response should be 
global. We should be consistent so that businesses can be clear 
of what their obligations are across the world and not have to 
have a different Web site in the United States than they have 
in the U.K. I think our regulatory efforts and the efforts of 
these other countries which are working toward very similar, 
consistent, consensus standards about what accessibility means 
are really starting to accomplish that.
    It also provides clarity for businesses and for people with 
disabilities to be able to know what to expect, wherever they 
are, when they try to access a service or a good, that they can 
expect this level of accessibility.
    The Chairman. Very good. We are also, again, working with 
the Department of Education, obviously, on this in terms of 
curricula and everything else in making sure--but I just want 
to make one last point before we bring on our next panel. And 
that is the Federal Government is a huge purchaser of this, 
driving the market, and we have to make sure that 508 is fully 
implemented, that it is adhered to, that the Justice Department 
makes sure of that, and that it goes not just after the 
technology but the curricula development that goes underneath 
it.
    So I know you are on top of that, Ms. Hill. I thank you 
very much for your great leadership and the whole Civil Rights 
Division at the Department of Justice. I give my personal 
thanks also to Attorney General Holder for his great leadership 
in this area.
    Ms. Hill. Thank you so much.
    The Chairman. Thank you, Ms. Hill.
    Now we will turn to our second panel. We have Mr. Mark 
Riccobono, executive director of the Jernigan Institute of the 
National Federation of the Blind in Baltimore. The Jernigan 
Institute is the only research and training institute founded 
and currently directed by people who are blind.
    Mr. Riccobono was a member of the U.S. Department of 
Education's Accessible and Instructional Materials Commission, 
which released a report on The Disparities in Post Secondary 
Education for Students with Disabilities that was issued in 
December, just this last December 2011. At age 24, Mr. 
Riccobono became the first director of the Wisconsin Center for 
the Blind and Visually Impaired, and this followed his 
successes on the Wisconsin State Superintendent's Blind and 
Visually Impaired Education Council.
    Next we have Dr. John Quick. Dr. John Quick has over 30 
years of experience as an educational professional, over 20 
years of service to Bartholomew Consolidated School Corporation 
in Columbus, IN. He has been the district superintendent since 
2003.
    Throughout his career, Dr. Quick has led efforts to improve 
educational practices, including implementing state-of-the-art 
technology, developing curriculum, and creating new educational 
programs. He serves as a member of the Indiana Association of 
Public School Superintendents and as an adjunct professor at 
Ball State University.
    Then we have Mr. Mark Turner. He began working at the 
California State University's Accessible Technology Initiative 
in 2006. His work focuses on the accessibility of instructional 
materials. He is also responsible for the operations of the 
Center for Accessible Media. The CAM Web application provides a 
central clearinghouse for all University of California campuses 
to efficiently locate and share curricula content that has been 
adapted for students needing alternatives to standard textbooks 
and other print materials.
    I welcome you all here, and I thank you all for your 
written statements which will be made a part of the record in 
their entirety. Starting with Mr. Riccobono, then Dr. Quick and 
Mr. Turner. If you could sum up in several minutes your 
testimony, I would certainly appreciate it.
    Mr. Riccobono.

 STATEMENT OF MARK A. RICCOBONO, EXECUTIVE DIRECTOR, JERNIGAN 
   INSTITUTE, NATIONAL FEDERATION OF THE BLIND, BALTIMORE, MD

    Mr. Riccobono. Thank you very much. There we go. And it is 
an accessible button. Look at that. You can even feel it.
    Thank you very much, Chairman Harkin, Ranking Member Enzi, 
and other members of the committee. It is a great honor and 
privilege to have the opportunity to speak with you today on 
behalf of the National Federation of the Blind.
    Today's hearing deals with a critical question of civil 
rights in the 21st Century. Will technology facilitate 
unprecedented access to education for all, or will it be the 
force that segregates students with disabilities into an 
unequal learning environment? Technology offers a new 
accessibility paradigm. In its basic form, digital content is 
accessible to everybody. It can be easily moved, converted, and 
translated into the form required by each individual student.
    By universally designing technology to handle a broad range 
of physical and sensory interfaces, we can achieve the equality 
in education we seek. But in order to reach that goal, we must 
move beyond the old model of accommodation. Imagine a classroom 
where the iPad is used daily. A blind student now has the 
possibility of equal participation by using the built-in 
technology to access the same content and functionality as her 
sighted peers.
    She can connect a refreshable Braille display and read the 
lesson the teacher uploaded just moments earlier. She can enter 
quiz answers in Braille, and they can be seamlessly translated 
into print and instantly transmitted to the teacher for 
grading. She has unprecedented access, and this is not the 
future. It is achievable today.
    Alternatively, our blind student might be shut out of the 
curriculum if her school adopts Google Chrome Books or Apps for 
Education, My IT Lab, Barnes and Noble's Nook, Amazon's Kindle, 
and dozens of other inaccessible systems and devices that are 
being used to facilitate learning today. A school that wants to 
fix inaccessible technology that is already deployed faces the 
reality that the reconfiguration will be more expensive, and it 
is unlikely to produce a solution that is equally effective and 
equally integrated.
    If the student chooses to file a formal complaint, she 
faces the personal and professional costs of taking that 
action. She has unequal access to education, and this, too, is 
not the future. It is the reality for many students with 
disabilities today. Congressional leadership begins with swift 
action to significantly improve accessibility within the 
Federal Government. We should no longer accept anything less 
than complete accessibility of technologies purchased and 
deployed by the Government. Similarly, all technologies used, 
developed, and disseminated as the result of a Federal grant 
award must unquestionably be accessible.
    We need strong, functional, and enforced standards for 
educational technology. And, furthermore, the liability for 
failure to meet those standards must extend beyond the schools 
to the technology manufacturers and distributors. Government 
leadership could help make accessibility a core element of 
training for all IT professionals, and the Government should 
collect and disseminate best practices in accessibility.
    America should be a world leader in the use of technology 
to educate and empower each of its citizens. This is a rare 
opportunity to establish a standard that will significantly 
improve access to education, promote innovation, and provide 
our Nation with both economic and social benefits. We know the 
type of future we want. We understand the promise of 
technology. We must now provide the leadership to secure that 
future and fulfill that promise for all Americans.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Riccobono follows:]
                Prepared Statement of Mark A. Riccobono
                           executive summary
    The promise that technology holds for enhancing education and 
improving access to the curriculum is extraordinary. However, it is 
equally true that technology, if not appropriately designed and 
implemented, is the biggest threat to our Nation's ability to provide a 
free, appropriate public education to students with disabilities that 
we have faced since Congress enacted Public Law 94-142. Harnessing the 
extraordinary promise of technology is within our reach, but it will 
take leadership, commitment, and ongoing oversight. The alternative is 
a future where we spend our time, money, and innovative capacity 
retrofitting bridges to patch the digital divide rather than enjoying 
the economic and social advantages gained by the increased usability of 
technology and the increased leveraging of human capacity that results 
from technology that is designed and built to be accessible to all.
    As a blind individual educated in public schools and in post-
secondary institutions, an administrator of model educational programs, 
and a father of two young children about to enter public education, I 
am concerned that the future is still too unclear--will technology 
cause segregation or integration for students with disabilities?
    Technology changes the paradigm of accessibility because it can be 
designed from the very beginning to provide the broadest access. In its 
basic form digital content is accessible to everyone, as it can be 
easily transformed, converted, and translated into the form that is 
required by an individual student. By universally designing 
technologies to handle a broad range of different physical and 
informational interfaces, we can get significantly closer to equality 
in education. The result is that we can move from the old 
accommodations model to a new paradigm of mainstream accessibility, and 
our practices and policies need to change to meet that new paradigm.
    Recommendations for Federal Policy:

    <bullet> Stronger Oversight and Accountability in Government
    <bullet> Strong, Functional, and Rigorously Enforced Standards
    <bullet> Projects to Collect, Develop, and Disseminate Best 
Practice Tools
    <bullet> Improved Protections Against Inaccessible Technology in 
Education

    Technology is transforming the way we create, share, and gain 
knowledge. If built universally and implemented effectively, technology 
will make the passion and skill of our greatest teachers even more 
powerful as we nurture the next generation of leaders for our Nation. 
If we fail to include accessibility in that technology, we will set 
this generation of students with disabilities back decades. The cost to 
those individuals and to our country is too great and the opportunity 
is too promising to stand by and let that happen.
                                 ______
                                 
    Mr. Chairman, distinguished members of the committee, and other 
witnesses, my name is Mark A. Riccobono. I am the executive director 
for the Jernigan Institute at the National Federation of the Blind. My 
address is 200 East Wells Street at Jernigan Place, Baltimore, Maryland 
21230; my telephone is (410) 659-9314, extension 2368.
    I appreciate the opportunity to speak with you today on the 
tremendously important topic of technology and its ability to make 
education accessible to all students. I am happy to say that the 
promise that technology holds for enhancing education and improving 
access to the curriculum is extraordinary. However, it is equally true 
that technology, if not appropriately designed and implemented, is the 
biggest threat to our Nation's ability to provide a free, appropriate 
public education to students with disabilities that we have faced since 
Congress enacted Public Law 94-142. Harnessing the extraordinary 
promise of technology is within our reach, but it will take leadership, 
commitment, and ongoing oversight. The alternative is a future where we 
spend our time, money, and innovative capacity retrofitting bridges to 
patch the digital divide rather than enjoying the economic and social 
advantages gained by the increased usability of technology and the 
increased leveraging of human capacity that results from technology 
that is designed and built to be accessible to all.
                          personal experience
    By way of background, I was diagnosed as being legally blind at age 
five. I entered the Milwaukee Public Schools (Milwaukee, WI) and 
received all of my K-12 education as a blind student integrated into 
the public schools in that district. My vision loss is a result of 
glaucoma and aniridia. As I entered kindergarten, there was no doubt 
that the prospect of my vision getting better was zero and the chance 
of it getting worse as I progressed through school was very high. As it 
turned out, my vision steadily got worse--by eighth grade I had lost 
all of the vision in one eye and had less than 5 percent of normal 
vision in the other eye.
    When I was a student in the K-12 system, technology was something 
used to supplement the educational curriculum. In my elementary school, 
the technology was limited to a few computers in the school library, 
which we used to play educational games in our free time. In middle 
school, we had a small computer lab, but its regular use was not fully 
integrated into the curriculum. In high school, we used computers to do 
specific projects, and a handful of individual classrooms had dedicated 
computers. However, technology was still not part of the daily 
curriculum and was not central to the experience of gaining knowledge. 
I learned to use a computer with software that read the text on the 
screen aloud using synthesized computer speech as a means to write 
papers--since I could not effectively read my own writing. Despite my 
extremely limited vision, I was never given the opportunity to learn 
Braille in school.
    In 1994, I entered the University of Wisconsin-Madison to pursue a 
degree in business. With the support of the State's vocational 
rehabilitation program I was given a laptop computer that weighed about 
20 pounds. I was able to use that computer to gain access to some 
limited online resources, which were still largely in the DOS rather 
than the Windows environment. Registration for classes was done on the 
telephone--providing me equal access to the registration system--and 
books were only available in hard-copy print from the bookstore. In 
order to gain access to the printed books and course packets, I worked 
closely with the disability resource center on campus. That office 
facilitated getting the printed materials read onto cassette tapes if 
the materials were not already available in that format from another 
source. The recordings were made by volunteers who chose which parts of 
the book to read based on where they fell in the course syllabus--
assuming I was able to get the syllabus ahead of time.
    By the beginning of my junior year, Windows 95 had helped to 
increase the computing power across campus and in individual dorm 
rooms, the fast growth of the World Wide Web had created new means for 
sharing knowledge, and the improvements in desktop scanning 
technologies made it feasible to create reasonably good electronic 
copies of printed books. During my junior year I was employed at the 
McBurney Disability Resource Center on campus and helped to implement 
improvements in the services to create accessible copies of reading 
materials for students with disabilities. I helped develop and 
implement the procedures for converting printed books into electronic 
files that students with disabilities could access and helped to train 
students on the systems necessary to access those files. The electronic 
files significantly reduced the waiting time for students with 
disabilities to receive their materials and improved our ability to 
produce materials in Braille.
    When I graduated in the spring of 1999, technology was becoming 
increasingly more integrated into the fabric of the academic 
experience, but the old paradigm of access to information for students 
with disabilities still held true. Technology was implemented on 
campus, and it was the role of the McBurney Disability Resource Center 
to help figure out what modifications and additional access 
technologies might be needed to allow students with disabilities to 
gain access to those systems. Additionally, the primary means for 
disseminating information was still in hard-copy print, which we worked 
to convert to a format readable by students with disabilities. While 
the World Wide Web was used to disseminate some information, the 
configuration of Web sites was basic and generally easily handled by 
screen reading technology.
    In 2000, I was appointed to be director of the Wisconsin Center for 
the Blind and Visually Impaired--the agency under the Wisconsin 
Department of Public Instruction responsible for carrying out statewide 
outreach services to K-12 students who are blind and the school 
districts serving those students. I served in that capacity for 3\1/2\ 
years, during which time we spent thousands of State and Federal 
dollars to purchase access technologies that students who are blind 
used to access curriculum materials. These specialized access 
technologies had very little interface with systems in the public 
schools. We worked closely with school districts to advise them on how 
to make their computer labs accessible, but we rarely faced instances 
where the technology was used in a classroom on a daily basis. Our 
agency had a high tech distance learning lab that we used to connect to 
similar sites around the State. The lab was used for live interactive 
learning experiences where students could talk to and be seen by a 
presenter at another location. We rarely needed to troubleshoot a 
situation where a student needed to take a course online, as distance 
learning was still in its infancy in K-12. Finally, we worked to 
further improve the accessibility of K-12 textbooks by supporting the 
provisions in the law that ultimately created the National 
Instructional Materials Access Standard (NIMAS). The theory behind 
NIMAS was that access to instructional materials would be improved by 
having a clear electronic file standard for book files coming from 
publishers. The paradigm was still about accommodating students with 
disabilities in educational environments largely dominated by 
chalkboards and paper shuffling rather than keyboards and mouse clicks.
    I began overseeing national education programs for the National 
Federation of the Blind in late 2003, and soon after, I enrolled in a 
program at Johns Hopkins University to pursue a master's degree in 
education. My experience as a blind student in higher education was 
dramatically different than it had been just 5 years earlier as I 
finished my bachelor's degree. The vast majority of my interactions 
with the systems of the university were through the Internet. I 
registered for classes, accessed library materials, communicated with 
professors and advisors, downloaded course packets, and bought books 
online. The online systems were frequently challenging and forced me to 
find workarounds due to inaccessibility. Compared to my undergraduate 
experience, there was much more reasonably accessible digital content 
available, which resulted in my ability to navigate my coursework with 
a greater degree of independence than ever before. Where there were 
barriers, I was determined to figure out a way around them so I could 
get my degree. However, many students with disabilities are not 
prepared to fight through the frustration and delays. Had I been 
pursuing a degree in science or engineering, I would have had even more 
difficulty. Technology was rapidly becoming more complex and more 
integrated into the fabric of education, and blind students were 
beginning to face more barriers to accessibility. Meanwhile, in my 
coursework we studied the education system and the impact of technology 
on teaching and learning interactions. I came to understand that the 
future is uncertain--whether technology would facilitate unprecedented 
access to information and full integration or be the force that 
unintentionally segregates students with disabilities into an unequal 
learning environment.
    Today as a lifelong learner still seeking new knowledge, and an 
administrator of model educational programs, and a father of two young 
children about to enter public education (one of whom has the same eye 
condition I have), I am concerned that the future is still too 
unclear--will technology cause segregation or integration for students 
with disabilities?
                             a new paradigm
    There are two central elements to making education accessible to 
all students. The first is access to educational facilities. Although 
there still is work to be done in this area, the implementation of the 
Americans with Disabilities Act (ADA) has significantly improved this 
Nation's infrastructure for providing all people physical access to the 
educational environment. The second is access to information. For 
decades now we have been working to improve access to information in 
education for students with disabilities. Some of those efforts have 
been to make curriculum adjustments that better facilitate students 
obtaining and integrating knowledge. Other efforts have been to convey 
information in the form that makes it accessible--such as converting 
printed materials into Braille or using American Sign Language. 
Technology will either enhance our progress or make some of our 
previous efforts meaningless.
    The schoolhouse is now more accessible to students with 
disabilities than at any other time in history. But how will history 
view the great progress we have made when students with disabilities 
can get in the front door, to the classroom, and to a desk, but in the 
end they are shut out of the curriculum because the powerful 
technological tools used to convey knowledge are inaccessible to them 
and/or the alternative technologies are inadequate? Will we wait until 
families of young children with disabilities opt for home schooling in 
mass numbers because there are too many barriers to fight through in 
the mainstream educational technology in their local schools? Will we 
wait until students with disabilities stop coming to mainstream 
universities because the systems central to the student experience--
everything from putting money on your meal card to reading the 
literature of the world--are not accessible to them in an equally 
integrated manner? Technology is no longer a supplement to the 
educational experience; it is an essential access point for education 
and employment in the 21st century.
    Technology changes the paradigm of accessibility because it can be 
designed from the very beginning to provide the broadest access. In its 
basic form digital content is accessible to everyone, as it can be 
easily transformed, converted, and translated into the form that is 
required by an individual student. By universally designing 
technologies to handle a broad range of different physical and 
informational interfaces, we can get significantly closer to equality 
in education. Today we are getting a glimpse of what the well-designed 
future can be. Consider the blind student in a classroom environment 
that uses the iPad. The student can use Apple's built-in VoiceOver 
screen reading technology and participate in lessons alongside her 
sighted peers, and she can take out a refreshable Braille display (a 
supplemental access technology) and connect it to the iPad to read in 
Braille the reading lesson the teacher uploaded an hour before class. 
With this powerful accessibility built into a mainstream device, we 
begin to understand that technology can get us much closer to equality 
in education than even the most vocal advocates had imagined. But the 
opposite is also true.
    When the old paradigm of ``accommodation'' persists, educational 
institutions adopt technologies that are incredibly complex but have 
not been designed for access by students with disabilities--they miss 
the opportunity and unknowingly create new challenges. This means the 
educational institution has to find an alternative, which brings an 
additional expense and will most likely be unequal. Imagine the blind 
student who attempts to log on to the university library site, search 
for research articles, and obtain relevant digital copies of articles 
for a course project. Imagine the frustration when the student cannot 
effectively perform the search because the database was not designed 
according to well-accepted Web accessibility standards. The student 
contacts the library (during normal business hours only), and the 
librarian is pleased to meet his responsibility to accommodate by 
performing the search for the student and pulling the relevant 
articles. The student provides as much information as possible about 
the desired search terms (even though nondisabled students use the 
process of searching to narrow their focus), and the librarian agrees 
to e-mail the student the digital copies of the articles. The librarian 
identifies 25 relevant articles but only 10 are available as full text 
(accessible to the student). The other 15 are provided in inaccessible 
PDF files, which the student must take and run through a program that 
attempts to perform optical character recognition on the files. All of 
that has to be done before even getting to the abstract of the article 
to know if it is one that is worth reading for the project. And just 
imagine if the search terms were not quite right and another search is 
needed but the library is closed until Monday. Meanwhile, other 
students in the project group are uploading notes to an online wiki for 
planning the project. Of course, the wiki is a Web platform that was 
also not built with accessibility in mind. The student decides to 
switch to work for another course so she attempts to pull up a required 
class video from an online learning management system. The video is 
offered in Flash, and accessibility has not been properly implemented, 
which results in the student being unable to play the video. All of 
these barriers and more are faced by students today, even though 
providing accessibility in these technology applications is possible. 
Unless we commit ourselves to the new paradigm, this is the experience 
for a student with a disability in the future where technology is built 
and implemented without accessibility from the beginning.
         the shift of technology in education (the opportunity)
    As technology becomes more central to the educational experience 
and accessibility is built into the mainstream technology, we should 
observe the technology market becoming more effective in its delivery 
of products to increase accessibility for people with disabilities. In 
the old paradigm, very expensive, low-volume products were created to 
assist people with disabilities to gain access to information. 
Specialized electronic devices allowing a blind person to write and 
read back the Braille code in electronic form have been produced for 
decades. These devices--generically referred to as electronic Braille 
notetakers--have historically had limited interaction with mainstream 
computers and have generally cost more than $5,000. As mainstream 
technology incorporates more accessibility into the native design, the 
need for these highly specialized and segregated devices goes down. 
This means that the access technology industry can focus on needs that 
the mainstream market is unlikely to effectively address. For example, 
although Apple's iOS devices include great accessibility support 
(screen reading and screen magnification technology for blind users) 
and interoperability with third-party refreshable Braille displays, 
Apple itself is unlikely to get into the business of designing, 
building, and distributing Braille display devices. However, Apple's 
leadership in native accessibility in the iOS platform opens up a new 
market for devices that further enhance the accessibility of the Apple 
products and provide innovative solutions to the access to information 
challenge. In addition to refreshable Braille displays, there will 
still be a need for a number of products that are critical in providing 
access to the curriculum but are unlikely to come from the mainstream 
market. Examples of such technologies are tools for producing hard-copy 
Braille (Braille embossers) and tactile graphics.
    To illustrate this technology shift, let's compare the old 
specialized model to the new paradigm of accessible mainstream 
technology. The old access technology model is represented by the 
BrailleNote Apex--a Braille notetaking/PDA device available from 
HumanWare at a retail price of $6,379. The BrailleNote Apex has a 
fairly wide distribution in K-12 education as a specialized device for 
blind students. The new paradigm is represented by an Apple iPhone 4S 
16GB with a retail price of $199. Because the iPhone does not include 
refreshable Braille built into the device, we need to add a separate 
piece of access technology. In order to make the comparison fairly 
equal, I chose to add the Alva BC640 40-cell refreshable Braille 
display at a retail price of $4,199. This means on price alone our new 
mainstream option retails for $4,398 (almost exactly $2,000 less than 
the specialized technology option). Table 1 compares the products based 
on hardware capacity and processing speed. In this comparison we find 
that the mainstream option is not only less expensive but far more 
powerful than the specialized option. Finally, the chart does not 
compare the availability of applications between these two solutions. 
While we could easily detail the applications available for the 
BrailleNote Apex (those built in and those available for hundreds of 
extra dollars), we would not be able to do that for the iOS platform.
    There are hundreds of thousands of applications in the Apple App 
Store. Even when you consider that Apple does not currently require 
applications to be accessible to be in the App Store, blind users of 
the iOS platform have found a growing number of powerful accessible 
applications to serve every need from taking notes to reading books to 
engaging in social networking. It is fair to say that the applications 
available in the mainstream model exponentially exceed those in the 
specialized model.
        the failure in technology implementation (the challenge)
    I believe it is fair to say that, with only a few limited 
exceptions, educational institutions at the K-12 and post-secondary 
level are currently failing to make a passing grade in the subject of 
realizing the promise of technology for students with disabilities. 
However, it is not entirely their fault. These institutions have 100 
percent of the responsibility for ensuring their programs and services 
are accessible and, while they should develop more capacity to ensure 
the accessibility of the technologies they purchase, the reality is 
they cannot effectively test the accessibility for every piece of 
technology on the market--the technology vendors need to do better. 
There is a need for shared responsibility, clear standards, and strong 
enforcement.
                   books and instructional materials
    Let's examine just a few technologies in the educational space to 
understand the barriers students with disabilities currently face. 
Central to the educational experience is the book. In growing numbers 
K-12 schools and universities are moving away from static hard-copy, 
expensive print books to the use of dynamic, easily updated and 
supplemented, and less expensive e-books. The mainstream move to e-
books has great promise for students with disabilities. Digital content 
is not inherently inaccessible like the print book. The basic digital 
content of a book can be read aloud using speech technologies or 
enlarged using magnification software without much trouble. In fact, 
people with disabilities, specifically those with ``print 
disabilities,'' have been using digital versions of books since the 
late 1980s. The e-book is frequently delivered via a device or reading 
system (e.g., Amazon's Kindle, Apple's iPad, or Adobe's PDF product). 
As long as the delivery system for the e-book includes accessibility, 
students with print disabilities will have equal access to the content 
of the book and the functionality of the reading system. In practical 
terms this means that we have the promise of all students having access 
to the same book, at the same time, and at the same price. This is a 
tremendous leap forward in terms of timely access to materials compared 
to the old paradigm, and it saves the significant amount of human 
resources that were being used to convert inaccessible print back into 
an accessible format.
    The reality of e-book adoptions in both K-12 and higher education 
is that, in general, the producers of textbooks and to some extent the 
purchasers of those books are stuck in the old paradigm of 
accessibility. Accessibility is often not built into e-book readers 
and, when it is built in, it does not provide the same level of 
functionality and navigation that is provided to the reader without a 
disability. Two examples at either end of the spectrum of accessibility 
are products provided by Apple and Barnes & Noble. Apple recently 
launched iBooks 2.0 with an aim at revolutionizing the educational book 
space. Apple is the industry leader for built-in accessibility due to 
its commitment to out-of-the-box accessibility in their iOS (iPad, 
iPhone, iPod) and Mac products. This means that a blind student can 
purchase the iPad, for example, at the same price as everyone else and 
begin using it with the built-in VoiceOver screen reader from the 
moment it comes out of the box. While the blind student can purchase 
one of the new iBook 2.0 titles and read it straight through, she will 
not be able to navigate the book or have access to the same 
functionality as her nondisabled peers--not perfect but far more 
accessible than the old paradigm. In contrast, many universities have 
begun creating relationships with Barnes & Noble for provision of e-
textbooks with focus on the relatively inexpensive Nook device for 
delivery of those books. The Nook includes no accessibility features 
and leaves a print-disabled student to find a separate solution. Most 
certainly the separate solution will also be unequal as the print-
disabled student will not have any of the functionality that the Nook 
provides to all other users. There are a number of other book reading 
systems and devices delivering various e-book formats with varying 
degrees of inaccessible content and features and most fall down when 
accessibility is considered. The promise of ``same book, same time'' is 
near but not yet fully delivered.
    Why would any educational institution choose the Nook considering 
its inaccessibility? I believe it is largely because they are stuck in 
the old paradigm of having to accommodate students with disabilities. 
Therefore, it is natural to the schools to purchase something that is 
inaccessible and figure out an alternative for students with 
disabilities. Furthermore, the educational institutions have complete 
responsibility under the law for ensuring equal access to their 
educational programs. The old paradigm has created the practice of 
buying the product you feel best meets what your need is and working 
out accessibility if you have to do so. However, the new paradigm 
should suggest that schools start demanding complete accessibility in 
their technology products, including e-books, and hold the producers of 
those technologies responsible. The educational textbook market is a 
significant piece of the publishing industry and, with the growing 
adoption of e-books, we need to ensure that the books being used in 
education are accessible to students with print disabilities.
    A final problem related to the adoption of accessible e-books in K-
12 is the existing NIMAS standard. Before the e-book market began 
taking off in education, NIMAS was the most effective policy solution 
to helping K-12 schools deliver more timely textbooks to their students 
with print disabilities. While NIMAS helped to create some 
standardization in the electronic files, it has not made a noticeable 
difference in the delivery of better and more timely instructional 
materials to students with disabilities. Furthermore, NIMAS is now a 
barrier to mainstream access to books at the K-12 level. There is 
little incentive for publishers of e-books for the K-12 market to 
produce fully accessible e-books as long as they can meet their legal 
obligation to provide a NIMAS file. As the e-books become more 
sophisticated and include greater functionality--ability to annotate, 
link to online content, etc.--the student using the NIMAS version of 
the book will receive increasingly unequal access.
          cloud-based education and dedicated portable devices
    Many schools are utilizing the tremendous resources available 
through applications and databases available ``in the cloud.'' 
Frequently schools make educational resources available through Web 
sites that are actually portals to sophisticated software applications 
that run over the Internet rather than being locally installed on a 
hardware device. This provides great flexibility to schools and allows 
them to take advantage of a tremendous amount of technology that can be 
freely implemented. Because cloud-based applications are not installed 
locally, the school can leverage whatever Internet-enabled devices they 
have available or they can have individual students bring their own 
device.
    Take for example Google's effort to gain wide support for adoption 
of Google Apps for Education in schools across the country as a means 
of providing e-mail and collaboration tools to students and faculty. 
Google Apps for Education is a free suite of hosted communication and 
collaboration applications that includes Gmail, Google Calendar, Google 
Talk, Google Docs, and Google Sites. We have found that each of these 
applications contains significant accessibility barriers for blind 
people utilizing screen access technology. These applications are 
attractive to schools because they are powerful and their price tag 
does not stretch the education budget.
    However, you cannot accommodate students in an equally integrated 
manner when they are shut out of a technology as powerful as Google 
Apps for Education. Schools face the choice of segregating students 
with disabilities or enhancing integration by only adopting 
technologies that are accessible. While we hope all schools make the 
right decision, if they do not, the individual student has very few 
options available, and every day that a student with a disability waits 
for the technology to be made accessible is another day of learning 
lost.
    In other cases, schools are adopting broad programs to purchase 
technology and put a device in the hands of each student. Consider a 
story from last summer's Powell Tribune (Powell, WY) entitled ``School 
district adopts the iPad.'' The story details the plan to spend 
$722,000 for the purchase of 1,180 second-generation iPads in order to 
put one in the hands of each middle and high school student in the 
district. The story does not talk at all about accessibility, although 
it does talk about the ways that implementing this technology will cut 
down on other costs such as textbooks and computer-based testing. This 
raises the question of whether or not the applications used on the 
iPads will be designed to be accessible to students with disabilities. 
If not, how will the district accommodate those students, and will it 
create segregation or integration?
    Even more alarming is a report from CNET News entitled ``27,000 
Google Chromebooks headed to U.S. schools.'' The article announces the 
plan to distribute new Chromebooks to school districts in Iowa, 
Illinois, and South Carolina. The article credits a Google official as 
saying, ``We now have hundreds of schools across 41 States that have 
outfitted at least one classroom with Chromebooks.'' The Chromebook is 
a tablet device that provides computing power while operating 
applications from the cloud. This device presents significant access 
barriers to students who are blind, yet these school districts are 
proceeding with a plan to issue Chromebooks to students for use in 
school and at home. This means nondisabled students have around-the-
clock access to information and those who are blind have unequal access 
and are potentially shut out of certain applications.
    These are just a few examples of technologies that are being 
rapidly and broadly implemented with limited to no accessibility. There 
are dozens of other inaccessible technologies by dozens of other 
technology companies big and small being purchased by educational 
institutions largely using public money. Examples of other educational 
technologies where we have found limited accessibility even after the 
system was implemented in K-12 schools or universities include:

    <bullet> Interactive White Boards (IWBs);
    <bullet> Online course management systems;
    <bullet> Software for performing virtual science experiments;
    <bullet> Web sites for courses, programs, schools, and entire 
districts which provide important information and essential notices;
    <bullet> Online journals;
    <bullet> Educational resources produced and distributed by Federal 
grant projects;
    <bullet> Computer-based assessments;
    <bullet> Online applications for admission to programs; and
    <bullet> Classroom devices such as clickers.

    Furthermore, this does not take into account the technologies that 
teachers and faculty members with disabilities need to interact with to 
create and post educational content, perform research, log grades, or 
do any of the other staff functions required by their employer and 
utilizing a computerized system owned by the educational institution.
                   recommendations for federal policy
    Based on my personal experience as a blind person in the education 
system (K-12 through master's degree), an administrator of educational 
programs for blind children and adults, a father with young children 
about to enter America's public education system, and an advocate who 
works with blind students and faculty across the country, I offer the 
following recommendations to facilitate the use of technology to 
enhance accessibility and academic outcomes for students at all levels.
Stronger Oversight and Accountability in Government
    In order to meet the promise of technology in education we need 
strong leadership. That leadership begins with the Government cleaning 
up its own practices. Federal agencies dealing with educational 
institutions and providing grants to institutions to do cutting edge 
research and education are among the offenders. For example, while the 
U.S. Department of Education has been more responsive to dialog lately, 
they still do not have clear checks and balances to prevent the 
distribution of grants that will fund projects resulting in the 
development of inaccessible digital instructional materials. The agency 
needs to have an official who reports directly to the Secretary who can 
ensure that the entire infrastructure of educational technology efforts 
includes real accessibility. Furthermore, the Department of Education 
needs to closely monitor and enforce accessibility requirements in its 
distribution of grants.
    Another significant agency of concern is the National Science 
Foundation, which funds a tremendous amount of research and educational 
innovation. In recent correspondence from the Foundation to Kareem 
Dale, Special Assistant to the President for Disability Policy, as a 
followup to concerns raised about the accessibility of NSF-funded 
projects, the Foundation said in part:

          When a grant proposal is submitted to the NSF, the Authorized 
        Organizational Representative (AOR) from the proposing 
        organization electronically signs the proposal. By 
        electronically signing the proposal, the AOR certifies the 
        organization agrees to comply with NSF's Nondiscrimination 
        Certification. That certification states that the organization 
        agrees to comply with a multitude of civil rights statutes, 
        including the Rehabilitation Act, as well as all regulations 
        and policies issued by NSF pursuant to these statutes.

    The practical experience of researchers with disabilities and those 
attempting to use educational products from NSF-funded programs is that 
the technologies and materials are frequently not accessible. I would 
recommend that ``checking a box'' is not enough. We need a proactive 
approach. What tools is NSF giving potential grantees to understand 
accessibility and help them build it in? What guidelines and examples 
does the agency provide for grantees to know what works and what 
doesn't? How often does accessibility get discussed at project director 
conferences? And how clear is the complaint process to those who find 
violations? When America is interested in boosting its science, 
technology, and engineering workforce, we should not be leaving people 
with disabilities behind.
    Finally, some agencies are working on being more proactive, 
strengthening their enforcement of accessibility requirements, and 
bringing more attention to the issues. A recent request for proposal 
from the U.S. Department of Labor included the statement,

          All online and technology-enabled courses developed under 
        this SGA must incorporate the principles of universal design in 
        order to ensure that they are readily accessible to qualified 
        individuals with disabilities in full compliance with the 
        Americans with Disability Act and Sections 504 and 508 of the 
        Federal Rehabilitation Act of 1973, as amended.

    A good step forward if the agency sticks to it, asks for clear 
documentation of how the project is meeting this requirement (not just 
a checkbox), and takes swift action when this provision is violated. 
However, what happens when you go to the Department of Labor Web site 
and click on one of the links that takes you to a third-party site like 
Facebook? You are met with a new page that states:

          You are exiting the Department of Labor's Web server. The 
        Department of Labor does not endorse, takes no responsibility 
        for, and exercises no control over the linked organization or 
        its views, or contents, nor does it vouch for the accuracy or 
        accessibility of the information contained on the destination 
        server. The Department of Labor also cannot authorize the use 
        of copyrighted materials contained in linked Web sites. Users 
        must request such authorization from the sponsor of the linked 
        Web site. Thank you for visiting our site. Please click on the 
        link below to continue.

    The Department is presumably posting information to Facebook for 
the purpose of communicating vital government information and news to 
the public. Facebook presents many accessibility challenges to people 
with disabilities. We might reasonably assume that the individual 
posting information to Facebook on behalf of the Department is an 
employee or contractor of the Government--unless there is a volunteer 
that has been authorized to perform this service. Yet the Department 
claims no responsibility for the accessibility of the content presented 
on the Facebook page. Advocates have found getting Facebook to improve 
its accessibility frustratingly slow. Who is taking responsibility for 
accessibility? How many other third-party sites containing vital 
government information are not accessible and have nobody taking 
responsibility for their accessibility? Where is the leadership, and 
who is working to ensure that all citizens of this great Nation have 
access to information?
    We need to do more to move government from the old accommodations 
model into the new mainstream access model of technology. Greater 
leadership, proactive training, and rigorous reinforcement is required. 
There should be more centralized responsibility for ensuring 
accessibility within Federal agencies and within the policies of those 
agencies. In particular, the Government needs to take more aggressive 
steps to ensure that Federal grant funds are not going to projects 
where accessibility is ignored. Furthermore, the Government needs to 
provide leadership in these areas by ensuring that government sites 
meet the highest standards of accessibility.
Strong, Enforceable, and Functional Standards
    Those who resist the requirement that technologies be accessible 
from the design phase argue that it is too hard to know what accessible 
means and what truly is universal design, and that having a standard 
limits innovation. Despite these claims, many strong sets of standards 
have been developed that have gone a long way toward improving 
accessibility, and new innovative solutions are coming to market when 
the talent is focused in that direction (e.g., Apple's use of unique 
interface gestures that make the iPhone accessible to blind people). 
But there are not good comprehensive standards to guide the 
accessibility of technology in educational institutions.
    I recommend that the Congress take swift action to authorize the 
U.S. Access Board to compile functional guidelines in the area of 
instructional materials. The recent report of the Federal Advisory 
Commission on Accessible Instructional Materials in Post Secondary 
Institutions for Students with Disabilities provided as their first 
recommendation that,

          ``Congress should authorize the U.S. Access Board to 
        establish guidelines for accessible instructional materials 
        that will be used by government, in the private sector, and in 
        post-secondary academic settings.''

    This Commission of experts defined ``instructional materials'' 
broadly by stating,

          Instructional materials are the curricular content (printed 
        and digital books, journals, course packs, articles, music, 
        tests, videos, instructor-created PDFs and PowerPoint 
        documents, web pages, etc.), as well as the technologies 
        required (hardware, firmware, software and applications) for 
        the manipulation, annotation and dissemination of content. This 
        definition also includes any other required instructional 
        software and applications used to facilitate the teaching and 
        learning process, including learning software, courseware/
        learning management systems, digital ``learning objects,'' 
        library databases, and others.

    This Commission also emphasized the importance of functional 
requirements by noting that specifying file types or specific 
technologies was not the answer. The Commission went on to firmly State 
that:

          Technology developed or deployed to facilitate access to 
        instructional materials must permit a user with a print 
        disability the opportunity to acquire the same information, 
        engage in the same transactions and enjoy the same services at 
        the same time as the user without a disability, and with a 
        substantially equivalent ease of use.

    It is worth noting that a functional set of technology guidelines 
meant to specifically address education will apply in K-12 as well as 
post-secondary programs as the functional requirements for 
accessibility should be the same at all levels. This clarifies 
accessibility for all parties and reduces the uncertainty about whether 
a particular technology will be viewed as being accessible. This work 
will also create the framework for creating proactive tools and 
technical examples to help technology developers understand 
accessibility. These standards will become more critical as people with 
disabilities rely more on mainstream rather than specialized 
technology, to ensure that the accessibility of these technologies does 
not erode. Ultimately, these guidelines should be enforceable by 
linking them to existing civil rights and public accommodations 
protections.
Projects to Collect, Develop, and Disseminate Best Practice Tools
    Congress and Federal agencies could help advance accessibility 
significantly by putting together more efforts to support the 
development and dissemination of resources in the areas of implementing 
accessible online content, tools to test accessibility of publications, 
best practices for purchasing and implementing accessible technologies, 
and other related topics. There is a great need to collect together 
best practices related to the design and implementation of accessible 
technologies and content so it can be better understood in the 
educational system.
    Federal agencies should make accessibility a priority track at 
conferences sponsored by the Government and consideration should be 
given to a national conference on accessible technology in education. 
Furthermore, the U.S. Department of Education should collect case 
studies of innovative approaches to ensuring accessibility across the 
technology infrastructure of school districts and universities and make 
those examples available via the Internet.
    The Government could also help to raise understanding of 
accessibility within the information technology industry by first 
ensuring that government IT professionals receive more resources and 
training on what accessibility means, how to require it in the 
purchasing process, and how to test that accessibility has been met. 
The stronger the accessibility requirements in technology purchasing, 
the higher the demand will be in the industry for IT professionals, 
programmers, and computer engineers who truly understand accessibility 
and universal design. This will ultimately trickle down to the 
university programs and other professional training programs creating a 
systemic approach to raising the importance of accessibility.
Improved Protections Against Inaccessible Technology in Education
    I believe that leadership, strong functional standards, proactive 
best practices, and greater government accountability for accessibility 
of technology in this Nation's educational facilities will make a 
tremendous difference. I am not convinced that it will be enough to 
really hit the tipping point where all technologies are universally 
designed and available to all students on the first day they are 
implemented in the classroom. This is a real threat to access, 
education for students with disabilities, and I believe Congress should 
strengthen the shared responsibility for accessibility and the remedies 
available to students and faculty with disabilities who are segregated 
to second-class access.
    First, a disabled college student, faced with inaccessible 
technology and a school that is not interested in taking the steps 
necessary to make it accessible, has ways to address the problem for 
herself and systemically--with a complaint to either the Department of 
Education or Department of Justice or a suit under title II (if a 
public college) or title III (if a private one). The parents of a K-12 
student, however, have a more complex set of hoops to jump through with 
relatively little possibility of making systemic change. Generally, 
parents of children with disabilities are restricted to provisions 
under the Individuals with Disabilities Education Act (IDEA) and 
challenges to the IEP. Take for example a school district that adopts 
an inaccessible technology that is used in every classroom for every 
student. Due to the priority of the IEP process for accommodating 
students, a claim of discrimination because of inaccessibility would 
first have to exhaust the complaint procedures under IDEA. This further 
emphasizes the old accommodations model rather than taking advantage of 
the promise for universal access that technology can deliver. We need 
clearer protection under the law in cases where inaccessible technology 
is widely adopted and systemically bars the participation of students 
with disabilities to clarify the unintended consequences of the IDEA 
and the IEP process.
    Second, educational institutions at all levels have the entire 
responsibility under Federal law for providing equal access to 
instructional technologies. If a student encounters pervasive 
discrimination because of the proliferation of an inaccessible digital 
book, platform, or device, her remedies are entirely against the 
educational institution, including, in the case of section 504, cutting 
off Federal funding. Meanwhile, the companies that sell hundreds of 
thousands of dollars of inaccessible technology into the education 
market share none of the responsibility for the discrimination against 
students with disabilities. Furthermore, companies that do not include 
accessibility in their products may enjoy a price advantage because 
their products include less robust features than the technologies that 
come with accessibility built in. Schools can, of course, seek 
contractual representations and warranties and indemnity clauses to 
extend liability to educational vendors, but many lack the market power 
to insist on such provisions. The civil rights laws should be 
strengthened so that companies systemically placing inaccessible 
technologies into K-12 or post-secondary education programs can be held 
accountable for their role in shutting out students with disabilities. 
Specifically, I recommend that Congress consider extending the private 
right of action to companies whose products create systemic barriers to 
the full participation of students with disabilities in the educational 
system. Along with a strong functional standard of accessibility, this 
will encourage accessibility, reward those implementing universal 
design, and punish those misrepresenting the accessibility of their 
technologies.
    Third, it is critical that we recognize the tremendous sacrifice 
that a student with a disability makes when bringing a complaint 
regarding accessibility against her school. Consider the Ph.D. 
candidate pursuing a career in academia. If in the middle of her study 
she decides she can no longer take the technology barriers she faces in 
the university's systems, she has a terrible choice to make. Option 1: 
File a complaint against her university and potentially upset some of 
the very mentors she came to the university to work under. Furthermore, 
her complaint will put her in the position of applying for jobs at 
other universities and listing references from her current university 
where many will think of her as a troublemaker. Option 2: Bite her 
tongue, accept whatever extra cost there is to her to work through the 
inaccessible technology, and hope to get out successfully as fast as 
she can. Option 3: Drop out. In the same way any other group has faced 
real and perceived retaliation for attempting to achieve equality in 
society, students with disabilities face a real barrier when fighting 
for accessible technology. Congress needs to carefully consider the 
pressure on students with disabilities and create stronger protections 
that give stronger supports to students and help to share the 
responsibility of accessibility.
    Technology accessibility is a central civil rights issue for the 
21st century, and if Congress does not take stronger actions, we will 
make people with disabilities second-class citizens in a digital era.
                               conclusion
    Technology is transforming the way we create, share, and gain 
knowledge. If built universally and implemented effectively, technology 
will make the passion and skill of our greatest teachers even more 
powerful as we nurture the next generation of leaders for our Nation. 
If we fail to include accessibility in that technology, we will set 
this generation of students with disabilities back decades. The cost to 
those individuals and to our country is too great and the opportunity 
is too promising to stand by and let that happen.
    As a blind father working to build a future for my own children as 
well as the blind children that are now entering the education system, 
it concerns me that we might miss the tremendous opportunity that is 
within our reach. It worries me that our failure to make universal 
access to technology a reality may potentially shut one of my children 
out of educational opportunities and may prevent me, as a blind parent, 
from having the same access to information and resources regarding my 
children's education as my sighted peers. By welcoming the new paradigm 
of mainstream access, providing government leadership in programs and 
grant-funded projects, collecting and disseminating best practices in 
implementing accessible technology, building tools to check for 
accessibility barriers, deepening awareness and expertise among IT 
professionals, and strengthening nondiscrimination protections under 
the law, we can make a huge difference.
    Distinguished members of this committee, I deeply appreciate the 
opportunity to present my perspective and recommendations regarding the 
intersection of technology and education for students with 
disabilities. Your leadership in putting this hearing together is 
extremely meaningful and will contribute significantly to the shift to 
a new paradigm of accessibility in education. We know the type of 
future we want, we understand the promise of technology, and we must 
act quickly to make it a reality.
                               References
``27,000 Google Chromebooks headed to U.S. schools,'' Deep Tech--CNET 
    News, http://news.cnet.com/8301-30685_3-57365703-264/27000-google-
    chromebooks-headed-to-u.s-schools/.
``Mainstream Access to E-Books--What Works, What Doesn't, and What Is 
    Still Unclear,'' Braille Monitor, January 2012, http://www.nfb.org/
    images/nfb/Publications/bm/bm12/bm1201/bm120105.htm.
``Notice of Availability of Funds and Solicitation for Grant 
    Applications for Trade Adjustment Assistance Community College and 
    Career Training Grants Program,'' Employment and Training 
    Administration, U.S. Department of Labor, Notice of Solicitation 
    for Grant Applications (SGA), http://www.doleta.gov/grants/pdf/SGA-
    DFA-PY-10-03.pdf.
Recent NFB Blog posts: Google Apps, http://www.nfb.org/NewsBot.asp?MODE
    =VIEW&ID=850&SnID=178214263. The Google Blog, http://www.nfb.org/
    News
    Bot.asp?MODE=VIEW&ID=848&SnID=178214263. Google, http://
    www.nfb.org/NewsBot.asp?MODE=VIEW&ID=782&SnID=178214263.
``Report on the Accessibility of Google Documents,'' Access Technology 
    Higher Education Network (ATHEN), http://athenpro.org/google-docs-
    accessibility.
``School district adopts the iPad,'' written by Don Amend, Powell 
    Tribune, Powell, WY, http://www.powelltribune.com/news/item/8470-
    school-district-adopts-the-ipad.

             Table 1.--Comparison of iPhone and BrailleNote
------------------------------------------------------------------------
                                       iPhone 4S       BrailleNote Apex
------------------------------------------------------------------------
Processor.......................  1GHz dual-core A5   Freescale iMX32
                                   \1\.                \2\ (approx.
                                                       532MHz \3\)
RAM.............................  512MB.............  256MB
Internal Storage................  16/32/64GB........  8GB
GPS.............................  Internal..........  External
Camera..........................  8-megapixel.......  None
External Synchronization........  Wi-Fi/Cloud, USB..  USB/SD Card
Web Browsing Capabilities.......  Full browser        Mobile browser
                                   capable of          best for text or
                                   rendering HTML 5.   simple pages.
Price...........................  16GB iPhone 4S      BrailleNote Apex
                                   ($199) + Alva       32 cell Braille
                                   BC640 40-cell       display: $6,379
                                   refreshable
                                   Braille display
                                   ($4,199): $4,398.
------------------------------------------------------------------------
\1\ http://www.pcworld.com/article/241158/
  iphone_4s_vs_the_competition_spec_showdown_chart .html.
\2\ http://www.humanware.com/en-usa/products/blindness/braillenotes/
  _details/id_161/braillenote_  apex_qt_32.html.
\3\ http://www.freescale.com/webapp/sps/site/
  taxonomy.jsp?code=IMX31_FAMILY. Information of iMX32 is not available,
  but datasheets show iMX31/32 listed together; specifications appear to
  be similar.

                                 ______
                                 
     Requested Information About NSF Enforcement and Monitoring of 
                       Rehabilitation Act of 1973
Kareem Dale,
Special Assistant to the President for Disability Policy,
Office of Public Engagement,
The White House.
    Dear Kareem: Thank you for inviting me to attend the October 28, 
2011 ``Briefing on the Accessibility of Science, Technology, 
Engineering and Mathematics (STEM) Education and Careers for People 
with Disabilities.'' During the meeting Dr. Gardner and you asked for 
information about how NSF enforces and monitors awardee compliance with 
the Rehabilitation Act of 1973 (29 U.S.C. 794). The following response 
is offered for your consideration.
    When a grant proposal is submitted to the NSF, the Authorized 
Organizational Representative (AOR) from the proposing organization 
electronically signs the proposal. By electronically signing the 
proposal, the AOR certifies the organization agrees to comply with 
NSF's Nondiscrimination Certification. That certification states that 
the organization agrees to comply with a multitude of civil rights 
statutes, including the Rehabilitation Act, as well as all regulations 
and policies issued by NSF pursuant to these statutes.
    NSF has the responsibility to monitor awardee compliance with the 
Rehabilitation Act. Specifically, in accordance with its regulations, 
NSF is required to conduct a prompt investigation whenever it receives 
information suggesting a possible failure to comply with the 
requirements of the Rehabilitation Act. At the conclusion of its 
investigation, NSF informs the awardee in writing of its findings of 
fact and conclusions of law. If NSF determines that the awardee failed 
to comply with the Rehabilitation Act, NSF sets forth the measures that 
the awardee must take to bring itself into compliance. If the awardee 
is unable or unwilling to take the measures set forth by NSF, NSF may 
take appropriate action against the awardee including, but not limited 
to, the termination of any NSF funding to the awardee.
    In addition, pursuant to its regulations, NSF is authorized to 
periodically review the practices and policies of awardees to determine 
whether they are complying with the requirements of the Rehabilitation 
Act. The regulations do not specify a particular number of compliance 
reviews that NSF is required to undertake in a given year.
    Thank you for this inquiry. Please advise if there is any 
additional information we can provide.
            Best,
                                      Mark H. Leddy, Ph.D.,
                   Program Director, Directorate for Education and 
                      Human Resources, National Science Foundation.

    The Chairman. Thank you, Mr. Riccobono--a very, very 
eloquent statement.
    Now we will turn to Dr. Quick.
    Dr. Quick, I read your testimony last evening--pretty 
phenomenal what you've done in Columbus, IN. Please proceed.

          STATEMENT OF JOHN B. QUICK, SUPERINTENDENT,
   BARTHOLOMEW CONSOLIDATED SCHOOL CORPORATION, COLUMBUS, IN

    Mr. Quick. Good afternoon, Mr. Chairman. Thank you for 
inviting me to speak about Bartholomew Consolidated School 
Corporation and how we work to achieve the best possible 
outcomes for every student. I would like to share how we use 
Universal Design for Learning as our framework for curriculum 
instruction and how that helps our teachers effectively use 
accessible technology.
    We are a district of 12,500 students. We are rural, about 
50 miles south of Indianapolis and 90 miles west of Cincinnati. 
We have 18 schools serving our students. Of those students, 45 
percent are eligible for free and reduced lunch, 16 percent are 
students of color, 14 percent receive special education 
services, and 11 percent are English language learners.
    Therefore, in 2008, we made a purposeful decision to use 
Universal Design for Learning across all our programs as a 
framework to design all instruction and curriculum in our 
district. We find this framework has helped us uphold our 
expectation that all learners will achieve to their highest 
level.
    Using Universal Design for Learning has advanced the 
educational outcomes that include: From 2009 through 2011, we 
had a 10.5 percent increase in the number of students with 
disabilities passing Indiana's statewide assessment; 68 percent 
of our English language learners increased their skill scores 
on a statewide assessment which was a greater increase than the 
State average; and we had a 7 percent increase of K-8 students 
receiving Pass-Plus. This is the State's highest recognition on 
the State testing in English language arts and math.
    In 2011, we met annual yearly progress targets for both 
English language arts and math with our special education 
population and our English language learner population. Our 
district was honored by the College Board and placed on the 2d 
Annual Advanced Placement Honor Roll for increasing the number 
of students participating in AP and improving the percentage of 
underserved students earning advanced placement exam scores of 
three or higher.
    At this point, let me take a minute or two to tell you 
about what Universal Design for Learning means to our schools. 
Just as the Americans with Disabilities Act requires buildings 
to be accessible to all who might enter, Universal Design for 
Learning serves as a framework to make learning environments 
accessible to all students. There are three overarching 
principles: engagement, representation, and action expression. 
When used, these create an accessible learning environment.
    BCSC recognizes the need to create flexible learning 
environments which are standards-based and utilize accessible 
technologies when appropriate to the lesson. We are fortunate 
to have access to technologies such as computers, the Internet, 
smart phones, tablets, and other devices. However, those 
technologies only come into use when they have been identified 
as connected to the instruction.
    Teachers utilize the framework of Universal Design for 
Learning as a decisionmaking tool to help them determine what 
strategies, accessible technology, and methods they will use to 
help the students achieve the goals of the lesson.
    For example, a seventh grade student was recently 
experiencing significant behavior problems. This student with 
autism, who is also identified as high ability, continued to 
struggle in many of his high ability core courses. After 
investigation, it was determined that the current instructional 
strategies were not a match for the student. Because we 
provided the student access to a computer-based program, this 
student no longer exhibits the previous behaviors. In fact, 
this student is successfully completing high school courses as 
a seventh grader. The availability of accessible technology has 
allowed this student to remain in school.
    BCSC's adoption of Universal Design for Learning and the 
use of accessible technologies had taken time, commitment, and 
persistence in an age of constant educational change. We 
believe that Universal Design for Learning and the use of 
accessible technology has placed us on a pathway to improve 
services for all our students. With its well-defined and 
flexible framework, Universal Design for Learning has provided 
the necessary structure within which BCSC's teachers can plan 
and feel confident in their profession.
    Thank you for inviting me to share information about how 
BCSC uses Universal Design for Learning to choose accessible 
technology. My staff and I are at your service.
    [The prepared statement of Mr. Quick follows:]
                  Prepared Statement of John B. Quick
    Chairman Harkin, Ranking Member Enzi and members of the Senate 
Committee on Health, Education, Labor, and Pensions, thank you for 
inviting me to testify before the committee. I am Dr. John B. Quick, 
superintendent of Bartholomew Consolidated Schools, Corporation (BCSC) 
in Columbus, IN. I want to share with you information about how our 
school district uses the framework of Universal Design for Learning 
(UDL) to expand and guide our use of accessible technologies to enhance 
our instruction and gain better outcomes for our students.
                              demographics
    Bartholomew Consolidated School Corporation (BCSC) is located in 
Columbus, IN, 45 miles south of Indianapolis. Of our 12,500 students, 
0.3 percent are American Indian, 1.8 percent are Black, 3 percent are 
Asian or Pacific Islander, 4.9 percent are Multicultural, 6.7 percent 
are Hispanic, and 83.4 percent are White. Within our population, 45 
percent receive free/reduced meals. 11 percent are English Language 
Learners and 13.9 percent receive special education services. These 
students are served through our early childhood center, 11 elementary 
schools, two middle schools, three high schools, and our adult/
alternative education center (Bartholomew Consolidated School 
Corporation, 2012). Two of our elementary schools utilize the New Tech 
Model, while a team within one middle school and one of our high 
schools are part of the New Tech network. (The New Tech Network, 2012).
    Similar to other communities, the demographics in Columbus have 
shifted in recent years. Between 2002-3 and 2011-12, BCSC saw 
significant growth in the number of students qualifying for free and 
reduced lunches (31 percent to 45 percent) and the overall number of 
minority students served (9.7 percent to 15.7 percent). The most 
significant growth, however, has been in the number of students who are 
English Language Learners (ELL). In 2002-3, BCSC served 1.7 percent 
students identified as ELL. In 2011-12, that percentage increased to 11 
percent. These individuals represent 50 different languages.
    In 2002-3, 16.4 percent of BCSC students were eligible for special 
education services. It continues to be the goal of the administration 
that these students receive an overwhelming majority of their services 
alongside their general education peers. Currently, 13.9 percent of 
BCSC students are eligible for special education services with 
approximately 90 percent of these students included within the general 
education setting for at least 80 percent of their instructional day. 
The high percentage of students with disabilities served in general 
education is reflective of BCSC's belief that full access to the 
curriculum should drive all instruction.
    universal design for learning and accessible technology: bcsc's 
                               philosophy
    BCSC's expectation that all learners will achieve to their highest 
levels drove the need to identify an instructional framework. Thus, in 
2004 the BCSC leadership identified Universal Design for Learning (UDL) 
as the framework to support the inclusive practices for students with 
disabilities and enhance the access of curriculum for all students (see 
Appendix A). One of the ways BCSC makes curriculum accessible to all 
students is through the use of accessible technology.
    UDL is a curriculum designing tool that helps teachers design 
lessons that will be accessible to all students. There are three 
overarching principles (engagement, representation, and action and 
expression). Each is broken down into nine guidelines (three under each 
principle). The guidelines help teachers select teaching strategies, 
methods and accessible technologies, which will, when combined, create 
an accessible learning environment. Brain research (Rose & Dalton, 
2006) tells us that learners' abilities are multi-faceted and no one 
method of presentation, instruction, or evaluation can address every 
learner in a meaningful way (Hitchcock, Meyer, Rose & Jackson, 2002). 
Fortunately, UDL provides a framework within which schools can 
investigate or build any curriculum. The curriculum is not altered; 
rather, it is enhanced through the teacher's application of the UDL 
principles and use of accessible technologies.
    For example, a second grade teacher creates an introductory lesson 
about electricity. First and foremost, a goal linked to the State 
standards is determined: Students will demonstrate their current 
knowledge of the flow of electricity. Next, the teacher uses the nine 
guidelines to determine what strategies and technology to use. The 
following example focuses on the principle of engagement and the first 
guideline of ``options for recruiting interest.''
    When the teacher considers options for recruiting interest, he 
designs the lesson so the topic is relevant and authentic to his 
students. He might use pictures, multimedia (e.g., showing a brief 
child-centered video about electricity or an app demonstrating how 
electricity is made), a group discussion to list what items utilize 
electricity, and/or allow students to safely hold or touch items that 
utilize electricity. The teacher knows, because of the defined 
guideline, that these activities must be personalized and 
contextualized to his students' lives while being relevant for 
different racial, ethnic, cultural, and gender groups. By addressing 
each of the nine guidelines, the teacher can be confident that he is 
creating a learning environment and using technologies, which are 
accessible to his learners.
    UDL aligns with BCSC's beliefs in providing a structure for clear 
instructional practices while addressing a specific instructional goal 
(Center for Teaching and Learning, 2005). Because instructional goals 
might involve the use of technology, it is BCSC's expectation that 
teachers choose whether or not to utilize accessible technology to 
align with the standards-based goals they have determined for their 
lessons. Specifically, accessible technology must be chosen based on 
the framework of UDL. The use of technology must engage students; 
explain an idea, action or outcome; or provide an avenue for students 
to demonstrate knowledge (Doyle & Giangreco, 2009). If we do not use 
technology that makes curriculum accessible, within the framework of 
UDL, we will not be addressing the needs of all students and nothing in 
our classrooms will change.
                              our journey
    BCSC's journey to the adoption of UDL began in 2002 when the 
director of special education worked with a consultant from The Center 
on Education and Lifelong Learning at Indiana University to answer the 
following question: How are decisions made concerning special education 
services? This inquiry led to conversations with general and special 
educators throughout BCSC and culminated in the creation of an 
instructional service delivery plan. This plan focused on how to best 
help students eligible for special education have access to the general 
education curriculum and become proficient in BCSC's learning 
objectives. All teachers involved in the education of children with 
special needs were trained on this new plan. This shift prompted BCSC 
to apply for participation in a statewide project titled PATINS. The 
goal of this project was to ``impact both the organizational capacities 
of local public schools and the professional capabilities of school 
staff in the delivery of assistive technology services and the 
implementation of Universal Design for Learning principles'' (PATINS 
Project, 2009). BCSC's participation, though encouraged by BCSC's 
Director of Special Education, was supported by the directors of 
elementary and secondary education. This was a deliberate choice by 
BCSC's leaders to ensure UDL would not be viewed as a special education 
initiative but as a system-wide initiative. An instructional rubric was 
designed to help teachers recognize their own level of implementation 
and to help building leaders identify strong leaders in the 
implementation (see Appendix B).
    In addition to UDL, BCSC adopted two other structures to ensure 
that: (a) teachers are supported in their ability to teach in diverse 
classrooms and, (b) all students are provided with behavioral supports 
so they can be successful within the learning environment. Examples of 
how these strategies link to UDL are given below under ``Our Impact on 
Learning.'' Instructional videos linking UDL to these strategies can be 
found at http://www.bcsc.k12.in.us/page/346.
    The Instructional Consultation Teams (IC-Teams) process was 
identified as a method teachers could use to problem-solve issues 
related to curriculum and instruction (Gravois & Rosenfield, 2006). As 
implemented in BCSC, the IC-Team model is grounded in the principles of 
UDL to assist teachers in creating an instructional match for the 
student. This process dictates that when there is no match, no one is 
at fault; rather, a series of data collection steps needs to take place 
so the teacher, child, classroom environment and accessible technology 
needs can come together to create an appropriate match. A seventh grade 
student recently was experiencing significant behavior problems. This 
student with autism, who also is identified as high ability, continued 
to struggle in many of his high ability core courses. Following an 
examination of the data and possible function of his behavior, it was 
determined the current instructional strategies were not a match for 
this student. After utilizing a computer-based program, this student no 
longer exhibits the previous behaviors, and in fact, is successfully 
completing high school courses as a seventh grade student. Without the 
availability of this accessible technology, this student would have 
most likely ended up as a dropout.
    To ensure BCSC was supporting the behavioral needs of all students, 
we also adopted Positive Behavior Instruction and Supports (PBIS) in 
2004-5 as a core process. PBIS, as recognized in IDEA (2004), is a 
systematic way to develop and implement school-wide behavioral 
expectations and ``achieve socially important behavior change'' (Sugai 
ET al., 2000, p. 133). These expectations are taught to students using 
age appropriate and culturally appropriate lessons. When students 
understand how they are expected to behave within a specific 
environment (e.g., the classroom, the hallways, the lunchroom, or the 
stair wells), students are more likely to demonstrate those behaviors 
(Sugai, Horner, & Gresham, 2002). PBIS teams were established at each 
school and continue to meet monthly to investigate behavioral and 
academic data to pinpoint trends and issues. Using this information, 
the teams design and implement plans to support positive changes in 
student and staff behavior.
    In 2008, BCSC received a grant to support a project director to 
lead the implementation of UDL. During the grant year, the principals 
and staff in each building worked with the project director to decide 
what workshops or presentations would best suit the needs of their 
teachers. While some schools were experienced in applying the 
principles of UDL, other schools were relatively new to applying the 
principles school-wide. The principals reported that this was an 
effective way for their staff to become more knowledgeable and 
comfortable with the application of UDL in their classrooms. The role 
of project director has become UDL Coordinator as BCSC demonstrates its 
specific focus on UDL and the necessity to continue training and 
support for its teachers.
                           technology at bcsc
    To support our implementation of UDL, BCSC's technology 
infrastructure includes the ratio of one computer for every 2.7 
students. Our Technology Division supports 750 classrooms of which 360 
have wireless access. In addition, we have a variety of hardware spread 
across the corporation including but not limited to: interactive white 
boards, document cameras, flip cameras, digital microscopes, clickers 
(i.e., hand-held voting devices) and iPads.
    Currently, students at the secondary level are participating in a 1 
to 1 pilot that encourages students to bring their own device or 
utilize BCSC-owned devices. The majority of student-owned devices 
include smart phones, tablets, and iTouches with the only requirement 
being that the device can reach the Internet and that students log on 
to the Internet through the district servers. Of those participating 
students, 748 bring their own devices while 380 BCSC-owned devices 
support the other students involved in the pilot. The creation of this 
pilot was fully guided by UDL. Appendix C includes the rubrics used by 
the 1 to 1 design teams. Appendix D includes the application teachers 
completed to participate in this pilot.
    While BCSC is dedicated to accessible technology, we are committed 
to the use of UDL to help define how technology should be used. For 
example, our corporation is beginning to use an interactive information 
system called My Big Campus. Designed to look and operate like 
Facebook, this filtered, safe, on-line environment allows teachers to 
share information with other professionals and post assignments, exams 
(that open and close for specific students at specific times), and post 
items for discussion. One social studies teacher held a discussion 
during the South Carolina Republican debate where students responded to 
questions and posted their own thoughts and questions about the debate. 
How does this fit with UDL? The teacher was aware that some students 
were not participating during in-class discussions and were not earning 
participation points. This option provided those students a way to earn 
those points, demonstrating the principle of expression. Next, the 
teacher knew that some students were unfamiliar with the primary 
process. Students who were previously uncomfortable asking questions 
about that process felt safe using this monitored, on-line environment. 
In addition, the teacher linked them to other on-line resources about 
the primary process. This demonstrated the principle of representation. 
So, instead of using technology to show a video during and after which 
students complete a worksheet, this teacher utilized technology to 
engage the students, represent supporting information, and gain 
information on his students' understanding of the primary process.
                         our impact on learning
    BCSC takes great care to ensure UDL is not viewed as ``one more 
thing'' or a ``special education thing.'' UDL is our guiding 
instructional framework; thus, we work diligently to clearly connect 
various BCSC instructional, curricula and assessment efforts 
initiatives to UDL. If we cannot make those connections, we question 
the value of the initiative. Examples of how UDL and its use of 
accessible technology have had an impact on student outcomes include:

    <bullet> Schools implement UDL to ensure students experience a 
variety of learning opportunities when learning Positive Behavior 
Instructional Support strategies. A video from one of our middle 
schools shows how the students learned appropriate dress for school 
(Northside Middle School, 2012).
    <bullet> Instructional Consultation Team facilitators are provided 
instruction on how to help teachers recognize and embed UDL strategies 
in their lessons (BCSC, 2011).
    <bullet> English, math, social studies and science textbook and 
resource adoption committees were guided by the principles, guidelines 
and checkpoints of UDL (see Appendix E for the science example). In our 
recent social studies adoption, BCSC chose to adopt a portfolio of 
digital resources versus a hardback textbook (Lord Nelson, Arthur, 
Jensen, & Van Horn, 2011).
    <bullet> Senior projects, a requirement for graduation, are 
designed to provide students the opportunity to demonstrate their 
accumulation of knowledge and experiences through a variety of options 
(Columbus East High School, 2012). Students' use of technology have 
included self-made videos, digitized musical productions, presentations 
utilizing on-line resources, and Power Point presentations. This level 
of choice (principle of engagement) and breadth of presentation style 
(principle of expression) helps ensure an exceptional rate of 95 
percent completion.
    <bullet> Between 2009 and 2011, the number of students with special 
needs in grades 3-8 who have passed the math portion of ISTEP increased 
12.8 percent.
    <bullet> Between 2009 and 2011, the number of students with special 
needs in grades 3-8 who passed the English portion of ISTEP has 
increased 8.7 percent.
    <bullet> Sixty-eight percent of BCSC's English Language Learner 
(ELL) students in Grades K-12 increased 12 or more scale points from 
their most recent prior test to spring 2011 on the LAS Links (an 
Indiana statewide assessment). Across the State, only 64 percent of 
this same group improved.
    <bullet> BCSC met the Annual Yearly Performance (AYP) in both 
English and math for students with disabilities.
    <bullet> BCSC met the Annual Yearly Performance (AYP) in both 
English and math for students with ELL.
    <bullet> BCSC is 1 of 367 public school districts in the Nation 
honored by the College Board and was placed on the 2d Annual AP Honor 
Roll. Since 2009, BCSC has increased the number of students 
participating in AP from 256 to 467, while improving the percentage of 
students earning AP Exam scores of three or higher from 48 percent in 
2009 to 52 percent in 2011. The framework of UDL and the effective use 
of accessible technology have created a learning environment where more 
and more students are academically successful. This success is 
translating into higher rates of participation in AP courses and on the 
AP exams.
    <bullet> BCSC 2011 ACT scores show that the percent of students 
demonstrating college readiness was higher than the national percentage 
of students demonstrating college readiness. This was true in all four 
sub scores of the ACT with 40 percent of BCSC seniors participating in 
the ACT.

    Finally, BCSC's focus on UDL to benefit all students has been 
recognized by the Center for Applied Special Technology (Center for 
Applied Special Technology, 2009), The Council for Exceptional Children 
(Council for Exceptional Children, 2010), and published articles in 
juried educational journals (Lord Nelson, Arthur, Van Horn & Jensen, 
2009; Lord Nelson, Van Horn, Jensen, Vogel & Garrity, 2012).
                               next steps
    Perhaps most importantly, UDL will be a key driver in the new 
teacher evaluation process that is currently under development in BCSC. 
In the new district classroom success rubric, UDL will be the framework 
for instruction. The Indiana Department of Education offered school 
districts the option of utilizing an existing teacher evaluation model 
or creating a model based on researched practices. A team of BCSC 
teachers, principals, and administrators are working together to create 
an effective framework for professional practice and evaluation which 
is grounded in the principles of UDL.
                               conclusion
    The application of UDL and the use of accessible technology to 
implement aspects of UDL take initial focus and time and will always 
involve creativity, but the rewards for the student and teacher are 
tremendous. Three aspects to bring this effort to scale in BCSC were 
essential:

    1. The collaboration of the director of special education, the 
director of elementary education and the director of secondary 
education who have conveyed the importance of UDL as the framework of 
instruction throughout the district;
    2. The hiring of a dynamic instructional expert with knowledge of 
accessible technology to coordinate the implementation of UDL 
throughout the district.
    3. The identification of practicing experts, also knowledgeable 
about accessible technology, who have been willing to share their 
classroom practices of UDL with other teachers throughout the district.

    BCSC's adoption of UDL has taken time, commitment, and persistence 
in an age of constant educational change. We believe that UDL and the 
use of accessible technology has placed us on a pathway to improved 
services to all of our students. With its well-defined and flexible 
framework, UDL has provided the necessary structure within which BCSC's 
teachers can plan and feel confident in their profession.
                                 ______
                                 
          Bartholomew Consolidated School Corporation Overview
    Good afternoon Chairman Harkin, Ranking Member Enzi and members of 
the committee. Thank you for inviting me to speak about Bartholomew 
Consolidated School Corporation and how we work to achieve the best 
possible outcomes for every student. I would like to share how we use 
Universal Design for Learning as our framework for curriculum and 
instruction and how that helps our teachers effectively use accessible 
technology.
    BCSC, as we refer to Bartholomew Consolidated School Corporation, 
is a district of 12,500 students. We are a rural school district about 
50 miles south of Indianapolis and 90 miles west of Cincinnati. We have 
18 schools serving our students. Of those students, 45 percent are 
eligible for free or reduced lunch, 16 percent are students of color, 
14 percent receive special education services, and 11 percent are 
English language learners.
    We have a diverse student population and work to address their 
learning needs. Therefore, in 2008 we made a purposeful decision to use 
Universal Design for Learning (UDL) across all our programs as the 
framework to design all instruction and curriculum in our district. We 
find this framework has helped us uphold our expectation that all 
learners will achieve to their highest level. Using UDL has advanced 
the educational outcomes that include:

    <bullet> From 2009 and 2011,

        
          we had a 10.5 percent increase in the number of students with 
        disabilities passing Indiana's statewide assessment;
        
          sixty-eight percent of our English Language Learners 
        increased their scale scores on the statewide assessment which 
        was a greater increase than the State average; And, we had a 7 
        percent increase of K-8 students receiving pass+, which is the 
        State's highest recognition on the State testing in English 
        Language Arts and math.

    <bullet> In 2011,

        <bullet>  we met Annual Yearly Progress targets for both 
        English Language Arts and math with our special education 
        population and English Language Learner population;
        <bullet>  and BCSC was honored by the College Board and placed 
        on the 2d Annual Advanced Placement Honor Roll for increasing 
        the number of students participating in AP and improving the 
        percentage of underserved students earning AP Exam scores of 
        three or higher; and

    At this point, let me take a minute and tell you what universal 
design for learning means to our schools. Just as the American with 
Disabilities Act requires buildings be accessible to all who might 
enter, UDL serves as a framework to make learning environments 
accessible to all students. There are three overarching principles: 
engagement, representation, and action/expression. When used, these 
create an accessible learning environment.
    Because our population is diverse, BCSC recognizes the need to 
create flexible learning environments which are standards-based and 
utilize accessible technology when appropriate to the lesson. We are 
fortunate to have access to technologies such as computers, Internet 
access, smart phones, tablets, and other devices; however, those 
technologies only come into use when they have been identified as 
connected to the instruction. Teachers utilize the framework of UDL as 
a decisionmaking tool to help them determine what strategies, 
accessible technologies, and methods they will use to help students 
achieve the goals of the lesson.
    For example, a seventh grade student was recently experiencing 
significant behavior problems. This student with autism, who also is 
identified as high ability, continued to struggle in many of his high 
ability core courses. After investigation, it was determined the 
current instructional strategies were not a match for this student. 
Because we provided the student access to a computer-based program, 
this student no longer exhibits the previous behaviors. In fact, this 
student is successfully completing high school courses as a seventh 
grader. The availability of accessible technology has allowed this 
student to remain in school.
    In another example, a social studies teacher held an on-line 
discussion during the recent South Carolina Republican debate. Our 
corporation uses an interactive information system called My Big Campus 
which looks like Facebook, but is a filtered, safe, on-line 
environment. In this class, students responded to questions and posted 
their own thoughts and questions about the debate. How does this fit 
with UDL and accessible technology? The teacher was aware that some 
students were not participating during in-class discussions and were 
not earning participation points. This option provided those students a 
way to earn those points, demonstrating the principle of expression. 
Next, the teacher knew that some students were unfamiliar with the 
primary process. Students who were previously uncomfortable asking 
questions about that process felt safe using this monitored, on-line 
environment. In addition, the teacher linked them to other on-line 
resources about the primary process. This teacher utilized technology 
to engage the students, represent supporting information, and gain 
information on his students' understanding of the primary process.
    BCSC's adoption of UDL and the use of accessible technologies has 
taken time, commitment, and persistence in an age of constant 
educational change. We believe that UDL and the use of accessible 
technology has placed us on a pathway to improved services to all of 
our students. With its well defined and flexible framework, UDL has 
provided the necessary structure within which BCSC's teachers can plan 
and feel confident in their profession.
    Thank you for inviting me to share information about how BCSC uses 
UDL to choose how to best use our accessible technology and my staff 
and I are at your service if there is any way we may be of help.
                               References
Bartholomew Consolidated School Corporation. (2012). Select a school. 
    Available from the Bartholomew Consolidated School Corporation Web 
    site: http://www.
    bcsc.k12.in.us.
Bartholomew Consolidated School Corporation (2012). UDL videos from 
    BCSC: UDL and instructional consultation teams (ICT) at BCSC. 
    Retrieved from the Bartholomew Consolidated School Corporation Web 
    site: http://www.bcsc.k12.in.us/page/346.
Bouck, E.C., Courtad, C.A., Heutsche, A., Okolo, C.M., & Englert, C.S. 
    (2009). The virtual history museum: A universally designed approach 
    to social studies instruction. Teaching Exceptional Children, 42, 2 
    PP. 14-20.
Center for Applied Special Technology. (Producer). (2010). UDL 
    unplugged: The role of technology in UDL. Available from the Center 
    for Applied Special Technology Web site: http://www.udlcenter.org/
    resource_library/videos/udlcenter/meet
    authors#video1.
Center for Applied Special Technology. (Producer). (2009). A district 
    implements UDL. Available from the Center for Applied Special 
    Technology Web site: http://udlspotlight.wordpress.com/category/
    bcsc-district-udl-initiative/.
Center on Teaching and Learning (2005). A world class community 
    learning system. Retrieved from Bartholomew Consolidated School 
    Corporation Web site: http://c2.bcsc.schoolwires.net/cms/lib/
    IN01000842/Centricity/Domain/1/A%20World%
    20Class%20Community%20Learning%20System.pdf.
Columbus East High School. (2012). What is senior project? Retrieved 
    from Bartholomew Consolidated School Corporation Web site: http://
    www.bcsc.k12.in.us/site/Default.aspx?PageID=1240.
Council for Exceptional Children. (April, 2011). AARA in action: 
    Universal Design for Learning expanded in Indiana school district 
    with stimulus funding. Federal Outlook for Exceptional Children. 
    Retrieved from the Council for Exceptional Children Web site: 
    http://issuu.com/ellipse1/docs/230249_cec_foec_fy2012?
    mode=embed&layout=http%3A%2F%2Fskin.issuu.com%2Fv%2Flight%2Flayout
    .xml&showFlipBtn=true.
Doyle, M.B. & Giangreco, M.F. (2009) Making presentation software 
    accessible to high school students with intellectual disabilities. 
    Teaching Exceptional Children, 41, 3, PP. 24-31.
Gravois, T.A., and Rosenfield, S.A. (2006). Impact of instructional 
    consultation teams on the disproportionate referral and placement 
    of minority students in special education. Remedial and Special 
    Education, 27, 1 January/February (PP. 42-52).
Hitchcock, C., Meyer, A., Rose, D., & Jackson, R. (2002). Providing new 
    access to the general curriculum: Universal design for learning. 
    TEACHING Exceptional Children, 5(2), 8-17.
Individuals with Disabilities Education Act of 2004, 20 U.S.C. 1414 
    (2004).
Nelson, L.L., Arthur, E., Jensen, W., & Van Horn, G. (April, 2011). 
    Trading Textbooks for Technology: New Opportunities for Learning. 
    Kappan, 92 (7), 46-50.
Northside Middle School. (2012). What does PBIS look like at Northside? 
    Retrieved from the Bartholomew Consolidated School Corporation Web 
    site: http://www.bcsc.k12.in.us//site/Default.aspx?PageID=9732.
Lord Nelson, L., Van Horn, G., Jensen, W., Vogel, J., & Garrity, K. 
    (2012). Building School Capacity around the Implementation of 
    Universal Design for Learning: Using a Rubric to Guide and 
    Investigate Practice. Manuscript submitted for publication.
Meo, G. (2008). Curriculum planning for all learners: Applying 
    universal design for learning (UDL) to a high school reading 
    comprehension program. Preventing School Failure, 52, 2 (PP. 21-
    30).
Indiana Department of Education. (2012). Demographic data. Retrieved 
    from the Compass site of the Indiana Department of Education: 
    http://compass.doe.in.gov/
    Dashboard.aspx?view=CORP&val=0365&desc=Bartholomew+Con+School+Corp.
The New Tech Network. (2010). Our model: What fuels our success. 
    Retrieved from New Tech Network Web site: http://
    www.newtechnetwork.org/newtech_model.
PATINS Project (2009). Promoting achievement through technology and 
    instruction for all students. Retrieved from the PATINS Web site: 
    http://www.patinsproject
    .com/.
Rose, D.H., & Dalton, B. (2006). Engaging the text: Brain research and 
    the universal design of reading strategy supports. In D.H. Rose & 
    A. Meyer (Eds.), A practical reader in universal design for 
    learning (PP. 133-148). Cambridge, MA: Harvard Education Press.
Sugai, G., Horner, R.H., & Gresham, F. (2002). Behaviorally effective 
    school environments. In M.R. Shinn, G. Stoner, & H.M. Walker 
    (Eds.), Interventions for academic and behavior problems: 
    Preventative and remedial approaches (PP. 315-50). Silver Springs, 
    MD: National Association for School Psychologists.
Sugai, G., Horner, R.H., Dunlap, G., Hieneman, M., Lewis, T.J., Nelson, 
    C.M., ET al. (2000). Applying positive behavioral support and 
    functional assessment in schools. Journal of Positive Behavioral 
    Interventions, 2, 131-43. ET al., 2000, p. 133.
                                 ______
                                 
                               Appendix A

                                              A Description of UDL
----------------------------------------------------------------------------------------------------------------
              Principles                    Representation       Action and Expression          Engagement
----------------------------------------------------------------------------------------------------------------
Guidelines...........................  1: Provide options for   4: Provide options for   7: Provide options for
                                        perception.              physical action.         recruiting interest.
Guidelines...........................  2: Provide options for   5: Provide options for   8: Provide options for
                                        language, mathematical   expression and           sustaining effort and
                                        expression, and          communication.           persistence.
                                        symbols.
Guidelines...........................  3: Provide options for   6: Provide options for   9: Provide options for
                                        comprehension.           executive functions.     self-regulation.
----------------------------------------------------------------------------------------------------------------
CAST graphic: http://www.udlcenter.org/sites/udlcenter.org/files/updateguidelines2_0.pdf.

    UDL calls for:

        
          Defining goals that provide appropriate challenges for all 
        students, ensuring that the means is not a part of the goal.
        
          Using methods that are flexible and diverse enough to support 
        and challenge all learners.
        
          Using materials that are flexible and varied and take 
        advantage of the digital media, such as digitized text, 
        multimedia software, video recorders, tape recorders, and the 
        Internet.
        
          Using assessment techniques that are sufficiently flexible to 
        provide ongoing, accurate information to inform instruction and 
        determine student understanding and knowledge (Meo, 2008, p. 
        22).
                               Appendix B

                                                                  UDL Rubric: A Portion
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Not Yet Evident            Emerging             Intermediate             Advanced
--------------------------------------------------------------------------------------------------------------------------------------------------------
Individual Goals...................  Clarity of goals and    No students are clear   Few students are       Some students are      Every student is
                                      evidence of different   on the overall goal     clear on the overall   clear on the overall   clear on the overall
                                      objectives for          and all students are    goal for the lesson    goal for the lesson    goal for the lesson
                                      various learners.       expected to have the    and their learning     and their learning     and their learning
                                                              same objectives.        objectives.            objectives.            objectives.
--------------------------------------------------------------------------------------------------------------------------------------------------------



--------------------------------------------------------------------------------------------------------------------------------------------------------
           UDL Principle              UDL Teaching  Method       Not Yet Evident            Emerging             Intermediate             Advanced
--------------------------------------------------------------------------------------------------------------------------------------------------------
Multiple means of representation...  Provide multiple        Students are only       In preparation for a   In preparation for a   In preparation for a
                                      examples.               given one example of    lesson, the teacher    lesson, the teacher    lesson, the teacher
                                                              skills needed to        has few examples       creates some           and students create
                                                              complete the            that identify skills   examples to find and   multiple examples of
                                                              assignment.             and concepts needed    identify skills and    finding and
                                                                                      to complete the        concepts needed to     identifying skills
                                                                                      assignment.            complete the           and concepts needed
                                                                                                             assignment.            to complete the
                                                                                                                                    assignment.
Multiple means of representation...  Highlight critical      Teacher provides        Teacher provides       The teacher provides   The teacher provides
                                      features.               critical information    critical information   critical information   critical information
                                                              for the lesson          for the lesson         for the lesson         for the lesson
                                                              through only one        through only two       through oral and       through oral and
                                                              modality.               modalities.            visual presentation    visual presentation
                                                                                                             and highlights         and highlights
                                                                                                             critical features in   critical features in
                                                                                                             written and visual     written and visual
                                                                                                             form, then monitors    form, then monitors
                                                                                                             students to check      students to check
                                                                                                             their focus on         their focus on
                                                                                                             important features     important features
                                                                                                             of the lesson.         of the lesson.
                                                                                                                                    Additionally, by
                                                                                                                                    having texts
                                                                                                                                    available in digital
                                                                                                                                    format, the teacher
                                                                                                                                    or students could
                                                                                                                                    literally highlight
                                                                                                                                    critical features of
                                                                                                                                    the text while
                                                                                                                                    preparing the lesson
                                                                                                                                    assignments.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               Appendix C
                            1:1 Pilot Rubric

   SECTION I--One-to-One Observations: Classroom use of the technology  (used by teachers and administrators)
----------------------------------------------------------------------------------------------------------------
                                      Not evident          Emerging           Proficient           Advanced
----------------------------------------------------------------------------------------------------------------
1. UDL in action: seeing/hearing  There is no         One or two of the   The principles of   The principles of
 or hearing about examples of      evidence of UDL     principles are      UDL can be          UDL drive the
 UDL.                              being applied.      touched upon        identified within   presentation of
                                                       during the lesson.  the lesson.         the lesson.
2. Cramming: bringing computers   Computer use in     Computer use in     Computer use in     Computer use in
 into the classrooms but sustain   class is limited    class includes      class is a          the classroom is
 current practices and             to note taking      notetaking,         companion to        clearly connected
 pedagogies.                       and/or doing        reading articles    discussion groups.  to 21st century
                                   worksheets.         and/or surfing                          skills (e.g.,
                                                       the net.                                critical
                                                                                               thinking,
                                                                                               analysis and
                                                                                               communication).
3. Access to on-line resources    Teachers are        Teachers can        Teachers can        Teachers can
 and system safety/integrity:      denied access to    request access to   request access to   access any on-
 access to on-line resources.      on-line resources   on-line resources   on-line resources   line resource.
                                   due to the school   but can still be    and receive
                                   system's firewall.  denied.             permission.
4. Teaching non-consumers*:       No strategies are   Few strategies are  Occasional          There are clear
 engaging students who             used to engage      used to engage      strategies are      and evident
 historically disconnected         the nonconsumers.   the nonconsumers.   used to engage      strategies to
 themselves from learning.                                                 the nonconsumers.   engage the non-
                                                                                               consumers.
5. Going around and underneath:   Pure instructional  Majority of         Evidence of         Application of
 allowing for and encouraging      focus on a          instructional       innovation and      innovation and
 innovation creates change.        standardized        focus on            creativity while    creativity while
                                   measurement.        standardized        addressing          addressing
                                                       measurement.        standards.          standards.
6. Nuts and Bolts: learning when  When technology     When technology     When technology     When technology
 technology fails.                 fails the lesson    fails, part of      fails, the          fails, the entire
                                   is cancelled.       the lesson is       majority of the     lesson is taught
                                                       taught.             lesson is taught.   in a different
                                                                                               way.
----------------------------------------------------------------------------------------------------------------
* Non-consumers: For this observation sheet, non-consumers are students who are present in the classroom but who
  are not engaged.

                               Appendix D
                         1:1 Pilot Application
                          personal information
    1. Name
    2. School
                          instructional focus
    Project abstract:

    Please include the # of students, type(s) of device(s), # of 
devices, web-based applications, additional hardware, and/or other 
information that would support student learning.
    
     What are the essential questions you will address through this 
pilot? (FAQ)
    
      What are your professional driving questions (what will drive how 
you implement the devices)? (FAQ)
                             learner focus
    Using the principles and guidelines of UDL to frame your 
description (see www.cast.org):

    
     Demonstrate how the use of the devices will enhance student 
learning.
    
      Demonstrate how the students will engage with and express higher 
order thinking.
    
     Demonstrate how the students will engage and express the habits of 
mind.
    
     Demonstrate the acquisition of 21st century skills by the 
students.
    
     How will you foster student ownership of learning?
                               deployment
    4. How will you use Web applications to support the learning you 
expect to take place?
    5. How will you foster a culture of responsibility? (FAQ)
    6. Are you familiar with the devices you are proposing to use?
    7. Does your device usage require the use of a separate server?
    8. Are there any policy, rules, or regulations that will need to be 
addressed if your pilot is chosen? (FAQ) What will they be?
    9. How will you measure your pilot? (consider student outcomes, 
rate of device use, how teacher friendly is the use of the devices, is 
it easy for your pilot to replicate within your discipline and across 
disciplines?)
                        professional development
    1. Pilot participants are expected to share lessons created using 
the technology to be shared with other BCSC teachers. Please check if 
you acknowledge this.
    2. Pilot participants are expected to be interviewed and possibly 
recorded (tape or video) for in-house trainings of other staff members. 
Please check if you acknowledge this.
    3. Pilot participants are expected to participate in a professional 
learning community. Please check if you acknowledge this.
                               Appendix E

         2012 BCSC Secondary Science Adoption Rubric--Technology
------------------------------------------------------------------------
              Weak                     Emerging            Advanced
------------------------------------------------------------------------
                                  In addition to the  In addition to the
                                   ``Weak''            ``Emerging''
                                   criteria:.          criteria:
 Technology options do not align   Technology          Technology
 with performance standards and    options do align    resource is fast,
 applications.                     with current        stable, reliable,
                                   performance         and provides
                                   standards and       individual and
                                   applications.       shared storage
                                                       space for staff
                                                       and students.
 School network is not able to     IT support is       Company support
 support computer and technology   sufficient to       provides robust
 options.                          support computer    support and is
                                   and network         very responsive
                                   infrastructure.     to issues as they
                                                       arise.
 Staff and/or students cannot      Staff and           Resources would
 use collaboration through         students can        be heavily used
 technology as part of regular     regularly           by staff and
 classroom practice.               collaborate         students as a
                                   through             communication and
                                   technology.         collaboration
                                                       tool (within and
                                                       between schools).
                                                       And can be widely
                                                       used to support
                                                       the teaching
                                                       methodology and
                                                       inter-school
                                                       sharing.
 Technology is not aligned with    Technology is       Technology is
 UDL.                              somewhat aligned    completely
                                   with UDL.           aligned with UDL.
 Technology does not allow for     Technology allows   Technology
 agility within the curriculum     for some agility    supports an agile
 to take advantage of change &     within the          curriculum to
 updates in research/discovery.    curriculum to       take advantage of
                                   take advantage of   current research
                                   changes or          and discovery.
                                   updates in
                                   research and
                                   discovery.
 Training is not provided for      Initial training    Extended training
 the technology.                   is provided for     is provided for
                                   the use of          the use of
                                   technology.         technology.
 Materials cannot be accessed at   Material can be     Resources allow
 home or by parents.               accessed at home    other digital and
                                   and by parents.     online tools to
                                                       support student
                                                       engagement and
                                                       instruction.
 Technology resources have         Technology          Technology
 unreasonable cost to both the     resources are       resources have a
 school and student.               somewhat            reasonable cost
                                   reasonable cost     to both the
                                   to both the         school and the
                                   school and the      student.
                                   student.
------------------------------------------------------------------------


    The Chairman. Thank you very much, Dr. Quick.
    Mr. Turner, please proceed.

STATEMENT OF MARK TURNER, M.A., DIRECTOR, CENTER FOR ACCESSIBLE 
   MEDIA, ACCESSIBLE TECHNOLOGY INITIATIVE, CALIFORNIA STATE 
                   UNIVERSITY, LONG BEACH, CA

    Mr. Turner. Chairman Harkin, thank you for the opportunity 
to discuss issues of accessibility in the post-secondary 
environment. My testimony will focus on some of the issues 
faced by post-secondary institutions as we work to ensure that 
technology used to deliver educational programs and services 
are usable by all students, staff, faculty, and members of the 
public, irrespective of disability status.
    As the largest and most diverse 4-year public university 
system in the country, the CSU serves 427,000 students across 
23 campuses. The CSU has a long-standing commitment to ensuring 
that our programs and services are usable by everyone, and we 
currently serve more than 10,000 students with a variety of 
disabilities.
    Over the past 20 years, technology usage in post-secondary 
has grown exponentially. Technology is now used to deliver 
online, hybrid, and face-to-face courses, using learning 
management systems, offer interactive digital textbooks, rich 
multimedia, and many other technologies.
    While these technologies have the potential to enhance 
teaching and learning, they must be usable by everyone. 
Unfortunately, we have found that many technology vendors do 
not adequately support accessibility at this time. Many 
products manifest serious accessibility barriers for 
individuals with disabilities. Accessibility documentation is 
often unavailable or insufficient. Vendors are frequently 
unfamiliar with accessibility standards, and some vendors 
simply do not prioritize accessibility, citing financial, 
technical, or logistical hurdles.
    Postsecondary institutions are experiencing significant 
challenges with these inaccessible technology products. For 
example, when instructional videos do not include closed 
captions, schools must bear the costs of providing captioning. 
If the vendor had incorporated closed captions at time of 
design, it would have likely cost them one time less than $100. 
However, if 1,000 institutions across the country must all 
individually accommodate that video, the cost to the Nation 
could exceed $100,000. This is not sustainable.
    Under the leadership of Chancellor Reed, the CSU 
established the Accessible Technology Initiative, or ATI, as a 
comprehensive, systemwide effort to identify and remove 
existing accessibility barriers, and to avoid introducing new 
barriers when adopting technology products.
    The ATI is founded on a strong technology accessibility 
policy, which requires an annual assessment that emphasizes 
continuous quality improvement. This progressive policy is 
vital to driving institutional change. The policy 
implementation involves administrators, staff, and faculty from 
the Chancellor's office and all 23 of our campuses.
    Many ATI projects deliver shared services designed to 
reduce costs and leverage expertise across our system. So, for 
example, by collectively licensing a Web accessibility 
evaluation tool and deploying testing criteria and methods 
developed by CSU Web accessibility experts, we have saved 
$300,000 and supported a consistent, high quality 
implementation across CSU.
    ATI projects also leverage our size to promote vendor 
improvements to project accessibility. For example, during a 
systemwide request for proposal for learning management 
systems, we established accessibility requirements, validated 
vendor accessibility claims, and selected only products that 
met our accessibility requirements.
    When one of the most widely deployed learning management 
systems was not selected because they did not meet our 
requirements, the vendor subsequently undertook a major 
accessibility remediation process that now benefits all 
students and post-secondary institutions across the country. 
This culminated in an award by the National Federation of the 
Blind for the now robust non-visual support for individuals 
with disabilities.
    The ATI also provides high quality services to work around 
existing accessibility gaps. For example, the CSU Center for 
Accessibility Media allows CSU and University of California 
campuses to efficiently share specialized curriculum materials 
that have been produced for students with a variety of print 
disabilities. This project reduces redundant efforts and costs, 
and speeds delivery of these materials to students.
    Postsecondary institutions are strongly committed to equal 
access for persons with disabilities, and removing technology 
accessibility barriers. There are, however, several areas for 
which we seek your assistance.
    First, we suggest, echoing earlier testimony, that Federal 
entities strengthen their section 508 procedures by requiring 
that vendors validate their project accessibility 
documentation, that Federal agencies conduct testing for high 
impact implementation, and that share test results with one 
another. These changes we feel would reduce redundant efforts 
and costs, and drive vendor improvement to project 
accessibility support.
    We also asked that the Department of Justice send a dear 
colleague letter to the 100 largest technology vendors 
emphasizing the importance of producing products that are 
accessible to everyone.
    Finally, the CSU supports the recommendations of the 
recently released AIM Commission Report. In particular, we 
support a review of the Chaffee Amendment to the Copyright Act 
that would extend the definition of individuals eligible for 
specialized formats. This would reduce costs by providing 
campuses greater access to these materials for students with 
print disabilities.
    The CSU applauds the committee's devotion to ensuring equal 
access to a quality education for all Americans, and appreciate 
your interest in technology as a promising tool in meeting that 
goal. We welcome the opportunity to be a resource to you as you 
continue to explore ways to ensure access and success in higher 
education.
    Thank you.
    [The prepared statement of Mr. Turner follows:]
                Prepared Statement of Mark Turner, M.A.
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
thank you for the opportunity to discuss issues of technology 
accessibility in the post-secondary environment. I began working in the 
post-secondary disability services environment nearly 2 decades ago and 
have proudly served in a variety of clinical and technical roles in 
both 2-year and 4-year public education institutions. My testimony 
today will focus on the issues faced by post-secondary institutions as 
they work to ensure that technology used to deliver educational 
programs and services are usable by all students, staff, faculty, and 
members of the public--irrespective of disability status.
                    the california state university
Commitment to Excellence
    The CSU is the largest and most diverse 4-year public university 
system in the country, with 23 campuses, approximately 427,000 students 
and 44,000 faculty and staff. The CSU's mission is to provide high-
quality, accessible public education to meet the ever changing needs of 
the people of California. The CSU provides more than one-half of all 
undergraduate degrees granted to Latino, African-American, and Native 
American students in California. Since the system's creation in 1961, 
it has awarded in excess of 2.5 million degrees. We currently award 
approximately 90,000 degrees each year.
Commitment to Equal Opportunity
    The CSU has a strong, longstanding commitment to ensuring that all 
members of the CSU community and the public at large are provided an 
equal opportunity to participate in and receive the benefits of 
university programs and services. This commitment is demonstrated 
through the following actions:

    <bullet> 1977: CSU campuses prepared self-evaluations that 
identified steps needed to ensure students with disabilities had equal 
access to educational opportunities.
    <bullet> 1980: CSU developed a policy statement entitled Policy for 
the Provision of Services to Students with Disabilities which 
formalized the objectives of the disabled students program (increasing 
enrollment of students with disabilities and facilitating their access 
to educational programs), established common definitions of 
disabilities, listed support services to be offered, and served as the 
basis from which campus Disability Services programs were developed. 
The policy statement also clearly codified the CSU commitment to equal 
access:

         ``. . . this policy is intended to ensure that no qualified 
        individual with a disability shall, on the basis of disability, 
        be excluded from participation in the services, programs, or 
        activities of the CSU and its campuses.''

    <bullet> 1980: CSU established the Systemwide Advisory Committee on 
Services to Students with Disabilities. This cross-disciplinary 
committee, comprised of administrators, faculty, staff, and students 
was charged with reviewing, evaluating, and recommending systemwide 
educational and administrative policies that address the needs of 
students with disabilities.
    <bullet> 1990: Pursuant to the Americans with Disabilities Act 
(ADA), CSU campuses appointed ADA coordinators and developed self-
evaluation and transition plans to identify and remediate accessibility 
issues associated with additional areas including employment, 
construction, transportation, and telecommunication.
    <bullet> 1990s-Present: In the ensuing years, the CSU has affirmed 
and strengthened its commitment to accessibility. The policy statement 
has been reviewed and revised several times to reflect changes in the 
composition of students served by Disability Services offices, newly 
identified accessibility barriers, changes to available support 
services, and changes to the legislative or regulatory environment. In 
addition, the recently renamed Services for Students with Disabilities 
Advisory Committee remains an active and vital component of CSU's 
accessibility strategy.
The CSU Disability Community
    The CSU community of students, staff, and faculty reflects the rich 
diversity of California's population including persons with 
disabilities. During the Fall 2010 term, 10,775 students were 
registered to receive services from a campus Disability Services 
office.\1\ In other words, the number of students with disabilities 
served by the CSU is equivalent to a mid-sized campus by itself. These 
students manifest disabilities across a variety of domains:
---------------------------------------------------------------------------
    \1\ http://www.calstate.edu/sas/documents/Fall2010Profile.xls.

    <bullet> Visual
    <bullet> Hearing
    <bullet> Communication
    <bullet> Mobility
    <bullet> Psychological/Psychiatric
    <bullet> Learning Disabilities
    <bullet> Attention Deficit Hyperactivity Disorder
    <bullet> Acquired Brain Injury
    <bullet> Autism Spectrum
    <bullet> Other Functional Limitations
    <bullet> Temporary

    The accessibility issues encountered by students with disabilities 
in a post-secondary environment are the result of a combination of 
factors including (1) the student's specific functional impairments, 
(2) the specific instructional and administrative programs/services 
with which they interact, and (3) the level and nature of accessibility 
support provided by those programs/services. For this reason, the 
campus Disability Services program meets with each CSU student to 
establish an individualized plan of services that constitute 
``reasonable accommodations.'' These services may include auxiliary 
aids and services which involve adjustments to the manner in which 
students participate in standard academic activities (e.g., 
interpreters, note-takers, alternate formats of print materials, 
adaptive technology) or, as appropriate, academic adjustments which 
involve modifications to the activities themselves (e.g., changes in 
the length of time permitted to complete a course requirement).
    These services are essential for the success of students with 
disabilities. By addressing accessibility gaps in university programs/
services, post-secondary institutions ensure students have the 
opportunity to fully utilize curricular materials, demonstrate a 
mastery of their curriculum, and develop the skills necessary for 
future employment. This is vital at a time when persons with 
disabilities have a far higher unemployment rate (13.5 percent vs. 8.9 
percent) and far lower labor participation rate (20.7 percent vs. 69.6 
percent) than those without disabilities.\2\
---------------------------------------------------------------------------
    \2\ http://www.bls.gov/news.release/empsit.t06.htm.
---------------------------------------------------------------------------
Current Challenges
    Technology is rapidly and fundamentally changing the educational 
landscape.

    Over the past 20 years, technology has become a tightly integrated 
and ubiquitous component in the lives of Americans. The widespread 
adoption of mobile devices (e.g., smartphones, ebook readers, portable 
media players), the enormous growth in web-based services and 
information, and the widespread use of IT hardware (e.g., kiosks, voice 
response phone systems) are fundamentally transforming the ways in 
which individuals connect with one-another, companies, government, and 
educational institutions.
    Post-Secondary institutions have actively participated in this 
trend by incorporating technology products and services into 
instructional and administrative services. Campuses now commonly 
utilize web-based Learning Management Systems to deliver curricular 
content and activities, Lecture Capture systems to record and 
distribute audio/video recordings of class activities, audience 
response systems (aka ``Clickers'') to provide real-time, interactive 
evaluations and feedback, and digital textbooks which provide features 
(e.g., full-text searching, note taking) and supplemental materials 
(audio/video content, individualized assessment exercises) that are 
unavailable with conventional print-based books.

    Educational technology adoptions may improve or exacerbate 
accessibility issues for both students and institutions.

    Whether educational technology products help or hinder 
accessibility efforts depends largely on the extent to which the vendor 
incorporated accessibility into the product design and implementation. 
To exemplify this, consider the use of digital textbooks. Given that 
print-based textbooks are intrinsically inaccessible to those with 
print disabilities (e.g., blindness, partial sight, learning 
disabilities), university disability services programs often 
accommodate these students by producing accessible electronic versions 
of textbooks. While this process often delays the delivery of the book 
to students with disabilities and causes significant institutional 
expense, it does allow users with disabilities to then use assistive 
technology to convey the book content in an accessible format (e.g., 
Braille, large-print). Now let's compare the outcomes of three 
different scenarios:

    <bullet> Vendor A produces both print books and accessible digital 
books. Thus students with disabilities simply purchase the accessible 
digital book--eliminating time-
consuming and expensive accommodations. This vendor's practices help 
both students and universities by eliminating an accessibility barrier.
    <bullet> Vendor B produces both print books and inaccessible 
digital books. Students with disabilities must request accommodations 
and wait for the institution to produce an accessible electronic 
version. This vendor's practices harm both students and universities by 
requiring time-consuming, expensive accommodations.
    <bullet> Vendor C produces only digital books that are 
inaccessible. Students cannot use the digital book and universities 
cannot create an accessible digital book because there is no print 
version that may be converted into an accessible book. This vendor's 
practices harm both students and institutions by denying students with 
disabilities the ability to access the book content.
Accessibility Support for Many Educational Technology Products Remains 
        Inadequate
    Despite the development of accessibility standards for IT products 
\3\ and an array of Federal and State legislation \4\ requiring that 
accessibility status be a major factor in the adoption of IT products, 
accessibility support by most educational technology vendors remains 
weak. Specifically:
---------------------------------------------------------------------------
    \3\ See Section 508 Standards (http://www.section508.gov) and W3C 
Web Content Accessibility Guidelines (http://www.w3.org/TR/WCAG20/).
    \4\ See California's Senate Bill 105 (http://info.sen.ca.gov/pub/
01-02/bill/sen/sb_0101-0150/sb-105_bill_20020929_chaptered.pdf).

    <bullet> Awareness of accessibility requirements or technical 
standards among educational technology vendors is uneven. While larger 
vendors often demonstrate some familiarity with the needs of users with 
disabilities, many small to mid-sized vendors have little or no 
knowledge in this area. Vendors cannot design accessible products if 
they are unfamiliar with technical standards and will not do so if they 
do not understand the accessibility requirements of educational 
institutions.
    <bullet> The quality of accessibility documentation available from 
educational technology vendors, while improving, remains poor--making 
it difficult for universities to accurately gauge the nature of the 
product's accessibility support (e.g., features, gaps, workarounds, 
remediation plans/timelines). Many vendors do not offer any form of 
accessibility documentation including Voluntary Product Accessibility 
Templates (VPATs). Even among vendors that provide accessibility 
documentation, the information provided is often incomplete, out-of-
date, or inaccurate.
    <bullet> The overall level of commitment to technology 
accessibility by educational technology vendors is also uneven. Many 
vendors cite limited financial resources as an impediment to developing 
accessible products. Others suggest that there is limited customer 
demand for accessibility features. Even among vendors who have 
initiated earnest efforts to incorporate (or expand) accessibility 
support for their products, there is a strong tendency toward ``low-
hanging fruit'' or ``baseline compliance'' that often leaves 
significant accessibility barriers.

    Accommodations associated with educational technology are a growing 
strain for post-secondary institutions. Historically, disability 
services programs focused much of their efforts on providing 
accommodations associated with physical barriers while they worked to 
remediate those physical barriers. As educational technology adoptions 
have expanded, more instructional resources are being focused on 
accommodations associated with technology barriers. This is problematic 
for several reasons:

    <bullet> It is not always feasible to provide accommodations for 
inaccessible educational technology products. Some technology products 
deliver information that cannot be conveyed via accommodations in a 
manner that is practicable or which provides equally effective access. 
For example, a post-secondary institution adopts a Web application 
which allows library patrons to request and download electronic 
reserves materials. However, the kiosk is not accessible to screen 
reader users. While onsite users may request the assistance of sighted 
library staff to download the materials, offsite users with 
disabilities are unable to use this service since library staff cannot 
travel offsite.
    <bullet> Accommodations associated with inaccessible technology 
often involve significant complexity and costs--particularly if the 
product is inaccessible to a wide range of users with disabilities. For 
example, software applications that are unusable by those who are 
blind, those with limited vision, and those with limited dexterity will 
necessitate significant planning and coordination by the university 
since each group will likely require different accommodations. In 
addition, a larger number of disability groups impacted by inaccessible 
technology will likely increase the frequency with which accommodations 
are required--driving up the costs associated with providing 
accommodations.
    <bullet> Whereas most post-secondary institutions control their 
physical infrastructure and thus have the authority to remediate 
physical barriers, postsecondary institutions have few remedies to 
compel technology vendors to remediate inaccessible technology 
products. While campuses may elect to discontinue the use of 
inaccessible products, this is infrequently used as the process of 
switching to alternative products can be disruptive or expensive.
             the csu accessible technology initiative (ati)
Inception and Early Activities
    Following passage of California Senate bill 105 in 2002 \5\ and in 
recognition of the challenges regarding technology accessibility 
outlined above, the CSU began developing a comprehensive strategy to 
effectively tackle this issue. In 2004, CSU Chancellor Charles B. Reed 
released Executive Order 926 which strongly affirmed CSU's commitment 
to ensuring equal access for persons with disabilities. EO 926 also 
recognized that accessibility was an institution-wide responsibility 
that must be managed by all campus units--not just disability services 
programs. Finally, EO 926 clearly outlined responsibilities of critical 
units and stakeholder groups and tasked campus executives (Presidents, 
Provosts) with designating a campus leader to coordinate ATI activities 
and build a cross-disciplinary team of administrators, staff, and 
faculty to implement the ATI.
---------------------------------------------------------------------------
    \5\ http://www.leginfo.ca.gov/pub/01-02/bill/sen/sb_0101-0150/
sb_105_bill_20020929_
chaptered.html.
---------------------------------------------------------------------------
                          key accomplishments
Building Robust Capacity
    While the release of a policy statement such as EO 926 was critical 
to catalyzing substantive actions on campuses, it was also clear that 
the CSU would need to build sufficient capacity (staff, funds, 
technical guidance, logistical support) to operate an effective 
systemwide initiative on such a large scale. Several key 
accomplishments that helped to build capacity during this phase 
included:

    <bullet> Hiring dedicated ATI staffing to provide central 
leadership;
    <bullet> Releasing guidance (Coded Memorandum AA-2007-04 \6\) which 
outlined specific goals and success indicators to be addressed across 
three ``Priority Areas'' (Instructional Materials, Web, and Procurement 
and which required campuses to establish implementation plans and 
prepare annual reports to track progress;
---------------------------------------------------------------------------
    \6\ http://www.calstate.edu/AcadAff/codedmemos/AA-2007-04.pdf.
---------------------------------------------------------------------------
    <bullet> Releasing templates to assist campuses with developing 
their implementation plans and annual reports;
    <bullet> Establishing ``Communities of Practices'' comprised of 
campus ATI leaders (``Executive Sponsors Steering Committee'') and 
implementers across each of the three ``priority areas'' to coordinate 
activities, share promising strategies, and identify areas requiring 
additional support;
    <bullet> Launching a central Professional Development Web site \7\ 
to repose training/awareness resources;
---------------------------------------------------------------------------
    \7\ http://teachingcommons.cdl.edu/access/.
---------------------------------------------------------------------------
    <bullet> Launching a central Web repository to aggregate all ATI 
documentation and activities;
    <bullet> Reviewing campus implementation plans and annual reports 
and providing responsive feedback;
    <bullet> Conducting comprehensive section 508 training \8\ for 
campus procurement staff; and
---------------------------------------------------------------------------
    \8\ http://teachingcommons.cdl.edu/access/tech/
508ProcurementTraining.shtml.
---------------------------------------------------------------------------
    <bullet> Establishing a systemwide Web repository to store and 
share product accessibility documentation across the 23 CSU 
campuses.\9\
---------------------------------------------------------------------------
    \9\ https://diva.sfsu.edu/help/vpat.
---------------------------------------------------------------------------
                   influencing product accessibility
    In 2007, the ATI had the opportunity to strongly influence the 
accessibility of several widely deployed educational technology 
products in a manner that benefited students and post-secondary 
institutions across the country.

    <bullet> ATI staff evaluated Apple's iTunes U product, which was 
being offered to post-secondary institutions across the Nation, and 
determined that the product manifested serious accessibility barriers 
that would prevent most persons with disabilities from being able to 
use this product. In coordination with executive leadership at the 
Office of the Chancellor, ATI released a policy statement indicating 
that CSU campuses should not adopt iTunes U in a production (student-
facing) environment. The ATI then began coordinating with Apple to 
review the identified accessibility barriers, establish appropriate 
milestones and a timeline for remediating the product, evaluate updated 
product versions to gauge progress, and share updates with campuses. By 
the end of the agreed upon timeline, Apple had addressed all identified 
``High Priority'' accessibility barriers. As a result, the ATI issued 
guidance allowing CSU campuses to begin using iTunes U.
    <bullet> ATI staff participated in a systemwide Request for 
Proposal from vendors to provide Learning Management Systems (LMS) for 
CSU campuses. Learning Management Systems are used pervasively to 
deliver instruction where both faculty and student interact, faculty 
provide course assignments, and students turn in assignments. 
Accessibility problems with the technology would thus be a ``high-
impact, high-priority'' issue for the CSU. The ATI was involved 
throughout the RFP process to ensure that accessibility was a core 
performance requirement and that this performance was verified. At the 
time of the RFP, Blackboard was already the most widely deployed LMS 
in the CSU system. However, during accessibility testing, the 
Blackboard system manifested significant accessibility barriers for 
students with disabilities and thus failed to meet minimum 
accessibility standards. As a result, Blackboard was not an awardee 
for this RFP--a result which the company later acknowledged served as a 
``wakeup call''. Subsequent to that RFP process, Blackboard undertook 
a major accessibility review and remediation process for their product, 
culminating in an award by the National Federation of the Blind for its 
robust support for persons who are blind.
     reviewing lessons learned, optimizing our leadership strategy
    It became apparent that there was a gap between the ideal vision of 
full accessibility and the capacity of campuses to deliver that vision. 
The ATI therefore conducted an analysis to determine areas where a 
shift in approach would improve or accelerate progress. This resulted 
in a number of important changes.

    <bullet> The most fundamental shift has been to ensure that 
campuses play a larger and more active role in shaping ATI priorities 
and driving systemwide projects. Underlying this shift is the belief 
that the ATI office most constructively serves as a facilitator rather 
than as a policeman/auditor of progress. This shift has been achieved 
by leveraging our existing governance structures:

        <bullet>  The newly formed ATI Leadership Council provides 
        guidance on the selection and prioritization of ATI projects;
        <bullet>  The Executive Sponsors Steering Committee provides 
        feedback regarding the scoping and implementation of projects 
        and discusses critical, institutional accessibility topics; and
        <bullet>  The three Communities of Practice (Instructional 
        Materials, Web, and Procurement) discuss institutional 
        strategies (policies, business processes) promising tools, and 
        emerging accessibility issues.

    <bullet> The ATI shifted its approach from the use of systemwide 
deadlines to a focus on continuous process improvement. This new 
approach, which is based on Capability Maturity Model Integration,\10\ 
emphasizes that campuses continuously improve their capabilities to 
reliably, promptly, and effectively meet the accessibility needs of 
their students, staff, and faculty. This approach encourages campuses 
to assess their current capabilities and priorities to best determine 
where institutional efforts should be directed and then tailor their 
accessibility implementation to the specific needs of their campus 
community.
---------------------------------------------------------------------------
    \10\ CMMI Overview (http://www.sei.cmu.edu/cmmi/).
---------------------------------------------------------------------------
    <bullet> ATI accessibility requirements for procurement were 
revised to focus on technology products with the highest impact, rather 
than those within specific product categories or whose purchase met 
specific, prescriptive thresholds (e.g., dollar limits). This shift 
encourages campuses to focus resources on those products for which 
accessibility limitations would pose the greatest barrier to persons 
with disabilities. In addition, it emphasizes that the accessibility 
status of high-impact products which are not subject to traditional 
procurement procedures (e.g., free applications or services such as 
Google Apps for Education) should still be considered.
    <bullet> The ATI significantly expanded and improved gathering and 
sharing of data derived from campus annual reports. Improvements 
include use of a web-based reporting application to streamline 
submissions, greater standardization of goals, success indicators, and 
status levels, and greater consistency in reporting structure across 
the three priority areas. These changes make it easier to gauge campus 
progress relative to the system as a whole, more easily discern areas 
of weakness/strength, and more easily select projects which targets 
areas of weakness. The CSU now has a reliable, replicable evaluation 
process that allows campuses to (1) review evidence-based management 
processes to evaluate campus ATI process and (2) use the new progress 
status level measurement system to assess ATI implementation progress.
                          delivering solutions
    The CSU is committed to leveraging our size to target critical 
institutional goals including achieving cost efficiencies--whether 
through coordinated procurement activities or the operation of shared 
services--and working with vendors to improve the accessibility level 
of products used by the CSU system and other post-secondary 
institutions throughout the country. Several examples of how we are 
delivering effective solutions are provided below.
                   center for accessible media (cam)
    Each of the 23 CSU campuses provides alternate formats of print 
materials for students with print disabilities (e.g., blindness, 
partial sight, learning disabilities) registered at that campus. 
Beginning in the early 2000s, utilization of alternate media services 
began to grow such that significant resources were being expended to 
produce these materials. Thus in 2004, the CSU Center for Accessible 
Media (CAM) \11\ was launched to provide a central web-based 
clearinghouse for all campuses to list, locate, and share curricular 
materials that have already been converted for use by students with 
print impairments. CAM currently lists 21,000 titles and facilitated 
1,500 file exchanges during the 2011 calendar year. By reducing or 
eliminating redundant efforts to produce these specialized materials, 
CAM produces hundreds of thousands of dollars in savings annually and 
improves time-to-delivery for students. Many of the University of 
California campuses currently contract with the CSU for access to CAM, 
allowing institutions and students from both systems to benefit from 
the agreement.
---------------------------------------------------------------------------
    \11\ Center for Accessible Media (http://cam.calstate.edu).
---------------------------------------------------------------------------
              automatic sync captioning services contract
    All 23 CSU campuses work to ensure that audio/video content is 
provided in a manner that is accessible to persons with disabilities 
including providing transcripts for audio files and captions for video 
files. Campuses historically contracted for captioning/transcription 
services independently. As a result, there was little consistency 
regarding which vendors were used or the rates they charged. In 2008, 
the ATI coordinated a systemwide RFP for captioning/transcription 
services. The primary goal of the project was to leverage the volume of 
transcription/captioning occurring across the system to secure volume 
discounts for all participating campuses. Automatic Sync Technologies, 
the winning vendor, provided CSU users a customized Web portal to their 
CaptionSync service. In order to achieve the desired cost savings, the 
ATI pre-purchases 6 month blocks of anticipated service usage for the 
entire system and then bills campuses back for actual usage at the end 
of each block. During the first 2\1/2\ years of this contract, the CSU 
has yielded savings of nearly $90,000. Service usage has increased each 
year since contract inception and satisfaction rates have been 
consistently high.
                   professional development web site
    A critical component of campus ATI implementations is the effective 
use of training and awareness materials that build campus capacity to 
effectively address technology accessibility issues. Given that all CSU 
campuses share this goal, the ATI launched the ATI Professional 
Development Web site \12\ to serve as a central web-based repository 
for materials developed by ATI staff, CSU campuses, and external 
entities with expertise in technology accessibility issues. Materials 
from this site are extensively used by CSU campuses and have been 
adopted by numerous post-secondary and government agencies.
---------------------------------------------------------------------------
    \12\ ATI Professional Development site (http://
teachingcommons.cdl.edu/access/docs_multi/pdf_vid_tut/
videos_only.shtml).
---------------------------------------------------------------------------
                    etextbook accessibility project
     eTextbooks are a rapidly growing segment of the post-secondary 
textbook market with a majority of the most commonly adopted post-
secondary textbooks now available in electronic format. eTextbooks are 
being heavily marketed to post-secondary institutions and students both 
for the expanded range of features they offer and potentially 
significant cost savings vs. print-based books. The ATI eTextbook 
Accessibility project \13\ is committed to supporting campuses in 
making informed adoption decisions regarding eTextbooks. To that end, 
the ATI recently released several checklist documents that campuses may 
use to gather consistent, standardize eTextbook product information. 
These documents were developed in close collaboration with CSU campuses 
and higher education publishers/distributors. The ATI will centrally 
aggregate these documents along with other relevant product 
accessibility information in order to reduce redundant efforts to 
gather this information. Moving forward, the eTextbook Accessibility 
project is currently developing a standardized template for conducting 
eTextbook accessibility evaluations that will facilitate comparing 
accessibility support across various eTextbook platforms.
---------------------------------------------------------------------------
    \13\ CSU ATI eTextbook Accessibility Project Briefing (http://
ati.calstate.edu/mod/book/view.php?id=315).
---------------------------------------------------------------------------
                   google apps for education project
    The CSU continues to leverage its size to advocate for improved 
accessibility support in widely deployed educational technology 
products. In 2010, the Google Apps for Education application suite was 
being considered for adoption by some CSU campuses; however the 
accessibility of the suite was questionable and needed further review 
before campus adoption. The CSU assembled a group of campus experts 
from several of our campuses (CSU Channel Islands, CSU Fresno, CSU San 
Diego, CSU East Bay) as well as the Center for Usability and 
Accessibility in Design at CSU Long Beach. These experts then performed 
an accessibility evaluation of the product and released the CSU Google 
Apps Evaluation report \14\ in 2011. This report described the 
accessibility gaps in the Google Apps for Education product and 
provided campuses information regarding potential workarounds for those 
gaps. The evaluation team then met with Google to share the report. By 
leveraging the accessibility expertise in the system to conduct a 
single coordinated evaluation, the CSU avoided the costs associated 
with conducting individual campus-based evaluations and ensured that 
all campuses received consistent information. In addition, the report 
led Google to make substantial changes to their Google Apps for 
Education applications which removed accessibility barriers for all 
users.
---------------------------------------------------------------------------
    \14\ CSU Google Apps Evaluation report (http://ati.calstate.edu/
mod/book/view.php?id=280).
---------------------------------------------------------------------------
        web accessibility evaluation and implementation project
    The CSU systemwide Web presence encompasses millions of Web pages 
and numerous Web applications and is the basis for delivering many of 
our instructional and administrative programs and services. It is 
therefore crucial that the CSU establish a comprehensive Web 
accessibility evaluation process that allows campuses to gauge the 
accessibility of our Web presence in an efficient and effective manner. 
In support of this goal, the ATI established two key objectives:

    <bullet> Institute a standardized set of automated and manual 
testing accessibility criteria for all CSU campuses that will result in 
more accessible content across the system and a more efficient workflow 
for users; and
    <bullet> Provide a broad audience of CSU personnel access to a Web 
accessibility evaluation tool that will help them publish accessible 
content.
                 the csu ati accessibility requirements
    A systemwide work group composed of representatives from the Office 
of the Chancellor and several campuses (CSU San Bernardino, CSU San 
Diego, CSU Channel Islands, Cal Poly San Luis Obispo) worked together 
to create a standardized set of accessibility requirements that 
integrate both automated and manual evaluation of Web page 
accessibility and associated procedures for completing the evaluation. 
The Universal Design Center at Cal State University Northridge is 
providing support to the entire system by managing the requirements as 
they are fine-tuned and providing training and support services to all 
campuses so that the CSU ATI Accessibility Requirements are 
successfully and effectively implemented at all CSU campuses. This 
project is delivering the following benefits:

    <bullet> Increasing the accessibility of Web content and Web 
applications by identifying barriers so that they may be removed;
    <bullet> Increasing Web accessibility at the time Web content is 
published by providing easy to use accessibility checkpoints and 
remediation resources;
    <bullet> Increasing the accessibility of web-based products 
purchased by the CSU by providing standardized Web accessibility 
evaluation criteria that 23 campuses may use when evaluating Web 
products; and
    <bullet> Providing cost savings to the system in personnel time and 
effort by offering these shared services.

    The CSU Web accessibility evaluation process has also been shared 
with a nationwide post-secondary audience via an online webinar. Other 
post-secondary institutions have expressed great interest in learning 
more about this process.
      the csu ati web accessibility evaluation tool implementation
    The CSU ATI recognized that a reliable evaluation methodology that 
is adopted systemwide would produce great benefits for students as well 
as improve the cost-effectiveness of the evaluation process. The CSU 
wanted to avoid having 23 different evaluation methodologies and tools 
that would result in confusion, conflicts, and inefficient use of our 
limited resources. The CSU ATI, in cooperation with our campuses, 
selected the HiSoftware Compliance Sheriff Web evaluation tool which 
resulted in a cost savings of $300,000 over 3 years. We also recognized 
that the tool needed improvements in order to extend its use to the 
wide variety of Web content personnel on CSU campuses and to help 
fulfill our goal to publish and purchase accessible content rather than 
remediate content after publication. The working relationship between 
the vendor and the CSU system brought together the necessary 
stakeholder groups to solve this problem. A group of students at Cal 
Poly Pomona conducted a needs analysis involving input from several 
campuses which resulted in a scope of work that the vendor (HiSoftware) 
agreed to use to make product improvements. Upon completion of the 
improvements to the tool, Cal Poly San Luis Obispo will be testing the 
product and documenting the process to ensure that the campuses will be 
able to utilize the tool to its full potential. This project has 
provided a more effective implementation of this Web accessibility 
evaluation tool across the CSU system and has led to meaningful 
improvements to a Web accessibility evaluation tool that is used by 
post-secondary institutions across the country.
               surveygizmo product accessibility project
    SurveyGizmo \15\ is a popular survey tool used by many post-
secondary institutions and corporations. The CSU ATI has been working 
with this company to improve the accessibility of the surveys created 
by the product. As a result of this work, the company has dramatically 
improved accessibility support over the past year--particularly for 
persons with visual impairments. The removal of these accessibility 
barriers benefits persons with disabilities across the country. In 
addition, SurveyGizmo has significantly improved the quality of its 
accessibility documentation including the development of a Voluntary 
Product Accessibility Template. This will allow institutions across the 
country that are considering this product to clearly understand the 
extent and nature of accessibility support provided by the product. 
Moving forward, the CSU will be working with SurveyGizmo to produce 
training materials that guide survey authors through the steps 
necessary to create accessible surveys.
---------------------------------------------------------------------------
    \15\ SurveyGizmo (http://www.surveygizmo.com/).
---------------------------------------------------------------------------
               accessibility and open education resources
    The CSU has been a leader in open education resources (OER)--free 
online teaching and learning materials--to improve the affordability 
and quality of learning though its project, called MERLOT (Multimedia 
Educational Resources for Learning and Online Teaching.\16\ CSU-MERLOT 
has made accessibility of OER a high priority and is implementing 
programs to raise the visibility and implementation of accessibility 
requirement in OER.
---------------------------------------------------------------------------
    \16\ http://www.merlot.org.

    <bullet> MERLOT has added easy to use tools for accessibility 
experts and users of OER to contribute structured information about the 
accessibility of the OER;
    <bullet> MERLOT has cataloged almost 100 open textbooks that have 
links to accessibility evaluation reports, providing users an 
assessment of the accessibility features of the resource;
    <bullet> MERLOT, in cooperation with the OpenCourseWare Consortium, 
will be building an online community and hosting an online webinar 
during International Open Education week (March 5-10, 2012);
    <bullet> MERLOT's Content Builder authoring tool to create OER is 
designed to product accessible OER; and
    <bullet> MERLOT will be facilitating higher education institutions 
and the OER community to grow the awareness of accessibility 
requirements and build accessibility into OER tools and services.
 standardizing the accessibility components of the procurement process
    By embedding accessibility into the procurement process, the CSU 
has the opportunity to minimize or avoid introducing accessibility 
barriers when purchasing technology products. The goal of this ATI 
project is to more tightly integrate accessibility into the procurement 
process by focusing on several key areas including process improvement, 
market research timing/techniques, and business procedures. A workgroup 
comprised of staff from the Office of the Chancellor and CSU campuses 
(CSU Sacramento, Cal Poly Pomona, San Francisco State, CSU Long Beach, 
CSU Channel Islands, CSU Fresno, and Cal Poly San Luis Obispo) are 
developing a number of important resources (e.g., standardized 
accessibility language for product solicitations and purchase 
contracts, Equally Effective Access Plan templates) and recommendations 
(e.g., adoption timelines, testing practices, and creating equally 
effectively access plans). Several of these resources are currently 
being piloted by campuses. This project is expected to significantly 
improve the ability of CSU campuses to ensure they are purchasing the 
most accessible, barrier-free EI&T products.
              csu accessible technology network (csu atn)
    The CSU is developing the Accessible Technology Network (CSU ATN), 
a shared services network, that will serve the CSU and other higher 
education institutions. This network will leverage the campus 
accessibility experts across the system to provide shared services in 
several areas of accessibility including: (1) Accessible product review 
and testing; (2) Working with vendors to increase the accessibilities 
of products; (3) Exploring new and innovative solutions for accessible 
instructional materials; (4) Promoting accessibility awareness; and (5) 
Providing training.
    The CSU ATN is currently in the planning and development phases. 
When completed, the project is expected to provide numerous benefits 
including:

    <bullet> Reducing redundancy and lowering accessibility costs by 
reviewing and testing commonly used CSU products once;
    <bullet> Improving the accessibility of technology products and 
accessibility documentation (e.g., Voluntary Product Accessibility 
Templates) for all educational institutions through vendor 
collaborations; and
    <bullet> Providing CSU campuses and other post-secondary 
institutions with high quality training by leveraging campus experts in 
various disciplines.
california department of rehabilitation (dor)/csu interagency agreement
    In 2011, the California Department of Rehabilitation contracted 
with the CSU to deliver a comprehensive Web accessibility training 
curriculum for a group of Community Based Organizations (CBO's) that 
serve persons with disabilities across the State. Staff from the CSU 
Office of the Chancellor, CSU campuses (CSU Northridge, CSU Channel 
Islands, Cal Poly Pomona, and CSU Long Beach), and the Center for 
Usability in Design and Accessibility at CSU Long Beach conducted 14 
sessions covering a variety of topics and produced a collection of 
training materials to accompany these sessions. The CSU intends to 
share these training materials publicly later this year.
                  aleks product accessibility project
    In an effort to develop and distribute web-based course products 
that are fully accessible to blind and low-vision students, ALEKS 
Corporation \17\ will be engaging the consulting, testing and research 
capabilities of the CSU. This project will result in significant 
improvements to accessibility support for their widely deployed 
mathematics application--particularly for those with visual 
impairments. The improvements made to ALEKS will benefit post-secondary 
institutions and students across the Nation.
---------------------------------------------------------------------------
    \17\ ALEKS (http://www.aleks.com/).
---------------------------------------------------------------------------
                    national federation of the blind
    The CSU recognizes that post-secondary institutions share common 
goals with disability advocacy groups regarding the removal of 
technology accessibility barriers. To that end, the CSU has established 
relationships with executives at the National Federation of the Blind. 
This partnership, while young, has led to several collaborations 
including a CSU presentation on eTextbook Accessibility at the NFB 
eBook Symposium in 2011 and a shared presentation to be delivered at 
the CSU Northridge Annual International Technology and Persons with 
Disabilities Conference in March 2012, as well as extended discussions 
regarding future joint projects.
                     suggestions for federal policy
    As the testimony above has outlined, the level of accessibility 
support provided by educational technology products is inadequate. The 
CSU certainly recognizes that section 508 accessibility requirements 
apply to those who adopt technology (rather than those who produce it); 
however, our experience operating the ATI for the past 7 years suggests 
that this model of driving vendor accessibility improvements via 
procurement activities has not resulted in sufficient progress. We 
therefore offer the following suggestions.
    First, CSU campuses commonly hear from technology vendors that 
other customers including Federal and State Government entities across 
the country are adopting products despite the presence of serious 
accessibility barriers. This suggests that their section 508 
implementation is insufficient to drive market changes. We therefore 
suggest that Federal entities be charged with ensuring that section 508 
procedures are revised to more adequately address accessibility 
including:

    <bullet> Validating product accessibility documentation;
    <bullet> Conducting conformance testing prior to adopting high-
impact products; and
    <bullet> Sharing test results with other government and education 
entities to reduce redundant efforts.

    Next, the CSU would also ask that Congress require recipients of 
Federal grant funds to ensure that technology products developed as 
components of these grants conform to section 508 standards and would 
urge the Department of Justice to send a ``Dear Colleague'' letter to 
the 100 largest IT vendors, reminding them of the importance of 
ensuring that their products are accessible to persons with 
disabilities.
    Finally, the CSU also strongly supports the recommendations from 
the AIM Commission report \18\ including revising the scope, 
effectiveness, and function of the Copyright Act as amended (Section 
121, the Chafee Amendment) to broaden the definition of individuals 
eligible for specialized formats, and authorizing the U.S. Access Board 
to establish guidelines for accessible instructional materials that 
will be used by government, the private sector, and post-secondary 
institutions.
---------------------------------------------------------------------------
    \18\ Report of the Advisory Commission on Accessible Instructional 
Materials in Post-Secondary Education for Students with Disabilities 
(http://www2.ed.gov/about/bdscomm/list/aim/publications.html).
---------------------------------------------------------------------------
    The CSU applauds the committee's devotion to ensuring equal access 
to a quality education for all Americans, and appreciates your interest 
in technology as a promising tool in meeting that goal. We welcome the 
opportunity to be a resource to you as you continue to explore ways to 
ensure access and success in higher education.

    The Chairman. Thank you very much, Mr. Turner. I noticed 
Attorney Hill was taking a note on that issue about what they 
should be doing. Mr. Riccobono, we will start with you. In your 
written testimony, you did not mention it verbally, but I 
understand you have a child about to enter kindergarten or 
somewhere in that neighborhood?
    Mr. Riccobono. I do, yes.
    The Chairman. OK. And I understand that child has a visual 
disability.
    Mr. Riccobono. That one does not.
    The Chairman. Pardon?
    Mr. Riccobono. It is my younger child that has the same 
form of eye condition that I do.
    The Chairman. OK.
    Mr. Riccobono. She is a ways from school yet.
    The Chairman. OK. I guess I wanted to talk about that to 
say, OK, so what are you focusing on to make sure that all 
children like yours, when they enter preschool and they get 
into kindergarten, that they have that technology and the 
curricula readily available, as we always say, from the very 
beginning?
    Mr. Riccobono. Absolutely. There is a huge awareness piece 
that we are working on through the National Federation of the 
Blind to help these companies design this technology from the 
beginning. And the educational technology is some of the most 
important technology.
    But we do not think we have met the tipping point yet. I 
mean, recently the Baltimore City Schools, which is where I 
live, announced a project to put the Barnes & Noble Nook 
product into their middle school libraries. This is public/
private partnership. And we said to the Baltimore City Schools, 
the Nook is not a product that is accessible, that has any 
accessibility for people with disabilities. And, the school 
district's response was, well, we will get our folks to look 
into it.
    Now, we have the headquarters of the National Federation of 
the Blind right there in Baltimore. It is probably the best 
collection of experts on technology anywhere in the world, and 
we are available to them. So, it is quite frustrating to try to 
get people's attention and awareness to know that, they are 
making a huge mistake when we could solve this from the 
beginning if we worked on it together.
    The Chairman. What is that saying about nothing about us 
without us, you know?
    Mr. Riccobono. Absolutely.
    The Chairman. Nothing about dealing with the disability 
community without having them involved from the very beginning.
    Mr. Riccobono. And, something you said earlier really 
resonates, that it is not just about education. I am a blind 
father. I am examining schools to see where is the best place 
for my son to go to school. And many of the Web sites for the 
schools are not very accessible, or the data about how the 
school is performing is not accessible.
    If the students are not getting it, and the parents are not 
getting it, that just radiates also to the employees of the 
school district.
    If this was accessible for one category of students, the 
same technology is going to be filtering information to the 
public, to the parents, to the employees. So, the economies of 
scale and accessibility are just tremendous.
    The Chairman. Yes, exactly. Thank you.
    Dr. Quick, you have a marvelous outcome that many school 
districts have been striving for over the past 6 years. Your 
special education population has decreased by 2 percentage 
points, a 14 percent drop. Pretty significant.
    What role has your UDL, as you call it, played in this 
decrease? Has it contributed to that?
    Mr. Quick. Absolutely, it has helped. We look at students a 
couple of different ways. I mean, all of our students should be 
included. All of our students are general ed students. Some 
happen to have a disability. And all of our general ed students 
need special services because we know that it needs to be a 
school of one.
    What we try to do is look at options. So, a student that 
comes to us, what are the barriers, what are those options? 
Does the student need recorded textbooks, Braille, and voice to 
text? Whatever they need, those are the things that we look at.
    It has helped us because you look at it on the front end. I 
work with architects a lot in Columbus, and we build a lot of 
buildings. We should be at least as thoughtful in our 
curriculum instruction because no architect I sit down with 
ever thinks about designing anything that we build without the 
accessibility. But yet, sometimes we do not look at things on 
the front end and say, how are we going to make these things 
accessible? So, we should be at least that thoughtful.
    The only way I think that we are going to sustain that is 
for folks to write great policies because we know that the 
policies of that--and you were a part of a lot of those 
policies, they drove change. And they drove a different reality 
for our students. So, we appreciate that.
    The Chairman. Yes, because I think a lot of times students 
that are in special education is simply because they do not 
have the right accessibility to either the material or the 
technology. Once they get that, they are not a special ed 
student any longer.
    Mr. Quick. Absolutely, it is the case.
    The Chairman. So, this is another factor for schools to 
think about, the expense and everything. Again, if we do not 
have that expense of what they call special education and you 
decrease it by 2 percentage points, not only are you helping 
the budget problems, you are also helping the other students 
who are not disabled.
    Mr. Quick. Absolutely.
    The Chairman. They call that a win-win situation.
    Mr. Quick. I think so. And, I think sometimes folks want to 
look at, well, I have to have enough money to do everything 
that I want to do, rather than start, because this is a 
journey.
    The Chairman. Sure.
    Mr. Quick. We have to take a bite of this elephant one bite 
at a time here kind of thing. And sometimes folks want to wait, 
but we cannot wait for the iPad 3, you know.
    The Chairman. That is right.
    Mr. Quick. We have to start and we have to work with all of 
the stakeholders to find out what is that environment that 
serves the student the best.
    We certainly have had a lot of success with Universal 
Design for Learning using project-based learning in a 
technology-rich environment, and trying to get to the point 
where we have one device for every three students. But in some 
of our schools, we are one-to-one with devices.
    Folks are talking about how do you have scale up, and if I 
would have some advice for you there, Senator Harkin, is after 
working on this for a number of years that we have had and 
trying to have ambition is, we are going to have to have 
centralized support for a decentralized philosophy, which says 
students can bring their own device. Students can bring their 
own technology, and we are going to have to support it.
    Now, some students cannot afford to bring their own device, 
so then we need to use our textbook rental differently to rent 
devices instead of renting textbooks, or to budget our capital 
dollars differently, or bond some money differently so that we 
can get the devices to students that cannot bring their own 
device. But we are going to have to be able to support it.
    It needs to get to the point where, a few years ago you 
were in trouble if you brought your cell phone to school. You 
need to be in trouble now if you do not bring your smart phone 
to school, or some device. That is what we have to do, get that 
centralized support and get the infrastructure so that the 
students--because students have these things, a lot of our 
students now.
    Even though half of my students are on lunch assistance, 
three-quarters of them have some sort of device now. And we are 
going to have to say bring that device and we will support it, 
and then expand on that, but not be tied to a specific device, 
because I did not have an iPad. I did not carry an iPad, a year 
ago or 2 years ago, so we cannot be tied to a specific device.
    The Chairman. It is an interesting concept. I do not know 
that I have really thought about that. We always tend to think 
about a specific device.
    Mr. Quick. I think the only way we can afford to scale up 
is if students can bring their own device, and those that do 
not have the device, we need to find the funding to get the 
device for those students.
    The Chairman. I guess the more I think about it, most of 
the devices we have had, what would I call it, interoperability 
or something like that? Programs are being designed and 
software is being designed to be applicable to different 
devices. We know that.
    Mr. Quick. Right.
    The Chairman. So, you could obviously design curricula that 
would be adaptable for different devices.
    Mr. Quick. Right.
    The Chairman. I will have to think about that. That is very 
perceptive. I have never thought about that before.
    If you have some more on that, Dr. Quick, that you have 
developed, just your thinking on that, and how that would 
proceed in an elementary and secondary education school system, 
I would like to have that.
    Mr. Quick. We are doing it now with about 1,400 in a pilot. 
We have two magnet elementaries where it is one-to-one, second 
grade through six. And we are doing a project based on a 
technology pre-K to 12 now. So, we have a place where you can 
visit and see this kind of thing, and you would be welcomed. 
But we can send you more information on that.
    The Chairman. Are you covering blind students that come in?
    Mr. Quick. We do. We work with the families. There is also 
a residential setting in Annapolis. We bus some students up 
Sunday night and pick them up Friday. But we also have a 
vision-impaired specialist that works with the district, 
depending on, again, whatever environment when we work with the 
families and the students that they think they can best serve.
    The Chairman. One last thing before I turn to Mr. Turner. I 
had an instance of this some time ago when we were doing some 
grants to schools for technology. This has been almost not 
quite 20 years ago, maybe 15 years ago. And what we found the 
biggest stumbling block was, was getting the teachers who knew 
how to use the technology. They were not trained to do that. 
And so, it set us back a couple of years while teachers learned 
how to use the technology.
    So, what I just want to know about is, are the new teachers 
you are hiring, are they coming in with the knowledge about 
your Universal Design for Learning, or UDL, and accessible 
technology? If not, what training do you need to do to get them 
to understand the framework? Should teacher preparation 
programs be teaching UDL?
    Mr. Quick. They should be, and there is not enough scale up 
in that. But I do see a shift. Think about this. Pretty soon 
there will be someone that--you are born in 1980 and you got 12 
years of teaching experience now. And you are probably a 
digital native because you have lived with it. So, do not be 
afraid to get technology into the classrooms, because the 
natives will use it, including all of those folks there. So, we 
need more training and particularly in a framework.
    But the Universal Design for Learning is not taught to the 
degree we would like, and so we do take the teachers through a 
3-day orientation on their dime before they teach any of our 
students.
    The Chairman. How about your State education association? 
Are they involved--you have schools in Indiana where you have 
teacher preparation courses.
    Mr. Quick. Right, absolutely.
    The Chairman. Are they involved at all in making sure that 
the respective teachers know how to use this technology?
    Mr. Quick. Yes. I think that part is pretty good.
    The Chairman. OK.
    Mr. Quick. But, again, it is about designing it from the 
framework. Make sure that folks understand the framework that 
you need to tie this technology to so that it has its best use. 
That we need some more work, teacher training, and IU in charge 
of that is on my school board. So, we are texting today.
    I think that has come a long way, but there is--certainly 
teacher preparation is key. I am concerned about that. I am 
also concerned about the number of young people not going into 
teaching because of the job market and everything. So, I think 
that technology could be and this kind of thing could be a hook 
to get some of those young people in if they thought that they 
would have the tools that they needed.
    The Chairman. Sure. How do you feel about using technology 
in the lowest grades, kindergarten, first, second, third?
    Mr. Quick. In our corporation, there are about 900 4-year-
olds in my 10 counties; 750 are in pre-K this week using 
technology through efforts that we have had. So, our businesses 
has been very good partners with that. So, from day one.
    My 2-year-old grandson uses my iPad. You need to start from 
day one. It is intuitive. You need to start. And iPads 
particularly because it is interactive, and that is really 
going out there.
    Let me give you an example. We had a non-English speaker 
come to us, 4 years old. Everywhere he went, they took an 
interpreter. When he enrolled, mom and dad came with an 
interpreter. By Christmas, they had a doctor's appointment, and 
the 4-year-old says, no need, I got this. I can do this. So, 
that is how quickly I think that we can do it if we put the 
right information there.
    The Chairman. Thank you very much, Dr. Quick.
    Now, let us move to higher education. Mr. Turner, again, 
you think about higher education and the applicability of this. 
You have extended this to all your campuses in California. 
Google Apps for Education made substantial changes to their 
applications to remove all accessibility barriers from working 
with Cal State and your program. What role did your office and 
program play in this process? And how has the technology 
improved for people with disabilities? And, again, segue from 
that into what can you tell other education settings about 
working with manufacturers and providers who do not produce or 
distribute accessible technology?
    Mr. Turner. With forgiveness, Chairman, I should also 
clarify--I should start by clarifying that, lest I be stoned by 
the crowd. Google Apps for Education continues to manifest some 
accessibility gaps. I would not want to characterize that the 
result of our work with Google has resulted in an accessibility 
barrier free product.
    Having said that, the nature of our work with Google 
involved bringing together a panel of Web accessibility experts 
from across the CSU, identifying critical use cases that 
reflected the common functions and activities for which Google 
Apps for Education applications would likely be used in a 
higher ed implementation, and then conducting testing to 
validate the extent to which accessibility support was or was 
not present for those functions and those applications.
    One of the critical components was that we not only make 
that report that listed both barriers and recommendations for 
work arounds available to our campuses, but that we turn around 
and provide that report to the vendor. And that is a feedback 
loop that I often see higher education institutions fail to 
exercise.
    Vendors, we find, will be responsive when we bring them 
specific problems with specific suggestions for how they can be 
resolved, and an understanding as to why they are important.
    That was something of the nature of our process, and we did 
have a meeting where we shared those findings with Google. And 
they made a somewhat general forward looking statement with 
respect to the manner in which and the timing by which the gaps 
that we identified would be resolved.
    If I might, you asked a second question, which was, do we 
have recommendations for post-secondary institutions? Might I 
briefly speak to that?
    The Chairman. Yes.
    Mr. Turner. I would like to piggyback on earlier testimony 
and your interest in operability, and suggest that if 
interoperability is building, the foundation for that building 
is accessibility standards and coding the standards. And one of 
the key messages we convey to vendors, irrespective of the type 
of technology product, is to the extent that you build products 
that comply with accessibility standards, you will resolve 
likely a large percentage, perhaps a large majority, of the 
potential accessibility barriers that might otherwise be 
present in your product.
    So, a very strong message to vendors is you do not have to 
be an accessibility expert to make an accessible product. What 
you have to do is start with coding the standards, and then 
bring in feedback from your user base, from disability advocacy 
groups, and from the outside experts if necessary in accessible 
technology, and they can help you build that accessible 
product.
    The Chairman. I am still thinking that what you have done 
in California, and you started on this about 6 or 7 years ago, 
something like that?
    Mr. Turner. That is correct.
    The Chairman. Six years ago?
    Mr. Turner. Yes.
    The Chairman. Are there any other State systems doing what 
you are doing that you have been working with, mentoring?
    Mr. Turner. There are a number of institutions across the 
country. I would imagine what distinguishes the CSU is just the 
sheer size of our system.
    The Chairman. True.
    Mr. Turner. Attempts to coordinate a systemwide effort of 
this sort when, again, as we said, our community is a half 
million people when you add in staff, faculty, and students. 
There is an extraordinary amount of coordination involved in 
trying to achieve that. But there are innumerable other 
institutions across the country that are demonstrating 
leadership in various areas, and we regularly will talk with 
one another, compare notes, compare strategies, in efforts to, 
kind of both harmonize and strengthen one another's messaging.
    The Chairman. I guess what I am thinking of is, earlier, 
last week--what I would refer to as the private non-profit 
colleges were all here in Washington from around the country, a 
number from my home State of Iowa. And some of them I know very 
well; I have visited their campuses in my State. Some do a much 
better job than others. Some are a little bigger. Some have a 
better endowment than others, and they can do things.
    But I guess I wish I had had this hearing before I met with 
them. I am wondering why--they have a national network. They 
have a national office for the private non-profit colleges. I 
am just wondering, though, they can have a big stick if they 
all joined together and did what you did at CSU.
    Mr. Turner. I would agree with that, and I would encourage 
them to do so.
    The Chairman. I will encourage them to do so. Believe me. 
As I said, I wish I had had this hearing and read your 
testimony before I met with them last week. But I am going to 
meet with them and ask them--I guess I am asking, do you know 
if you have met with any representatives from the private 
colleges about this? And I do not mean to pick on the privates. 
I mean, how about the regent schools, all of the State schools, 
whether it is Arizona or Iowa or Nebraska or whatever, with the 
public universities? Have they been reaching out to you to get 
advice, suggestions, how they should do things, what mistakes 
you made and they do not need to make now.
    Mr. Turner. Indeed, I would not consider it a systematic 
campaign to beat down our doors for information. But there is a 
tendency for campuses to want to somewhat discretely reach out 
and ask for suggestions on lessons learned with respect to 
particular technologies, to understand the nature of 
discussions we may have already had with vendors so that they 
can reinforce, where appropriate, messaging, and things of that 
nature.
    The Chairman. Let me reemphasize what you said in your 
verbal statement. It is part of your written statement. 
Suggestions for Federal policy, you said,

          ``First, CSU campuses calmly hear from technology 
        vendors, that other customers, including Federal and 
        State Government entities across the country, are 
        adopting products, despite the presence of serious 
        accessibility barriers. This suggests that their 
        section 508 implementation is insufficient to drive 
        market changes. We, therefore, suggest that Federal 
        entities be charged with ensuring that section 508 
        procedures are revised to more adequately address 
        accessibility, including validating performance 
        testing, sharing results.''

    Are you saying that perhaps in our education policy for 
higher education, I think of anything from our Pell grants to 
our guaranteed student loans, our Stafford Loans, Perkins, all 
the different things that we are involved in, in higher 
education work study programs. Are you saying that Federal 
policy ought to weave into that, that 508 has to be implemented 
by these schools, I mean, as an extension of the Federal 
Government, that we are providing all of this, so, therefore, 
we ought to make sure that their vendors are adopting products 
that do not have serious accessibility barriers? Did I make 
myself clear?
    Mr. Turner. Yes, your question is clear. It may be perhaps 
that my written testimony was perhaps less so, so let me 
clarify, if I might.
    The Chairman. OK.
    Mr. Turner. What I am speaking to in that statement is the 
observation over a period of many years that 10 years 
postpassage of section 508, there is a significant disconnect 
between division of a market-based solution to universal 
technology and the array of technologies that are actually in 
the marketplace, and with rather distressing frequency.
    When we raise questions or concerns with vendors regarding 
the accessibility of their products, we regularly hear 
something to the effect of, well, such and such department in, 
the Government uses this product and they did not have any 
concerns about accessibility. Or, the State of Massachusetts is 
using it, and they do not have concerns about technology.
    But it appears that there is product adoption occurring by 
entities subject to 508, at both State and Federal levels, 
where by all appearances the level of analysis that is 
undertaken to credibly review vendor accessibility statements 
is insufficient, and where products are being accepted despite 
the presence of more accessible alternatives in the market 
place.
    What I am respectfully suggesting is not that 508 
procedures are not in place, but that they are not sufficiently 
robust to provide the feedback loop we feel is critical for the 
development of a market-based solution where vendors deliver 
more accessible products.
    The Chairman. I understand. I understand that clearly now. 
However, having asked that question in the way I did, let me 
restate it then. How would you feel, what do you think about 
the Federal Government then using all the grant programs and 
everything that we do for higher education, and having some 
requirements therein for schools to adopt stronger 
accessibility requirements?
    Mr. Turner. In principle, I strongly support that.
    The Chairman. Reading your testimony, I got an idea for 
maybe doing some prodding and some mutual work here with our 
institutions of higher learning, because what you have done in 
California, from what I know of it, has been really good. And I 
just see that it is not happening like that around the country. 
And I think we have to have a more determined effort to, again, 
do in higher education what Dr. Quick has done in Columbus, IN 
in his elementary and secondary schools, and I guess preschool, 
too, from what I have just heard.
    Michael, my staff, just said to ask you about how you got 
Apple, and I read it in your testimony last night about how you 
got them to change their iTunes. How did you do that? That was 
in your testimony. I read it last night. Oh, yes. Your staff 
evaluated Apple's iTunes U product, which was being offered to 
post-secondary institutions across the Nation, and determined 
that the product manifested serious accessibility barriers, ET 
cetera, ET cetera. Tell us about that a little bit.
    Mr. Turner. Certainly. I will try and do so as briefly as 
possible.
    This was one of the earliest activities upon my arrival to 
the Accessible Technology Initiative. At that time, Apple had 
recently expanded the iTunes application, which had heretofore 
been used primarily for, individuals accessing their individual 
libraries of media, into an initiative entitled iTunes U or 
iTunes University. They were very aggressively marketing iTunes 
U as a free--free as no licensing fee--adoption option for 
universities across the country to make available audio and 
video content, whether it be related to instructional 
activities or for administrative functions, such as committee 
meetings and things of that nature.
    A number of CSU campuses approached the staff at the 
Accessible Technology Initiative and requested that we provide 
guidance to them on the suitability of iTunes U as a platform 
to be made available for deployment across the system.
    We undertook an accessibility evaluation of iTunes U and 
found it to be profoundly inaccessible, which is to say, for 
those familiar with the iTunes U interface, it is extremely 
rich. It has a number of controls, a high degree of 
functionality. And there was one user interface element on that 
entire interface that was accessible, and that was the search 
field.
    If you were a user of screen reader technology, that was 
the one control you could perceive out of that entire program's 
interface.
    So, we had grave reservations about recommending that 
technology at that time to campuses, and indicated so in a 
coded memorandum to campuses, prescribing that the technology 
not to be used in a production environment until such time as 
the vendor had made material improvements to the accessibility 
of the product.
    We then began coordinating activity with Apple, directly 
with their accessibility engineers, their product managers, to 
make them aware of the range of accessibility issues we 
encountered, to provide guidance on particular priorities we 
needed them to address in order to provide the most substantive 
improvements to accessibility, and offered to be available to 
review intermediate steps, beta builds to the product as they 
made those improvements. So, that was all codified in our coded 
memo, and became the basis for a relationship with iTunes U 
that spanned the year of, I want to say, 2008.
    By the end of that year, they had met all, I believe it 
was, eight of the essential requirements we set forth. And to 
refer to an analogy you had drawn earlier where you talked 
about the technology and the curriculum. We used the term 
``content and container.'' So, the technology was the 
container. That was the application. But one of the gaps that 
we asked Apple to address was that video content that flowed 
through iTunes did not have the capacity to support closed 
captioning at the time that we evaluated the product.
    So, by the end of 2008, they had met all of our 
requirements, all of our highest priority requirements. And we 
provided clearance through another coded memo to our campuses 
allowing them to consider usage in a production environment.
    The Chairman. So, you got it done in, what, 2 years?
    Mr. Turner. In a period of about 12 months.
    The Chairman. Oh, 12 months? So, it was less than a year. 
My goodness. Do you think that is possible with all these other 
applications that we can get it done that fast?
    Mr. Turner. Not all applications have the depth of 
resources----
    The Chairman. That Apple does.
    Mr. Turner [continuing]. That Apple does. And, indeed, one 
of my messages to Apple was that they were not leveraging the 
accessibility expertise that existed in their own institution; 
that they had become so large that we felt the accessibility 
team had not been deeply involved enough with the product team 
because they were in different silos.
    The Chairman. Good. You know, we are talking about ATI 
today. What is the Center for Accessible Media? Can you explain 
that? How has it saved money, I understand, for the university?
    Mr. Turner. Absolutely. I would be happy to speak to that.
    The Chairman. Just tell me about that.
    Mr. Turner. In the early 2000s, we began to notice a 
significant up-tick in requests for alternate media. These 
would be specialized curricula materials that are adapted for 
use by students with a variety of print disabilities. That 
could be blindness, low vision, learning disabilities, or any 
number of other conditions that create a functional impairment 
in the area of reading.
    As we began to see utilization increase significantly, we 
began to look to opportunities to leverage the work that was 
being done across the systems so that we were producing an 
accessible version of a book once rather than 23 times across 
23 campuses.
    We conducted a needs assessment, conducted a feasibility 
study, and began development in 2003 on a Web application that 
would facilitate campuses listing, requesting, and receiving 
copies of specialized materials that have already been adapted 
for use by students with print disabilities so that they could 
be shared across our system.
    That Web service launched in 2004. It now lists 21,000 
titles that are available to CSU campuses. In subsequent years, 
the University of California, I want to say six of the UC 
campus now, also contract, have access to this repository. And 
annually it facilitates between 1,400 and 1,500 requests from 
campus to campus. That is 1,400 to 1,500 instances in which 
campuses avoid redundant efforts to produce these specialized 
materials.
    The Chairman. That is good.
    Mr. Turner. Obviously that significant cost savings for 
those of us familiar with producing specialized formats, it can 
be a very time and resource intensive process.
    The Chairman. Very good. Great explanation. I see my time 
is running out.
    Again, Mr. Riccobono, Dr. Quick, and Mr. Turner, have 
things come up in this hearing that you want to respond to, or 
are there some questions I should have asked you that maybe you 
wish I had asked and I had not asked that you would want to 
expound upon?
    Mr. Riccobono.
    Mr. Riccobono. I would just add a few things. First of all, 
to say I really appreciate your leadership in putting this 
hearing together, in fact, a series of hearings on educational 
technology because it is a critical issue.
    You know what Dr. Quick talked about in terms of 
interoperability and students bringing devices is quite 
important. And I think it underscores two things: one, that 
there needs to be more understanding of accessibility amongst 
the general IT professionals where the access to technology is 
not a separate product that comes out of a closet, that it is 
in all these devices, and they are going to need to know how to 
deal with them.
    Also, to your point about the curriculum. It is great that 
the iPad has built in accessibility, but if the educational 
apps that are being used from whatever the book publisher is or 
the educational content producer that has produced an app to 
deliver the particular content, if that app does not have 
controls that are labeled properly or the app does not interact 
properly with accessibility, then it does not matter if the 
device is accessible. So, that is where the curriculum 
accessibility really comes in and those standards comes in.
    Another two things I would say is, we need to change the 
culture around accessibility to get people talking about it 
more. Even Apple, who we all acknowledge is doing some 
innovative things in accessibility, they do not talk about it. 
It is like taboo to talk about that there is accessibility in a 
product.
    I am not sure where that comes from, but I think, 
leadership on this committee could really help companies that 
are trying. I think part of it is that they do not feel like 
they have everything figured out. I think we need to get that 
out in the open to say, ``Hey, we are working on it, and here 
are some innovative ideas we have.'' But no one is talking 
about accessibility. And you certainly do not see them waving 
the flag when they are trying to sell it. It is sort of very 
much very behind the scenes.
    The final thing is, I think that market power, if we can 
get the schools and the universities to start working together, 
again, start talking about accessibility, requiring it in their 
contracts, and then sharing information amongst each other 
about what is accessible and what is not, and really requiring 
it, not buying products. I think Mr. Turner's examples are 
great ones of companies that, when they said, ``No, we are not 
going to deal with your product because it is not accessible,'' 
that got the company's attention, and they made substantive 
changes that made their product accessible, not just in 
California, but across the Nation.
    Mr. Turner. Very good. Your point is well-taken that this 
should be discussed more, it should be out in the open more. We 
need to be asking more questions. And those companies that are 
doing a good job of this ought to put that in their 
advertising.
    I think it has a much broader appeal than just to the 
disability community.
    Mr. Riccobono. Absolutely.
    The Chairman. Much broader.
    Dr. Quick.
    Mr. Quick. Engagement is also awfully important. I can 
remember as an elementary principal going from class to class, 
I would too often hear, ``Well, you just missed it, we are 
getting ready''--or, there was not the engagement.
    Technology, and, it is a tremendous waste not to have 
access and not to have engagement. One of those, since I am 
also the fellow that gets some of the discipline things that 
comes my way, one school that we redesigned, and this project, 
technology-rich environment, UDL doing these things that we 
did. They had 400 discipline referrals the year before the 
design. Now, if they have two or three a month.
    Mr. Turner. Really?
    Mr. Quick. It makes a difference. Students need to be 
challenged, and they need to be engaged. And there is a lot of 
wasted time on discipline, and part of it is just clearly that 
our students are frustrated. So, I would recommend that there 
are some other kinds of results that you may not think of as 
traditional.
    The Chairman. Put a little bit more meat on that bone. Why 
did all the discipline things go down so big after the 
adoption?
    Mr. Turner. Because the students felt they had ownership, 
first of all. Project-based learning that we try to do, and 
then we used technology with it. They feel like it is 
authentic. They are involved with it. They are engaged. You 
have a lot of students that need--maybe their attention span is 
10 or 15 minutes or so, and technology is very patient, too. 
They do not lose their temper or their patience with a student. 
And that can be helpful, too.
    It is a give and take. But I think that if we engage 
students and do a better job at this accessibility, the 
discipline issues that we have in schools will greatly--and any 
time that you can spend time working with students rather than 
working with the discipline issue, that just snowballs the 
amount of learning that happens. It is much more learning 
centered, and that is the key.
    When you make a decision, is it going to enhance the 
likelihood of learning or not? And that is what we should be 
looking at. Learning is our product here.
    The Chairman. That is very interesting. That is something I 
never even thought about, but now that you have jogged my 
thinking on it. Of course I have seen a lot of kids who are 
discipline problems because maybe they are autistic or 
borderline autistic, and they are not being challenged in the 
right way. They are not getting the learning material in a way 
that they can understand, and they get frustrated, and they act 
it out. So, if technology can overcome that, as you indicated 
earlier in your testimony, I can see now that that reduces 
discipline problems.
    Mr. Quick. Absolutely.
    The Chairman. Interesting. Any last things, Mr. Turner?
    Mr. Turner. I would just indicate that we stand arm in arm 
with the National Federation of the Blind on our core 
messaging, which is we want all students to be able to use the 
same products at the same time with the same features for the 
same cost.
    The Chairman. Do you have that written down? I want to use 
that in the future. I cannot think of a better way to end the 
hearing.
    Thank you all very, very much for your input. As I said, 
this is the first of a series of hearings that we are going to 
be having on this topic. Again, thank you all very, very much.
    Mr. Turner. Thank you.
    The Chairman. The committee will stand adjourned.
    The record will stay open for 10 days for Senators to 
submit statements and questions.

    [Whereupon, at 4:13 p.m., the hearing was adjourned.]

                                [all]


</pre></body></html>
